<html>
<title> - LEVERAGING HIGHER EDUCATION TO IMPROVE EMPLOYMENT OUTCOMES FOR PEOPLE WHO ARE DEAF OR HARD OF HEARING</title>
<body><pre>[Senate Hearing 112-870]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-870

 
 LEVERAGING HIGHER EDUCATION TO IMPROVE EMPLOYMENT OUTCOMES FOR PEOPLE 
                    WHO ARE DEAF OR HARD OF HEARING

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING LEVERAGING HIGHER EDUCATION TO IMPROVE EMPLOYMENT OUTCOMES 
           FOCUSING ON PEOPLE WHO ARE DEAF OR HARD OF HEARING

                               __________

                   OCTOBER 11, 2011 (Washington, DC)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                  U.S. GOVERNMENT PRINTING OFFICE
87-493                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aeb9a689aabcbabda1aca5b9e7aaa6a4e7">[email&#160;protected]</a>  


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania   RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina         ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                 JOHN McCAIN, Arizona
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado          LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island     MARK KIRK, Illinois           
RICHARD BLUMENTHAL, Connecticut      


                    Daniel E. Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, OCTOBER 11, 2011

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     3

                           Witnesses--Panel I

Hurwitz, T. Alan, Ph.D., President, Gallaudet University, 
  Washington, DC.................................................     5
    Prepared statement...........................................     7
Buckley, Gerard J., Ph.D., President, National Technical 
  Institute for the Deaf, Vice President and Dean, Rochester 
  Institute of Technology, Rochester, NY.........................    18
    Prepared statement...........................................    21

                          Witnesses--Panel II

Bravin, Seth, Accessibility Strategy and Solutions Expert, IBM 
  Human Ability and Accessibility Center, Frederick, MD..........    33
    Prepared statement...........................................    35
Ellis, Michael J., National Director, Sprint Relay, Denver, CO...    43
    Prepared statement...........................................    45
Hanaumi, Leila, Student, Gallaudet University, Washington, DC....    48
    Prepared statement...........................................    51

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Maya Ariel...................................................    60
    Hannah Worek.................................................    61
    National Association of the Deaf (NAD).......................    63
    Response to questions of Senator Enzi by:
        T. Alan Hurwitz, Ph.D....................................    64
        Gerard J. Buckley, Ph.D..................................    67
        IBM......................................................    71
        Michael J. Ellis.........................................    72
    Letter from the Consortium for Citizens With Disabilities 
      (CCD)......................................................    74

                                 (iii)

  


 LEVERAGING HIGHER EDUCATION TO IMPROVE EMPLOYMENT OUTCOMES FOR PEOPLE 
                    WHO ARE DEAF OR HARD OF HEARING

                              ----------                              


                       TUESDAY, OCTOBER 11, 2011

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:11 p.m., at the 
Kellogg Conference Center, Gallaudet University, 800 Florida 
Avenue, N.E., Washington, DC, Hon. Tom Harkin, chairman of the 
committee, presiding.
    Present: Senators Harkin and Enzi.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order.
    First, I want to thank all of you for being here now at 
this very important meeting. We want to make sure that all 
people have jobs in the future. How do you say ``good jobs?'' 
Good jobs? OK. Good jobs. Good jobs.
    [Laughter.]
    [Applause.]
    Also, we are making history here today. I will let the 
interpreter work, OK?
    [Laughter.]
    We are making history. It's the first time, first time a 
congressional committee has met for an official hearing and 
every witness is deaf. First time.
    [Applause.]
    I will make an opening statement, short, I hope, and then I 
will turn it over to Senator Enzi for his opening statement.
    But let me just say how proud I am to be back at Gallaudet. 
This is a wonderful school and has a rich history. And I have 
so many fond memories of my involvement with Gallaudet, none 
more important than the Deaf Now movement. I forgot how long 
ago that was. What year?
    Voice. 1988.
    The Chairman. Oh, that is a long time ago.
    [Laughter.]
    But it was a wonderful experience, a wonderful experience. 
And now Gallaudet has moved on and still doing new things. I am 
very proud of that.
    The title of this hearing is ``Leveraging Higher Education 
To Improve Employment Outcomes for People Who Are Deaf or Hard 
of Hearing.'' This is the fourth in a series of hearings that 
Senator Enzi and I have had to increase the employment 
participation rate for all people; for all individuals with 
disabilities.
    At this hearing, we are focusing on persons who are deaf or 
hard-of-hearing, in part because they have achieved greater 
success in the labor market than other groups identified by the 
U.S. Census Bureau as having disabilities. According to the 1-
year estimates from the Census Bureau's 2010 survey, for 18- to 
64-year-olds with hearing disabilities, just over 48 percent 
were employed. Of the 3.9 million working-age adults with 
hearing disabilities, a little under 2 million of them were 
working.
    The next highest employment rate by disability category was 
the rate for people with vision disabilities, about 37 percent 
of whom were employed in 2010. Overall, the employment rate for 
persons with disabilities is about 33 percent in America. I 
mean, it is awful when we hear unemployment statistics that we 
have, what, 9 percent unemployment. Maybe some people say it is 
as high as 16 percent unemployment.
    But for people with disabilities, it is over 60 percent 
unemployment, and for people with hearing disabilities, it is, 
about 52 percent. So you have to put that in perspective.
    My notes say that Wyoming, Senator Enzi's home State, is 
very good. The employment rate for people with hearing 
disabilities was 72.4 percent in Wyoming. My State, Iowa, it 
was 64 percent. Wyoming was No. 1, followed by North Dakota at 
72 percent. Iowa was No. 4. I have to do some more work in my 
State.
    Let us not gloss over the fact, though, that while we might 
be proud that people with hearing disabilities are better 
employed, let us keep in mind that there is still 52 percent 
unemployment, and that is unacceptable. That is just 
unacceptable. But if Wyoming can get 72 percent, why can't the 
rest of the country get 72 percent?
    I will close with this. In the last couple of years, 3 
years, the number of adults with disabilities that dropped out 
of the labor force was 804,000. The number of workers without 
disabilities went down by 400,000. So, in the last 3 years, for 
every person losing work in America, 2 people with disabilities 
lost their job.
    When we think about going forward and getting employment 
back, then the rate of employment for people with disabilities 
has to be twice that of people without disabilities. You see 
what I mean. We have to make an extra effort to make sure that 
it is not just one-for-one, but that we actually do more work 
in getting people with disabilities back into the labor force 
as we begin to move forward and increase employment in our 
country.
    Beyond that, we also want to think about the skills and the 
education level that people with disabilities need for the 
future workforce. When my brother went to the Iowa School for 
the deaf, he was told he could be one of three things. He could 
be a baker, he could be a cobbler, or he could be a printer's 
assistant. That was all.
    Well, he didn't want to be any of those things. Times have 
changed a lot, and he was able to go on and use his skills to 
have a wonderful life and a good job. But it wasn't because of 
what he was taught. It was sort of self-learned or learned on 
the job as he progressed through life.
    But now we have to make sure that our schools--Gallaudet, 
NTID, other schools--that we make sure that kids have the skill 
set for the new kinds of jobs in the future and to make sure 
that we (society) provides the support services so that 
individuals who are hard-of-hearing or who are deaf can use 
their skills to the maximum. And technology has done a lot to 
help that, but we have to make sure that those support services 
are in place so that people can achieve their highest 
potential.
    I want to thank President Hurwitz, whose father went to 
school with my brother at the Iowa School for the deaf and who, 
himself, is from Sioux City, IA. I thank him for hosting us 
here today and for NTID, for being here.
    On our second panel, we have employees who have gone on to 
have really good jobs at IBM and Sprint, and they are showing 
how they can make sure that workplaces are accommodating of 
individuals with disabilities. Leila Hanaumi will also be on 
our second panel, a senior here at Gallaudet. I met her today 
and also met her earlier in my office.
    She will tell us--what does the younger generation need? 
What are the aspirations, the goals of the younger generation 
of those who are hard-of-hearing or who are deaf?
    We are going to have, I think, some really good testimony, 
and I look forward to it. And with that, I will turn it over to 
Senator Enzi for his opening statement.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman.
    And thank you, Dr. Hurwitz and Dr. Buckley and your staffs 
and all they have done to help arrange today's field hearing. 
Chairman Harkin and I are very appreciative that each of you, 
as well as the students and faculty of Gallaudet have 
graciously agreed to host this--
    [Buzzer.]
    [Laughter.]
    It is very pleasing to see so many students here today, 
too. You recognize that education does make a difference.
    We each believe that it is important that the committee 
have opportunities like this. Not only does it give us a chance 
to see firsthand where the real work in education is taking 
place, it gives those most impacted by our decisions the 
opportunity to participate.
    Also, many Americans are struggling to find work. 
Unemployment affects certain groups of individuals at a far 
greater rate even in the best of times. And this is the fourth 
in an ongoing series of hearings focused on barriers to 
employment for individuals underrepresented in the workforce. 
Today, we will focus on what higher education is doing to 
improve employment opportunities for people who are deaf and 
hard-of-hearing.
    The significance of a college education for everyone has 
never been more obvious. As the most recent employment data 
show, individuals with a college degree have an unemployment 
rate that is nearly half the national average. For people who 
are deaf and hard-of-hearing, the difference is even more 
pronounced.
    According to some estimates, an astounding 60 percent of 
the people who are deaf are unemployed today. However, as Dr. 
Buckley and Dr. Hurwitz will testify, more than 90 percent of 
the National Technical Institute for the deaf and Gallaudet 
students who have chosen to enter the workforce are employed or 
furthering their education in graduate school.
    Furthermore, college graduates who are deaf are 
dramatically less dependent on Federal support, including 
Supplemental Security Income and Social Security Disability 
Insurance. Clearly, deafness is a barrier that can be overcome 
by education.
    But institutions like Gallaudet and NTID are successful not 
just because they provide an education. They also create 
opportunities by working with employers and demonstrating the 
value of hiring their students.
    Today, we hope to learn more about what each school is 
doing to overcome these barriers. We want to learn about their 
partnerships with private industry. We want to know what is 
working, as well as what challenges still have to be addressed.
    I am already aware of the difficulty faced by people who 
are deaf and hard-of-hearing. My first daughter lost the 
ability to hear a wide range of tones due to complications 
arisen from being born nearly 3 months premature.
    After struggling to just survive, she grew up not able to 
hear like others. But our little girl is a fighter, and she was 
determined not to let her limited hearing prevent her from 
living her life. Among other things, she learned to read lips. 
And today, she is a marvelous public school educator in 
Wyoming, where her experience includes being a principal in 
Chugwater, WY.
    She was also involved in a program in which she helped to 
teach teachers how to teach better. And as any of you are 
thinking about being teachers can believe, the ability to read 
lips in a classroom is a good thing for a teacher.
    I look forward to today's testimony and learning about the 
wonderful work of each of these institutions, as well as how 
employers are working to put the many talents of students to 
use.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Enzi.
    Let us introduce our first panel. Dr. Hurwitz became the 
10th president of Gallaudet on January 1, 2010. Before that, he 
was president of the National Technical Institute for the deaf, 
NTID, and vice president and dean of the Rochester Institute of 
Technology. Dr. Hurwitz also served in a variety of other roles 
at NTID between 1970 and 2009.
    He is a former president of the National Association of the 
deaf, has lectured extensively, and has been widely published. 
Dr. Hurwitz earned a B.S. in electrical engineering from 
Washington University in St. Louis, an M.S. in electrical 
engineering from St. Louis University, and a Doctorate of 
Education from the University of Rochester.
    Our second witness, Dr. Gerard Buckley, became president of 
NTID on January 1, 2011. He is NTID's first alumnus president. 
Congratulations! I didn't know that. Dr. Buckley has more than 
30 years of experience in higher education, more than 20 years 
at NTID.
    Prior to coming to NTID in 1990, Dr. Buckley led Gallaudet 
University's regional center in Overland Park, KS. He holds a 
B.S. in social work from NTID, an M.S.W. from the University of 
Missouri, and a Doctorate of Education from the University of 
Kansas.
    Dr. Buckley, we welcome you, too.
    And so, Dr. Hurwitz, we will start with you. Both of your 
written testimonies are made a part of the record in their 
entirety, and we would appreciate it if you could sum it up in 
5 to 9--if you go over 10 minutes, I will get nervous.
    [Laughter.]

   STATEMENT OF T. ALAN HURWITZ, Ph.D., PRESIDENT, GALLAUDET 
                   UNIVERSITY, WASHINGTON, DC

    Mr. Hurwitz. [The following testimony was delivered through 
an interpreter.] I was told that I had 10 minutes. So I will do 
my best to stick within those time restraints.
    Chairman Harkin, Ranking Member Enzi, and distinguished 
committee members of the HELP Committee, July 13, 1990 was a 
day the U.S. Senate passed the historic Americans with 
Disabilities Act. Senator Harkin, at that time, you made this 
dedication.
    You said,

          ``I want to dedicate the ADA to the next generation 
        of children, of children with disabilities and their 
        parents. We say whatever you decide is your goal, go 
        for it. The doors are opening, and the barriers are 
        coming down.''

    Senator Enzi, on the 20th anniversary of the enactment of 
the ADA, you issued a statement. And the statement said,

          ``We will continue to ensure that the chance to live 
        the American dream is an avenue of opportunity that is 
        available to everyone without exception.''

    Senators, just take a look around this room. Here, in this 
audience, in Senator Harkin's words, is the next generation. In 
fact, I call them ``the ADA generation.'' These are the young 
people who truly believe that the ADA stands for ``American 
dream for all.''
    I would like to ask all of the students who are here in the 
audience to stand and be recognized.
    [Applause.]
    Nowhere else do college students who are deaf or hard-of-
hearing routinely become president of academic clubs, editors 
of university publications, captains of the sports teams, 
presidents of student government organizations, or lead figures 
in theatrical plays.
    Several student leaders are here with us today, and I know 
that nowhere else in higher education do students find a fully 
immersive experience, where they can fully enjoy opportunities 
to develop their leadership skills for the workplace. Likewise, 
nowhere else in higher education do students find a fully 
immersive bilingual education that provides education in both 
American Sign Language and English.
    All of us recognize the critical role in what Senator Enzi 
described as an avenue of opportunity. Our faculty and staff 
are committed to empowering our students. We want our students 
to leverage their experience and to improve their employment 
opportunities.
    You have my warm thanks and the warm thanks of our 
community for making these opportunities possible. All of us 
are pleased and honored to have you here. We welcome you and 
the other witnesses to our wonderful campus, and I am delighted 
to share this panel with my very good friend and colleague, 
President Buckley from NTID, the National Technical Institute 
for the deaf. As Senator Harkin said, I worked at NTID for four 
decades before joining Gallaudet.
    We hope that at the end of this hearing that all of you 
will continue to talk about the conversations that we have here 
today at Gallaudet. I strongly believe that Gallaudet 
University and NTID are outstanding examples of a wise 
government investment.
    Today, I will be sharing with you some of the outcomes and 
returns on that investment. I will also talk about the 
challenges and opportunities that we face regarding this ADA 
generation's expectations.
    Let me broadly describe our diverse student population. You 
know, diversity for us is not just a list of differences. 
Instead, it means that we accept students who are deaf or hard-
of-hearing from all groups, from all backgrounds, and from all 
communication preferences.
    Let me share with you the outcome data from a survey of 
recent graduates. Ninety-eight percent of graduate level alumni 
and 82 percent of bachelor's level alumni stated that they 
worked full- or part-time 1 year after graduation, and 95 
percent of graduate level alumni and 69 percent of bachelor's 
level alumni stated that Gallaudet prepared them for their 
occupation.
    But let me just say we cannot rest. We must explore new 
future pathways. Every day we ask ourselves in what new ways 
can we give our students wings to soar?
    We are delighted to announce that we are beginning to 
develop four new undergraduate programs. These undergraduate 
programs are pre-law, pre-medicine, pre-architecture, and pre-
business. These can transform the lives of students who come to 
Gallaudet for this undergraduate work. They then can apply to 
graduate schools and enter those rewarding professions.
    We will give wings to future generations of students. We 
will give them the self-confidence to envision success of those 
great professions.
    Are there any barriers or challenges? Of course, certainly, 
there are, and they are fully described in my written 
testimony. But let me highlight three for you.
    First, to succeed in the classroom and in the workplace, 
our students require communication accessibility through 
qualified interpreters and technological solutions. And at 
Gallaudet, we provide both.
    Second, individuals who are deaf and hard-of-hearing are 
not well-represented in the healthcare field, despite 
recognized shortages. In June 2010, four partners came together 
and formed the Task Force on Healthcare Careers for Deaf and 
Hard of Hearing Community Members: Gallaudet University, the 
National Technical Institute of the Deaf--and again, we are 
working strongly together, as strong partners on this project--
the Rochester General Health Systems, and the University of 
Rochester Medical Systems.
    We ask the HELP Committee to work with us. We believe that 
you can ensure Federal programs targeting diversity in the 
healthcare workforce specifically include individuals who are 
deaf or hard-of-hearing, and you should also include other 
persons with disabilities, along with minority and 
disadvantaged students. You also can establish an information 
clearinghouse that would provide information about access and 
accommodations in healthcare fields.
    Third, we are all aware of the barriers to career 
advancement into management that our graduates face. In 
response, Gallaudet is developing a master's of public 
administration degree. It is designed for individuals to work 
in public and nonprofit organizations.
    The Office of Personnel Management is a very strong 
supporter of this program proposal. We turn to the HELP 
Committee for advice, for counsel, and ensuring that Federal 
employees who are deaf or hard-of-hearing can participate in 
these offerings.
    I would like to close with the words from Abraham Lincoln, 
who signed the Gallaudet charter almost 150 years ago. ``The 
Government exists,'' as he says, ``to lift artificial weights 
from all shoulders, to clear the paths of laudable pursuit for 
all, to afford all an unfettered start, and a fair chance in 
the race of life.''
    On behalf of all of us at Gallaudet University, thank you 
for your support. Together, we can provide that fair chance. We 
can make the American dream a reality for all, including the 
ADA generation.
    Thank you.
    [The prepared statement of Mr. Hurwitz follows:]

              Prepared Statement of T. Alan Hurwitz, Ph.D.

                                SUMMARY

    Gallaudet University as an institution of higher education has been 
teaching deaf and hard-of-hearing students for nearly 150 years. The 
education and opportunities we provide have produced generations of 
successful graduates. Gallaudet strives to continue that tradition, in 
many ways, including increasing the expectations of, and opportunities 
for, our students. One of our current projects that aims to accomplish 
this is the establishment of four new professional programs that will 
create more deaf lawyers, doctors, architects and business people. By 
encouraging students to enter these professions, we will show that we 
have high expectations about what they can aspire to and achieve. 
Furthermore, they will be able to break down barriers to employment as 
members of these professions, and reduce oft-held misconceptions and 
erroneous stereotypes held about deaf people.
    Gallaudet assists students in a myriad of ways in their transition 
from our campus to the workforce. Academically, our standards have 
increased and persistence rates have risen, ensuring that more of our 
students will have the degrees necessary to obtain employment. We also 
have a Career Center that provides different services including, but 
not limited to, mentoring for students and hosting job fairs, which 
give students the opportunity to meet with prospective employers. 
Additionally, Gallaudet has a much higher rate of student internship 
placement as compared to the national average, with the majority of our 
seniors doing an internship prior to graduation. These internships 
provide them with hands-on training prior to their transition to 
careers. Furthermore, the ability for students to have unfettered 
communication access on our campus gives them the opportunity to be 
actively involved in student life and organizations, allowing them to 
develop valuable life and leadership skills that will greatly aid them 
in the workforce.
    Gallaudet is an example of best practices in the use of the most 
current technologies, as we strive to continue reducing barriers for 
deaf and hard-of-hearing students. We show the endless possibilities of 
what can happen when students attend school in an atmosphere of equal 
access. This creates an inclusive environment where they can thrive, 
become leaders and then transition to the workforce. This idea, and the 
successes of Gallaudet, could be replicated across higher education to 
achieve greater employment outcomes for students with disabilities.
    As a historic institution with a tradition of educating deaf and 
hard-of-hearing students, Gallaudet University has been successful in 
preparing our graduates to enter the workforce. We have used the 
resources given us and produced a valuable return on investment: 
capable, confident, workers. We are always striving to do even better, 
and will continue to raise the bar and increase the opportunities for 
our students. This generation of youth, raised in the era of the 
Americans with Disabilities Act, will expect nothing less.
                                 ______
                                 
    Chairman Harkin, Ranking Member Enzi, and distinguished members of 
the committee. It is an honor for me to appear today to testify on 
leveraging higher education to improve employment opportunities for 
people who are deaf or hard-of-hearing. You have my warm thanks, and 
the warm thanks of people who are deaf or hard-of-hearing for the 
leadership you have shown on so many issues for this population, and 
particularly on the issue of employment. I applaud the outstanding 
leadership of Chairman Harkin and Ranking Member Enzi in promoting the 
rights of people with disabilities in all aspects of everyday living.
    In addition, all of us here at Gallaudet University are also 
pleased and honored to welcome you to our wonderful campus for this 
hearing. We continue to be grateful for the ongoing support you and 
others in Congress have shown to Gallaudet University, and the 
significant investment you have made and continue to make to ensure 
that deaf and hard-of-hearing students have the best higher education 
available that will provide them with entry to significant employment 
opportunities. We are delighted to share that Gallaudet experience with 
you while you are on campus today.
    My name is T. Alan Hurwitz, and I am the president of Gallaudet 
University. I have been president of this storied institution since 
January 2010. Before coming to Gallaudet, I was president and dean of 
the National Technical Institute of the Deaf (NTID) at the Rochester 
Institute of Technology (RIT), and also vice-president of RIT. I am 
fortunate to have had the privilege over many years to be heavily 
involved in advancing the rights of deaf and hard-of-hearing people as 
well as people with other disabilities. I have served on the board of 
many organizations and am past president of the National Association of 
the Deaf, the World Organization of Jewish Deaf, and the Rochester 
School for the Deaf.
    I strongly believe that Gallaudet University and the National 
Technical Institute for the Deaf are outstanding examples of a 
government investment that makes extraordinary use of the Federal 
resources that each member of this committee works so hard to provide 
to these institutions.
    Allow me to provide a brief review of the long, successful history 
of Gallaudet University, which will bolster that statement.
    In 1864, our congressional charter was signed by President Abraham 
Lincoln. This is a heritage that we take very seriously and a unique 
historical distinction that generates great pride at our university. 
President Lincoln believed in equality of opportunity and stated so--
although not within the context of Gallaudet University--as follows in 
1861 at the onset of the Civil War.

          ``This is essentially a People's contest. On the side of the 
        Union it is a struggle for maintaining in the world that form 
        and substance of government whose leading object is to elevate 
        the condition of men--to lift artificial weights from all 
        shoulders, to clear the paths of laudable pursuit for all, to 
        afford all an unfettered start and a fair chance, in the race 
        of life. Yielding to partial, and temporary departures, from 
        necessity, this is the leading object of the government for 
        whose existence we contend.'' \1\ (Italics added.)
---------------------------------------------------------------------------
    \1\ A familiar quote that appears at many locations, including this 
Lincoln Legacy site of the National Park Service:  http://www.nps.gov/
liho/historyculture/legacy.htm.

    Gallaudet continues, nearly 150 years later, to provide that 
``unfettered start and a fair chance, in the race of life'' to enable 
deaf and hard-of-hearing students from a variety of backgrounds to 
receive advanced education, which leads to successful employment.
    At the time Gallaudet was created, education for all in America was 
not fully realized. In 1870, 20 percent of the population of the United 
States was illiterate while 80 percent of African-Americans were 
illiterate.\2\ While literacy figures for people who were deaf and 
hard-of-hearing are not available for that period, we can be sure that 
the literacy rate was unacceptably low, perhaps similar to the rate 
cited for African-Americans. However, deaf education had long been 
encouraged in the United States, with the founding of the first 
permanent deaf school in 1817 in Hartford, CT. The subsequent 
establishment of Gallaudet would provide higher education for deaf 
students, which would better empower them for the job market.
---------------------------------------------------------------------------
    \2\  SOURCE: U.S. Department of Commerce, Bureau of the Census, 
Historical Statistics of the United States, Colonial Times to 1970.
---------------------------------------------------------------------------
    Today, Gallaudet University enrolls 1,546 undergraduate and 
graduate level students, and 262 elementary and secondary school 
students (in the Model Secondary School for the Deaf and the Kendall 
Demonstration Elementary School respectively), for a total of 1,808 
students.\3\ Many additional students enroll in our English Language 
Institute and in our Professional Studies programs. With students from 
nearly every State and over 20 countries, we are an international 
university serving the deaf population of many parts of the world.
---------------------------------------------------------------------------
    \3\ Preliminary Fall 2011, 15-day student census numbers.
---------------------------------------------------------------------------
    For the record, allow me to include the Gallaudet Mission and 
Vision Statement.

        Mission

          Gallaudet University, federally chartered in 1864, is a 
        bilingual, diverse, multicultural institution of higher 
        education that ensures the intellectual and professional 
        advancement of deaf and hard-of-hearing individuals through 
        American Sign Language and English. Gallaudet maintains a proud 
        tradition of research and scholarly activity and prepares its 
        graduates for career opportunities in a highly competitive, 
        technological, and rapidly changing world.--Approved by the 
        Board of Trustees--November 2007

        Vision

          Gallaudet University will build upon its rich history as the 
        world's premier higher education institution serving deaf and 
        hard-of-hearing people to become the university of first choice 
        for the most qualified, diverse group of deaf and hard-of-
        hearing students in the world, as well as hearing students 
        pursuing careers related to deaf and hard-of-hearing people. 
        Gallaudet will empower its graduates with the knowledge and 
        practical skills vital to achieving personal and professional 
        success in the changing local and global communities in which 
        they live and work. Gallaudet will also strive to become the 
        leading international resource for research, innovation and 
        outreach related to deaf and hard-of-hearing people. Gallaudet 
        will achieve these outcomes through:

          <bullet> A bilingual learning environment, featuring American 
        Sign Language and English, that provides full access for all 
        students to learning and communication;
          <bullet> A commitment to excellence in learning and student 
        service;
          <bullet> A world-class campus in the Nation's capital;
          <bullet> Creation of a virtual campus that expands 
        Gallaudet's reach to a broader audience of visual learners; and
          <bullet> An environment in which research can grow, develop, 
        and improve the lives and knowledge of all deaf and hard-of-
        hearing people worldwide.--Approved by the Board of Trustees--
        May 2009

What is the role of the National Technical Institute for the Deaf and 
        Gallaudet University in preparing students who are deaf or 
        hard-of-hearing for the workforce?
    Since its establishment, Gallaudet has built on its mission and 
vision and has helped deaf and hard-of-hearing people gain employment--
the focus of our hearing today. It has led the way for the world in 
higher education for deaf people. We take enormous pride in the many 
alumni who have left our university and gone on to prominence, often 
with a focus in their lives on ``giving back'' to others less fortunate 
who were not able to obtain the start Gallaudet provided to them. For 
example:

    <bullet> The husband and wife team of Olof Hanson and Agatha Tiegel 
Hanson were both graduates of Gallaudet, Olof in 1886 and Agatha in 
1893. Olof would go on to a highly successful career in architecture 
and Agatha, one of the first known women to graduate from Gallaudet, 
during a time when the number of women in higher education was minimal, 
was a successful teacher of students who were deaf.\4\
---------------------------------------------------------------------------
    \4\  Gallaudet University Deaf Collections and Archives.
---------------------------------------------------------------------------
    <bullet> Another alumni, Andrew Foster, the first known African-
American to graduate from Gallaudet, in 1954, took his education into 
the workplace and established 31 schools and 2 centers for deaf 
children in 13 African nations.\5\
---------------------------------------------------------------------------
    \5\  Ibid.
---------------------------------------------------------------------------
    <bullet> Gregory Hlibok, who graduated in 1989, was named chief of 
the Disability Rights Office for the Federal Communications Commission 
in November 2010.
    <bullet> Sean Virnig, class of 1997, was recently selected as the 
first deaf superintendent of the California School for the Deaf in 
Fremont, CA. It is one of the largest schools for the deaf in the 
country. In his spare time, he runs Rawland Bicycles, a company he 
started up that sells innovative products that he himself designs.
    <bullet> Leah Katz-Hernandez graduated in 2010 and is serving as an 
HSC Foundation Youth Transitions Fellow at the American Association of 
People with Disabilities.
    <bullet> Vivienne Schroder, who received both her Bachelor's and 
Master's degrees from Gallaudet, graduating with her MA in Mental 
Health Counseling in 2011, is the Dean of Student Life at the Arizona 
State Schools for the Deaf and Blind.

    There are countless similar stories of success of Gallaudet 
graduates, many of them ``firsts'' in their own right, each reflecting 
on our goal of producing well-rounded students who will succeed in life 
and in the workforce after gaining at Gallaudet the skills and 
confidence needed to overcome societal barriers.

                               SUCCESSES

    As an institution of higher education, we have seen a great deal of 
success regarding the employment of our students. Gallaudet conducts 
annual surveys of graduates to determine employment experience, 
employment fields by occupational category, internship participation, 
whether the employment involves service to people who are deaf or hard-
of-hearing and satisfaction with their preparation. Excerpts of data 
from the most recent survey indicate the following highlights \6\:
---------------------------------------------------------------------------
    \6\  Gallaudet University Annual Survey of Recent Graduates, 2009.

    <bullet> Of alumni, 98 percent of graduate degree alumni and 82 
percent of bachelor's degree alumni, stated they worked either full-
time or part-time 1 year after graduation.
    <bullet> The percentage of alumni pursuing additional education or 
working full or part-time during the year after graduation increased 
over the past 3 years.
    <bullet> Of graduate degree alumni who participated in an 
internship, 98 percent stated the internship helped them very much or 
some for employment after graduation; while 71 percent of bachelor's 
degree alumni said the same thing.
    <bullet> Of alumni, 95 percent of graduate-level alumni and 69 
percent of bachelor's level alumni stated that Gallaudet prepared them 
for their occupation very well or adequately.
    <bullet> Graduates were working in an entire cross section of 
employment areas including the following from the Occupational groups 
from the U.S. Bureau of Labor Statistics, Standard Occupational 
Classification: management occupations; business and financial 
occupations; life, physical, and social science occupations; community 
and social services occupations; education, training, and library 
occupations; art, design, entertainment, sports, and media occupations; 
healthcare support occupations; personal care and service occupations; 
sales and related occupations; and office and administrative support 
occupations.

    These statistics show the success that Gallaudet has had in 
preparing our students for the workforce. The resources that are 
received and used to educate these students are effective at providing 
our graduates with a bright future in their chosen careers.
    While there is a great deal of success with our students, I also 
want to use this opportunity to identify a number of the barriers our 
students face and describe how Gallaudet is working to bring down those 
obstacles, and identify areas of need regarding those barriers in which 
the committee can be helpful.

                     NEW OPPORTUNITIES AND PATHWAYS

    Providing our students with the means to obtain high quality and 
well-paying jobs is pivotal to us as an institution of higher 
education. We want Gallaudet graduates to not only get jobs, but to 
have fulfilling, enriching careers that will benefit them, and society. 
We know too well that the ``professions'' are far underrepresented in 
the numbers of people who are deaf and hard-of-hearing entering 
professional schools to gain access to these careers.
    One of the goals in the Gallaudet Strategic Plan is as follows:

          ``By 2015, refine a core set of undergraduate and graduate 
        programs that are aligned with the institutional mission and 
        vision, leverage Gallaudet's many strengths, and best position 
        students for career success.''

    As we consider additions to our undergraduate curriculum, let me 
report on new pathways that we will follow. As a university focusing on 
the Liberal Arts, we will build in new ways on the strength of what we 
offer, enabling future students to take advantage of our Liberal Arts 
education. How can we turn those strengths into theirs? How can we give 
these students wings to soar?
    We are delighted to announce that we are beginning the process of 
developing four new programs that will better position our graduates to 
receive advanced degrees and gain professional employment. These 
programs are:

    1. Pre-Law;
    2. Pre-Medicine;
    3. Pre-Architecture; and
    4. Pre-Business.

    These programs can transform the lives of students who pursue them. 
We can offer a significant service to students who will come to us for 
undergraduate work in the Liberal Arts, Sciences, and Technologies. 
When they graduate they can apply to graduate schools to enter these 
rewarding professions. We will have provided programs intended to guide 
graduates into professional graduate schools.
    Imagine the service we can provide to future generations of deaf 
and hard-of-hearing students. These offerings will raise the 
educational aspirations of these youthful students throughout the 
country. How? By raising the expectations of young deaf and hard-of-
hearing students, we will instill in them the potential of coming to 
us, graduating, transferring to a professional school, and then 
transitioning to work. Imagine the impact!

    <bullet> More deaf lawyers.
    <bullet> More deaf doctors.
    <bullet> More deaf architects.
    <bullet> More deaf business people.

    Our vision is to increase the numbers of deaf and hard-of-hearing 
individuals in these professional areas, stimulating improvement in 
their economic well-being and promoting better societal understanding 
of deaf and hard-of-hearing adults. We will have given wings to future 
generations of deaf and hard-of-hearing students. What are we giving 
them? It is the gift of the self-confidence to envision themselves 
succeeding in these great professions.
    These four new programs will do more than just provide our 
graduates with the skills they need to receive advanced degrees and 
thrive in highly professional careers. It will show deaf and hard-of-
hearing teenagers, and their family and friends around the country, 
that Gallaudet believes in them and has high expectations of them. 
Gallaudet knows they can achieve and should aim high. We know that they 
can become lawyers, doctors, architects, and businesspeople; they can 
achieve whatever they can dream. We know that people who are deaf or 
hard-of-hearing are already members of these professional fields; but 
we also know from personal experience that their numbers are terribly 
small. These programs will increase those numbers, providing deaf 
people with high levels of training and skills, and also raising the 
bar of expectation for these youth.
    Let me briefly describe our vision for each of these programs.

    <bullet> The Pre-Law program will allow this Nation to see a growth 
in the number of deaf lawyers who will be able to assist both deaf and 
hearing clients in all aspects of legal matters as they obtain advanced 
legal knowledge. Rather than limit these individuals to the practice of 
disability law, we will encourage these individuals to enter all fields 
in which lawyers ably work--even including politics.
    <bullet> A Pre-Medicine degree will of course empower our students 
to become doctors, thus providing multiple benefits by increasing the 
job options for people who are deaf and hard-of-hearing, by providing 
the population who are deaf or hard-of-hearing with access to health 
care provided by these graduates, and finally benefiting the general 
population who will be served by these individuals.
    <bullet> A Pre-Architecture program will give students the 
opportunity to put their visual skills to work as they create and plan 
the buildings and cities of the future. ``DeafSpace'' is the concept 
that begins by describing people who are deaf and hard-of-hearing as 
inhabiting a rich sensory world that relies on visual and tactile 
sensibilities for spatial awareness and way-finding. The on-going work 
at Gallaudet in DeafSpace will provide one of the pillars for the 
foundation of our Pre-Architecture program. We know the work in the 
area of DeafSpace, like so many other recent changes initially designed 
to help a small segment of the population, will in reality be found to 
contribute to universal design, and will benefit the larger society. 
Our Deaf Space Design Guidelines document fills what we believe is a 
void in the Americans with Disabilities Act (ADA) by providing design 
guidelines created for deaf and hard-of-hearing individuals.
    <bullet> Last, our Pre-Business degree will give more of our 
students the tools they need to continue their education in MBA 
programs, and then use their entrepreneurial spirit to begin their own 
companies or become recognized industry leaders.

    It is our intention that all of these programs will provide our 
students with the opportunity to participate more fully in the American 
dream through economic empowerment.
    Gallaudet understands these programs and other potential new 
programs cannot be optimized by standing alone; for that reason, we are 
leveraging our relationship with the Consortium of Universities of the 
Washington Metropolitan Area, which we intend will allow us to offer 
some of these, and other, programs jointly with those other 
universities. This collaborative effort is expected to allow each 
respective institution to provide their respective skills and knowledge 
in ways that utilize each one's strengths. Through course offerings on 
our own campus, as well as at other schools in the Consortium, our 
students will be able to receive the best education and training in 
these fields.

                   BARRIERS TO PROFESSIONAL EDUCATION

    At the same time, we are aware of significant barriers to entry to 
professional schools. We do not doubt the capabilities of our students 
to succeed in these programs, but we are well aware of the added cost--
particularly in the provision of access to communications, usually 
through interpreters or real-time text services--which will continue to 
prevent the entrance of qualified students to these graduate programs. 
Unfortunately we do not have a ready answer for the committee, but 
certainly we do pledge to work with the committee on solutions which 
may resolve these barriers.

                    BARRIERS TO HEALTH CARE CAREERS

    Gallaudet is proud to be a partner with the National Technical 
Institute for the Deaf, the Rochester General Health System, and the 
University of Rochester Medical System in the ``Task Force on Health 
Care Careers for the Deaf and Hard-of-Hearing Community'' which was 
formed in June 2010. The description of this group below is taken from 
their interim report delivered in June 2011. [I will provide a copy of 
the report for your review and consideration].

          ``The Task Force mission is to provide recommendations that 
        will increase career opportunities for Deaf and Hard-of-Hearing 
        individuals in health care professions. Such professions 
        include those positions typically requiring associate degree 
        level training through those requiring graduate and 
        professional education in a variety of health care fields 
        (including medical and pharmacological technologies, clinical 
        care, research, administrative and IT support). The Task Force 
        was created in response to a national demand for more skilled 
        health care professionals, a need to improve the quality of 
        health care services for underserved citizens who are D/HH, and 
        an acknowledgment of the significant employment barriers that 
        exist for qualified D/HH individuals in the health care 
        industry. The Task Force also supports and furthers current 
        Department of Labor goals that focus on increasing employment 
        and career advancement opportunities for all workers and 
        professionals with disabilities.'' \7\
---------------------------------------------------------------------------
    \7\ ``Building Pathways to Health Care Careers for the Deaf and 
Hard of Hearing Community,'' unpublished Interim Report, Short-Term 
Recommendations, Task Force on Health Care Careers for the Deaf and 
Hard-of-Hearing Community, June 2011.

    The Report recognizes that unemployment is particularly high among 
the deaf and hard-of-hearing population at a time of acute shortages in 
health professions. The report also highlights several compelling needs 
and includes several short-term recommendations for addressing these 
needs. Those recommendations are provided in the following five areas, 
quoted from that report, which provide information on barriers to 
---------------------------------------------------------------------------
success in this field. The five areas are:

    1. Develop and implement a coordinated plan of information 
dissemination regarding health care careers and needed academic 
preparation for deaf and hard-of-hearing students and their parents, 
educators and other professionals working with deaf and hard-of-hearing 
individuals, gatekeepers in educational institutions, and health care 
employers.
    2. Enhance educational curricula and training programs to assist 
deaf and hard-of-hearing individuals in preparing for and obtaining 
employment in health care professions.
    3. Adapt existing employer training programs to address health care 
organizations' ability to support the success of deaf and hard-of-
hearing employees and ensure that such modified programs are available 
to a broad spectrum of current and prospective organizations that 
employ or could employ deaf and hard-of-hearing health care workers.
    4. Promote improved access services for deaf and hard-of-hearing 
individuals within school and workplace settings by supporting the 
identification and development of best practices with respect to 
specialized interpreting for deaf and hard-of-hearing individuals in 
health care fields and the increasing array of available technological 
applications.
    5. Initiate contact with relevant local, State, and Federal 
agencies to inform them about the Task Force goals and recommendations 
and, as appropriate, ensure that the language of ``eligibility 
criteria'' for specific funding opportunities relevant to Task Force 
recommendations is inclusive of deaf and hard-of-hearing individuals 
and the institutions that serve them.

    While many of these activities can, and will, be supported and put 
into place by the four sponsoring institutions, there are others which 
are dependent on outside assistance, such as the HELP Committee, for 
support. This Task Force has been funded primarily by Gallaudet and 
NTID, with the funds supporting regular travel to meetings, faculty and 
staff time for the 28 members and support staff, and travel costs for 
the voluntary appearances of many outside professionals at Task Force 
meetings. When the group completes its assignment in several months, 
the internal funding will no longer be available, and the 
implementation of its recommendations will be left to those four 
institutions to fund; assistance of the HELP Committee could make a 
difference in the completion of this work.
    I would like to highlight two related issues that can be addressed 
through congressional action.

    <bullet> First, the report highlights the need to maximize 
information dissemination about career opportunities in the health care 
fields to deaf and hard-of-hearing students and their parents and to 
expand and improve the pipeline for such individuals to appropriate 
educational opportunities and from education to careers in the health 
care fields. Too often, deaf and hard-of-hearing students have not 
enjoyed opportunities to work in health care as volunteers, interns, 
emergency service workers, nor have they had opportunities to shadow 
and be mentored by professionals in health care fields like others have 
experienced. I request that you and your staff work with the Task Force 
to ensure that our deaf and hard-of-hearing students qualify for 
Federal diversity training programs such as Area Health Education 
Centers and explore options to provide career exploration opportunities 
and information about career opportunities to deaf and hard-of-hearing 
students comparable to those provided to minority and disadvantaged 
students under existing programs.
    <bullet> Second, the report highlights the need to promote 
accessibility and technological solutions that ensure meaningful and 
effective access. In order for deaf and hard-of-hearing students to 
enter the ``pipeline'' to educational programs and achieve ongoing 
career success, they must be able to access information and 
instructional processes required to achieve desired goals. While access 
to education and employment opportunities, especially the use of sign 
language interpreters, are required by the ADA and Section 504 of the 
Rehabilitation Act, the reality is that lack of access continues to 
hinder deaf and hard-of-hearing individuals from entering into and 
succeeding in health care fields. I request that you and your staff 
work with the Task Force to identify Federal programs that will allow 
the deaf and hard-of-hearing community to establish information 
clearinghouses and adopt other strategies to provide information to 
health care providers about access and technological solutions that 
facilitate access and accommodation in health care fields and create 
opportunities for replication of best practices.

             BARRIERS TO CAREER ADVANCEMENT INTO MANAGEMENT

    We are all aware of various ``ceilings'' that prevent the 
advancement of one or another group into management or prevents the 
movement from lower management into upper management. People who are 
deaf or hard-of-hearing face similar barriers.
    Gallaudet is developing a program, the Masters of Public 
Administration (MPA) degree, specifically designed for one segment of 
this population--deaf and hard-of-hearing individuals working in public 
and non-profit sector organizations.
    The program is especially appropriate for deaf and hard-of-hearing 
professionals working in Federal Government agencies. The faculty 
working on the development of this program have worked closely with, 
and have the support of, the Federal Office of Personnel Management's 
Eastern Management Development Center (EMDC) in Shepherdstown, WV. We 
are working to create a collaborative relationship between EMDC and the 
Masters of Public Administration program that would allow MPA students 
from the Federal workforce to take their elective courses through the 
EMDC.
    Once approved and offered, we believe this program will prepare 
individuals who are deaf and hard-of-hearing who work in public sector 
organizations to lead with a sense of direction, to focus on results, 
to develop others' capability to perform, and to serve with integrity.
    Once this program is approved, we would appreciate the opportunity 
to turn to the HELP Committee for advice and counsel on ensuring that 
Federal employees who are deaf and hard-of-hearing have the opportunity 
to participate in this offering.

What training and opportunities are available for students of these two 
        schools to facilitate the transition from school to work, and 
        promote economic self-sufficiency?
    An understanding of our student body will be helpful in 
understanding what we do regarding transition from the university to 
work and regarding promoting economic self-sufficiency.
    Our 99 acres in northeast Washington, DC are a microcosm of 
American society. We have students with a variety of backgrounds, who 
come from across the Nation, and the world, to attend our University. 
Just as American society has experienced challenges throughout our 
history and emerged better and stronger, our school has as well, 
because of the challenges that deaf and hard-of-hearing students face 
on a daily basis.
    One of these challenges has been to address paternalism and low 
expectations. Low expectations lead students to believe they are not 
capable and discourages them from reaching their full potential. The 
impact is felt while at the university, during the transition to work, 
and while fully at work. At Gallaudet, we constantly strive to address 
these issues, and continually increase what is expected of our 
students. We have raised our admission and academic standards. For 
example in 2006 we had 31 percent of our students whose English levels 
required their placement in a ``conditional'' status; by 2011 that 
number had dropped to 16 percent. In 2006 our average ACT English 
score, math score, and reading score were 14.0, 16.9, and 16.8. By 2011 
those three scores had risen to 17.6, 17.9, and 19.7.
    Furthermore, as the caliber of students who are enrolling has 
risen, our graduation rates have improved, as has persistence. For 
example, our retention from year 1 to year 2 rose from 54 percent in 
2006 to 70 percent this year. Increasing our standards has not led to 
decreasing enrollment, showing that if we have high expectations for 
the Nation and the world to see, deaf and hard-of-hearing students will 
rise to the challenge.
    As the Nation's school placement of deaf and hard-of-hearing 
students, main-streamed compared to attendance at a State school for the deaf, 
evolves, Gallaudet finds that students are coming here with a wide 
variety of educational background and communication languages. A larger 
percentage of our undergraduate students come from mainstream schools 
than in the past; for example, 4 years ago 68 percent came from schools 
for the deaf, and that number is now 56 percent. The same is true for 
students who transfer to Gallaudet from other colleges. Many of these 
new students do not know American Sign Language.
    Gallaudet is a bilingual institution, and we provide these students 
the tools to become bilingual through innovative programs like 
JumpStart and the New Signers program. Our intention is that all of our 
students can become fluent in both American Sign Language and English. 
We are also witnessing an increasing number of Deaf Blind/Low vision 
students attending our university. Furthermore, the percentage of 
students of color as a part of the total student population is on the 
rise.
    It is clear that Gallaudet has been very effective in serving a 
very diverse population of students while continuing to raise our 
admission and academic standards. These students represent the future 
workforce of our country.

          FACILITATING THE TRANSITION THROUGH A CAREER CENTER

    The Gallaudet University Career Center is a service unit that 
supports our commitment to the education of our students and employers 
about how to work with individuals who are deaf and hard-of-hearing. It 
accomplishes its mission by providing students, alumni, employers, 
faculty, and staff with expert advising, leadership in experiential 
education, current information and resources, and networking 
opportunities on and off campus, as well as on-line.
    Staffed by career services professionals, information is shared 
both within the university and between students and employers at career 
events such as Job Fairs. In fact, while this hearing is occurring, our 
Career Center is sponsoring a job fair on campus to place students with 
companies who are here seeking employees. This is always an exciting 
time on campus, as the transition from the university to work is on the 
minds of our students. We also provide facilities that allow students 
to research participating employers in advance, as well as view on-line 
employer profiles, which provide information like available positions 
and majors recruited by the company.
    Employer information sessions offer students a convenient way to 
learn about prospective employers and start building relationships with 
key recruiting contacts. On-campus interviews are commonplace. A 
``professional network'' allows students to find a professional mentor 
who can provide career advice and insight from our database of alumni 
mentors and volunteer career advisers.
    Workshops are offered throughout the year on topics like mock 
interviews and appropriate business attire to help students develop and 
refine career-related skills.

            FACILITATING THE TRANSITION THROUGH INTERNSHIPS

    A strength of Gallaudet in providing employment opportunities for 
our students is our placement of students into internships. The Career 
Center reports that 80 percent of graduating seniors completed at least 
one internship prior to graduation, much higher than the national 
average of 52 percent. Gallaudet uses internships to provide our 
students with on-the-job, hands-on experience. This gives them the 
skills they will need that will greatly aid them in their careers.
    Allow me to illustrate with details of some Gallaudet student 
internship experiences.

    <bullet> Krista Brown, from Illinois, did an internship at the 
Sidwell Friends Academy in Washington, DC, where she assisted in 
teaching a class of 24 first graders. Originally, the students did not 
know how to work with an interpreter, but eventually they learned how 
to communicate with Krista, and that was an enriching experience for 
them. In the future, Krista would like to open a charter school in 
Chicago, IL.
    <bullet> Leila Hanaumi, from California and our student witness 
today, did an internship as a reporter with the Deaflymplics in Taipei, 
Taiwan in 2009. She is also currently interning with a professor at 
Gallaudet, working on starting a new company.
    <bullet> Dylan Hinks, also from California, landed a prestigious 
internship with the American Association of People with Disabilities 
this past summer. He was the AAPD fellow in the office of Congressman 
Ed Markey.
    <bullet> Briana Johnson of Georgia, did an internship through 
Gallaudet's Capitol Hill Internship program, in the office of Senator 
Sherrod Brown. Briana assisted with constituent correspondence, and her 
experience inspired her to want to attend law school in the future.
    <bullet> Robert Siebert, from Minnesota, did an internship with the 
Gallaudet Administration and Finance Internship program in the summer 
of 2010. He worked with the associate director of Real Estate 
Development in the Program Development office. This past summer, he was 
an intern with Volkswagen in Herndon, VA.
    <bullet> Rami Traurig of Maryland did an internship with the James 
Madison University's Department of Chemistry's Research Experience for 
Undergraduates program. The REU program is sponsored by the National 
Science Foundation. As an intern, Rami, a biology major, assisted with 
collecting and analyzing water samples from areas in the Shenandoah 
Valley and the George Washington National Forest.

    These students are well on their way to becoming successful in 
their careers, just as Mike Ellis and Seth Bravin--both witnesses 
today--and so many other Gallaudet alumni.
    We recently initiated a Capitol Hill Internship Program that places 
Gallaudet students in Federal offices, particularly with Members of 
Congress. These programs allow deaf and hard-of-hearing students to 
gain valuable job and life experience as well as gaining a crucial 
understanding of how our government functions.
    Placing our students in internships not only provides them with 
crucial job training, it educates employers about the capabilities of 
deaf and hard-of-hearing people. One of the barriers to employment for 
deaf people is that employers and the public in general often have low 
expectations and negative stereotypes about the abilities of deaf 
people. We place our students in internships to show that they are 
capable and competent and can thrive once given the opportunity. Our 
students, through internships, break down the misconceptions held about 
deaf people.
    In addition to internships, Gallaudet University provides a variety 
of study-abroad options for students, which allows them to develop an 
appreciation of the shrinking global environment in which we now work 
and live.

            FACILITATING THE TRANSITION THROUGH OTHER VENUES

    Gallaudet understands that providing academic support and 
internship opportunities are crucial to successful future employment. 
But there are many other skills that must be developed outside these 
venues that will allow our students to compete successfully in the 
workplace. These skills involve working in teams, making real-life 
decisions that impact themselves and others who work with them, 
interacting with and learning from people different from themselves in 
non-controlled environments, and obtaining leadership experience.
    These characteristics are the hallmark of the Gallaudet experience 
unmatched anywhere in the world.

    <bullet> Through student organizations, our students can thrive in 
an environment where each one can experience unfettered communications 
with one another and one where they can become leaders, organizers, and 
follow their dreams and initiatives to make the world a better place. 
Deaf and hard-of-hearing students at Gallaudet can become club 
presidents, editor of the newspaper, and president of the student 
government association. If these same students attended another 
university, their opportunities for such experiences would be limited 
dramatically. These experiences in leadership roles will help our 
graduates become leaders in their employment and in the communities in 
which they live.
    <bullet> As mentioned earlier, study abroad programs give students 
the opportunity to broaden their horizons and better understand the 
world. Our First Year Study Tour provides this knowledge early in their 
university experience.
    <bullet> Our athletic programs allow students to grow as well, as 
they work hard, both on and off the field, to achieve great things. The 
opportunities for leading as team captains would be non-existent or 
very limited at other universities.

    These student life activities provide students with valuable life 
skills that will aid them in succeeding in the workplace. Higher 
education is not only valuable for classroom time, but what is learned 
outside of that space is incredibly important. Surely as former college 
students ourselves, we can never forget the late night discussions in 
dorm rooms, student body government meetings, and spontaneous debates 
in hallways. These are possible only in an environment where students 
are given the opportunity to gather and directly communicate with each 
other and learn the joys, and yes, the frustrations of becoming 
responsible adults and civic partners of our Nation.
    As you can see, Gallaudet University prepares students for the 
employment world in a myriad of ways. From classroom learning that 
provides them knowledge and information, to social and leadership 
opportunities that supplies them with life skills, and internships that 
give them hands-on experience, Gallaudet makes it possible for deaf 
students to enter the workforce and have successful careers. Those 
opportunities will only increase as Gallaudet continues to innovate and 
grow as, for example, the establishment of our four new ``pre-'' 
programs demonstrate.

Are there any communications technologies used by NTID and Gallaudet 
        University that have broader societal use and application?
    Gallaudet has long been a leader in using up to date technology to 
enhance the experience of our students. Tools like CART, VRS and other 
technologies provide access to those attending Gallaudet, and are 
efforts that other universities could learn from, in order to better 
provide access to their students and employees. As we serve a variety 
of students, from those who primarily use visual language, to those who 
mix both visual and auditory communication, Gallaudet has expertise in 
the best technological practices for this population. We can educate 
employers on the technologies available in order to assist them in 
hiring deaf and hard-of-hearing people.
    For example, we have the Technology Access Program (TAP) that 
researches communication technology for the benefit of industries, the 
government and deaf consumers and seeks to provide equity in 
communications for deaf and hard-of-hearing people. Additionally, there 
is often informal experimentation taking place among Gallaudet 
students, faculty and staff, with smartphone applications and other 
technologies that will provide more access and better employment 
opportunities for our graduates.
    With the advent of new technologies, many barriers that previously 
existed for deaf students are evaporating. Textual communication is 
becoming a large part of the world, as texting, email, instant 
messaging and social media have become frequent means of communication. 
Furthermore, the ADA helped video relay services to flourish, breaking 
down more barriers to employment of deaf people. Our graduates are 
entering a world where employers are learning that familiar 
technology--well beyond the constraints of email--exist and can remove 
barriers to working with deaf and hard-of-hearing employees. This 
technology allows employers to concentrate on hiring and work practices 
that can, if used properly, significantly reduce barriers to employment 
and advancement. However, it is the existence of stereotypes which are 
much more difficult to erase.
    These technologies do much more than simply allow people to 
communicate with one another; social media in particular, provides 
tools for people to be considered as equals on the Internet. The 
stereotypes that exist when people encounter each other face-to-face 
disappear when they interact with one another in this medium. Take for 
example a deaf intern who is not readily able to participate in 
impromptu hallway conversations with co-workers and thereby misses out 
on the social lubricant that helps the gears of work run smoothly. 
Through textual communications and social media however, the deaf 
intern is able to forge a bond with fellow co-workers through common-
shared interests whether it be sports, clothes, the arts, and even 
music. It is through this social lubricant conducted through the 
electronic medium that will further facilitate the face-to-face 
interaction between this deaf intern and fellow co-workers in ways that 
were simply not possible before.

What practices can be replicated across higher education for better 
        inclusion of individuals with disabilities to better prepare 
        them for the workforce?
    Gallaudet serves as a living example of how an institution of 
higher education can specifically address the needs of students whose 
abilities are different from that of a large segment of our population. 
Our programs are specially designed to serve this population, as is 
wisely mandated by the Education of the Deaf Act. At Gallaudet, 
inclusion happens in the fullest sense in that our students face no 
barriers in participating in all aspects of university life. It is 
through this collegiate experience that our students gain the knowledge 
and confidence necessary to succeed once they earn their degree and 
depart the world of academia.
    At the same time, we are very well aware that this kind of 
experience is a ``once in a lifetime'' opportunity. Hence, we provide 
all the tools to prepare them for inclusion in the larger world of 
work. This is done through internships, offering of consortium courses, 
participating in classroom activities that engage outside participants 
and the neighboring community, having them compete against their non-
deaf peers in events such as mock trials to see how they measure up, 
and so on.
    Gallaudet University serves as an example of a public-private 
partnership that truly works. It is through the investment of Federal 
dollars and the prudence management of these resources that we are able 
to provide a program that meets the national mission. It is in this 
spirit that the Federal Government should consider how this type of 
arrangement can be expanded to serve others with disabilities in higher 
education settings. Just like the fact that not everyone who is deaf 
chooses to go to Gallaudet, not everyone who has a specific disability 
would choose to go to a certain college. But imagine if you will, for 
example, that blind college students could choose to attend an 
institution that had the Federal support to develop an environment that 
minimizes or removes barriers for blind people. These blind students 
would not have to spend a great deal of their time worrying about 
accommodations that are rightfully theirs. Rather, they would be better 
able to focus on their educational experience, knowing that access is 
readily achievable anywhere, anytime.
    It is also important to recognize that Gallaudet is pleased to 
offer a strong research base at our university. Another of the goals of 
our strategic plan is to become: ``the epicenter of research, 
development and outreach leading to advancements in knowledge and 
practice for deaf and hard-of-hearing people and all humanity.''
    We want to lead in research which will lead to better understanding 
of deaf and hard-of-hearing people, ultimately resulting in better 
employment. One example is the Visual Language, Visual Learning (VL2) 
program at Gallaudet. Funded by a competitive grant from the National 
Science Foundation, this program, one of six Science of Learning 
centers, conducts cognitive scientific research into how deaf people 
develop language and literacy, in order to better understand how 
everyone, deaf and hearing, learn visually. Understanding how a 
minority processes the world can benefit society, as evidenced by VL2. 
This concept could be replicated for higher education for other 
populations; analysis of their capabilities could provide information 
about the human experience.

                             FINAL COMMENT

    In many ways, today's Gallaudet students possess greater awareness 
and confidence in succeeding in the world of work as compared to past 
generations of students. When I stand on the stage in May 2012 
performing what is indeed the greatest joy of any university president, 
the conferring of degrees, I will be handing degrees to many 
undergraduate students who were born after the passage of the greatest 
civil rights legislation for people with disabilities in the history of 
our Nation. These students have grown up in a world where the paradigm 
of having a disability is not an abnormality to be ashamed of, but a 
difference to be embraced and valued. They are what I call the ADA 
generation. This ADA generation is not reserved exclusively to those 
who are considered disabled by others, it is a generation of all young 
Americans who share the same hopes and desires to achieve the American 
dream. This is why I am confident that although barriers continue to 
exist, the future has never been brighter for those who are deaf or 
hard-of-hearing. I have been fortunate to be in a profession where I 
talk to young adults on a daily basis and get a glimpse into the future 
of our country and I know that the ADA generation will help forge a 
more equitable workplace for disabled people as they advance into 
positions of leadership.
    The Gallaudet Middle States Accreditation report in 2000 states 
that many institutions say that they have mission, but Gallaudet truly 
has a mission. We accept deaf and hard-of-hearing students with a broad 
range of academic experiences and abilities. Unlike other institutions 
that accept students within a narrow bandwidth of academic skills as 
indicated by their standardized test scores, our top students scores 
are as much as twice as high as those in the low end of the range. 
Those who are not as fortunate as others and have scores that reflect 
it, have experienced low expectations from others, received substandard 
education, and encountered barriers on a daily basis that impede their 
learning opportunities. Because of Gallaudet's unique mission, we have 
the programs, the people, and the tools to help these students succeed 
and find employment. At the end of their Gallaudet experience, each 
student that stands on the stage with me and receives their degree is 
equal to another, regardless of where they started at Gallaudet. Each 
one will enter the world with a hard-earned college degree that is 
their license and pathway to gainful employment. This is Gallaudet's 
mission and one we accomplish well.
    As was written by President Lincoln 150 years ago, the government 
exists to ``. . . to lift artificial weights from all shoulders, to 
clear the paths of laudable pursuit for all, to afford all an 
unfettered start and a fair chance, in the race of life.''
    This is just as true today as it was when Lincoln penned these 
words in 1861. Gallaudet is proud to be a partner with the U.S. 
Government in providing the foundation for success that each student 
require in order to have meaningful careers and fulfilling and 
enriching lives.

    The Chairman. Thank you. Thank you.
    [Applause.]
    Thank you, Dr. Hurwitz.
    And now we will turn to Dr. Buckley. As I said, your 
statement will be made a part of the record in its entirety, 
and you can just sum up.
    Thank you.

  STATEMENT OF GERARD J. BUCKLEY, Ph.D., PRESIDENT, NATIONAL 
  TECHNICAL INSTITUTE FOR THE DEAF, VICE PRESIDENT AND DEAN, 
        ROCHESTER INSTITUTE OF TECHNOLOGY, ROCHESTER, NY

    Mr. Buckley. Mr. Chairman, Senator Enzi, thank you very 
much for the opportunity to share and discuss the importance of 
employment outcomes for deaf and hard-of-hearing students.
    We are honored to be a part of this historic occasion, and 
we salute Gallaudet University for hosting this event. And we 
look forward to a long partnership with Gallaudet and working 
with you to [inaudible].
    I would like to describe our program at NTID. We are a 
little bit different than Gallaudet University. We are 
established on the mainstream campus with 1,354 students. 
Fourteen percent of our students are from the West, and 45 
percent are from the Midwest. Twenty-two percent are from the 
South. Thirty-nine percent are from the Northeast.
    We have students from 49 States. I am working on Montana 
still. We are missing one. I apologize. Seventy-two percent of 
our students are first-time college students. But 20 to 25 
percent are transfers from other colleges where their needs 
have not been met, and then they join our community.
    Most of our students are from mainstream programs. Twenty-
three percent of our students are cochlear implant users. 
Twenty-nine percent of our students are from minority 
backgrounds, and 11 percent of our students have secondary 
disabilities.
    The RIT campus has become a model of communication 
accessibility for deaf and hard-of-hearing people in this 
Nation, with 120 full-time interpreters and 55 captioners. The 
number of hearing students enrolled in ASL classes at our 
campus has gone up 4 times in the last 5 years. We now have 
2,200 hearing students on our campus studying sign language.
    For the second time in recent history, the RIT hearing 
student body, along with the deaf student body, has elected a 
deaf student to be the president of the student government. 
Deaf and hard-of-hearing students on our campus are part of the 
rich diversity of our campus that prepares the American 
workforce for the future.
    A fundamental reason that NTID has been successful is that 
we have remained focused on our primary mission, which is to 
prepare young people for employment in the world of work. 
Everything we do at NTID is driven by the need to prepare 
students for successfully competing in a global economy. We 
work closely with employers all over the Nation to achieve this 
goal.
    RIT is one of the Nation's leading career-oriented 
universities that is seeking to prepare the next generation of 
America's workforce in the technical areas and the professional 
areas, and NTID's role is to make sure that deaf and hard-of-
hearing people fully participate in that preparation.
    One way that RIT prepares students for the world of work is 
through our cooperative education experience, which is required 
for students to go out and work as part of their education 
program. All students are required to go out for 10 weeks and 
work in the workplace. They recognize their areas in need of 
improvement and come back to the campus and work on those 
before they graduate.
    Every year, we have 200 to 250 deaf students go throughout 
the Nation working in co-ops throughout the country, and we are 
very proud of them. We also have faculty that follow up with 
them and visit them on the work site in order to get feedback 
for how we can improve our academic programs on the campus.
    Today, there are many Gallaudet students here. But today, I 
am proud to introduce two students from NTID who join me.
    Maya Ariel is a business administration management major 
from New Jersey who is also a very talented actress. Marvelous. 
She recently completed her first co-op at the U.S. Department 
of Agriculture this summer in the marketing area, and she 
recently has accepted a co-op in Indiana this summer with Dow 
Chemical Corporation.
    The second student here is Hannah Worek. Hannah is a 
criminal justice major from Rochester who aspires--who will go 
to law school when she graduates. She is a student athlete. She 
also is the 13th member of her family to attend RIT/NTID. We 
are very proud of her. This summer, she worked for a property 
management company in New York City and reported directly to 
the CEO.
    If these two students look familiar, it is because these 
students appeared on the ABC program called ``What Would You 
Do?'' this past December. It was shown again during the summer. 
It was an 8-minute segment in the show where the students were 
hired as actors to go in and apply for a job at a coffee shop. 
The manager of the coffee shop said, ``I am sorry. We don't 
hire deaf people here.''
    The intent was to see if the customers in the coffee shop 
would object. Sadly, very few people objected, despite the 
blatant discrimination. What was even more of concern was that 
several HR professionals who were in the coffee shop as 
customers actually were witnessed giving advice to the boss of 
that coffee shop on how to discriminate legally.
    NTID is using the ABC experience to educate employers, HR 
professionals, and our students about the reality of workplace 
discrimination, prepare them for the future. Tonight, we are 
returning back to Rochester, where tomorrow we will be hosting 
our 11th annual employer job fair, with more than 40 companies 
from throughout the United States that are coming to campus to 
interview our students, including Apple Computer, Cisco, 
Sprint, and IBM.
    The committee has asked us what practices should be 
replicated related to workforce inclusion. Our experience at 
NTID suggests six critical areas--outreach to employers to make 
sure they are prepared to work with and provide accommodations 
to deaf and disabled individuals. Regular interaction with 
employers to make sure that they know what skills the students 
have and also that the academic programs that are serving 
disabled individuals are matching the demands of the workplace 
world.
    We must encourage a spirit of innovation in our young 
disabled community citizens so they are prepared to compete for 
the world of work.
    We must continue to do more outreach to middle schools and 
high school students to prepare them to compete in the science, 
technology, engineering, and math. The research shows very 
clearly that if our students earn a degree in that area, the 
gap between them and their nondisabled peers is lessened.
    We must encourage more collaboration, as Gallaudet 
University and NTID have committed to working together, to 
improve the employment picture for deaf people in the future.
    We must continue to support and demonstrate the return, the 
ROI, the return on the investment in support from the 
Government. We know through our research studies, it is very 
clear that graduates are less dependent on the Federal 
programs, such as SSI, SSDI. We also know that our graduates 
return many times the investment the Federal Government has 
made in them through the form of taxes they pay throughout 
their careers.
    Thank you for the opportunity to share what we have learned 
at NTID about how to employ--how to improve employment 
outcomes. We are deeply appreciative at NTID of the support we 
receive from Congress. We are committed to maintaining our 
focus on enhancing the employment picture for deaf people in 
the future.
    Thank you very much.
    [The prepared statement of Mr. Buckley follows:]

             Prepared Statement of Gerard J. Buckley, Ph.D.

                                SUMMARY

    In the 1960s, it became apparent that an institution with a 
technical and professional emphasis was needed for people who were deaf 
and hard-of-hearing. In 1965, Public Law 89-36 established a National 
Technical Institute for the Deaf (NTID). The Rochester Institute of 
Technology (RIT) was chosen as the host institution for NTID, and the 
first 70 students were admitted in 1968. This fall, NTID's enrollment 
is higher than it has ever been, with 1,547 students--1,354 of which 
are deaf or hard-of-hearing.
    Flexibility informs every aspect of NTID's preparation of students 
for the workforce--flexibility in terms of academic programs, 
communication preferences, support services, and professional 
experiences. Students can complete a technical associate degree at 
NTID, enter an associate + bachelor's degree program, or complete 
baccalaureate or graduate degrees at RIT with the support of NTID 
access services. Those access services include faculty tutors, 
advisors, note takers, captionists, on-site audiologists, and speech-
language pathologists, as well as the largest staff of full-time 
interpreters of any college in the world.
    RIT/NTID's focus on career education and preparation for career 
success through experiential learning and cooperative work experiences 
provides key advantages for deaf and hard-of-hearing students in 
securing employment after graduation. Cooperative work experiences, or 
co-ops, are an integral part of academic programming at NTID. 
Employment specialists at the NTID Center on Employment assist students 
in securing 10-week work experiences that augment their studies. NTID's 
annual Job Fair is in its 11th year and has grown from featuring 17 
employers to over 40 employers, specifically recruiting deaf and hard-
of-hearing graduates. The NTID Center on Employment identifies new 
employers with which to build relationships by networking and 
exhibiting at human resources conferences, using the community and 
professional contacts of parents of new NTID students, helping alumni 
encourage their employers to recruit from NTID, and inviting companies 
to visit campus, meet our students, and learn about the technical 
programs we offer and skills we are developing. The NTID Center on 
Employment also initiates and delivers consultation, training, followup 
and other support services to employers. Through these services, 
employers become aware of the needs of deaf and hard-of-hearing people 
and facilitate graduates entering the workforce.
    Students are also encouraged to engage in innovation and research. 
Following RIT's leadership in this area, NTID is increasing its 
emphasis on innovation and creativity, both in the curriculum and in 
other activities across campus. Last year, NTID awarded to faculty and 
staff innovation grants related to student services or scholarship/
research projects, requiring them to include students as active team 
members. NTID faculty, staff, and students participate annually in 
Imagine RIT, an innovation and creativity festival that is attended by 
over 30,000 people.
    Changes at RIT also help NTID remain dynamic as the premier 
technical institute for the deaf and hard-of-hearing. RIT's expertise 
is focused in the science, technology, engineering, and math (STEM) 
fields, and it has recently added a College of Health Sciences and 
Technology as well as the Golisano Institute for Sustainability. To 
support these technical fields of study, RIT's campus strives to offer 
state-of-the-art equipment and facilities.
    NTID's model has been successful. Over the last 5 years, our job 
placement rate for graduates is 90 percent. Research conducted using 
Social Security Administration and Internal Revenue Service data 
indicates deaf and hard-of-hearing graduates from RIT/NTID have higher 
employment rates and higher earnings than deaf and hard-of-hearing 
students not graduating from RIT/NTID. By age 50, deaf and hard-of-
hearing bachelor degree graduates from RIT/NTID earn on average $6,021 
more than those with associate degrees; who in turn earn $3,996 more on 
average than those who withdraw; who earn $4,329 more than those who 
are not admitted.
    Communication technologies that facilitate communication for and 
with people who are deaf and hard-of-hearing are just as much for the 
general hearing public as they are for deaf students and graduates in 
that they foster communication between both groups. C-Print is a 
speech-to-text captioning system developed at NTID, as a communication 
access service option for deaf and hard-of-hearing students in 
educational environments. This technology has not only provided access 
to students who are deaf but also serves to reinforce materials 
presented in classrooms for those who hear. Presently, the NTID Center 
on Access Technology is working with various companies to develop 
devices that will use off-the-shelf technology to create innovative 
applications for people who are deaf that might have broader 
applications as well.
    Despite all the employer outreach NTID initiates, there continues 
to be prejudice and ignorance about hiring and working with deaf and 
hard-of-hearing individuals. NTID will continue to conduct outreach to 
employers to help them understand hearing loss, accommodate deaf and 
hard-of-hearing employees, and ease communication. Other challenges 
continue to be ensuring that NTID students, like hearing students, keep 
pace with the changing job market and technical skills needed in the 
workplace. RIT and NTID work to address those challenges by creating 
new academic programs in ``hot job'' categories, using employer 
feedback to tweak existing academic programs, and making sure equipment 
and facilities continue to be state-of-the-art. Appropriate academic 
preparation for college is another challenge for some deaf and hard-of-
hearing students. NTID tries to improve that preparation through its 
outreach programs that connect with middle and high school students and 
alert them to what they need to do to prepare for college and career 
success.
    The extensive employer outreach and education that the NTID Center 
on Employment does on behalf of students who are deaf or hard-of-
hearing could be replicated by other institutions on behalf of students 
with disabilities in general. Requiring a co-op experience is a 
practice that other higher education institutions could also adopt to 
better prepare students, with or without disabilities, for the 
workforce. Finally, the outreach NTID conducts at the pre-college level 
could be used at other postsecondary institutions to help prepare and 
generate interest in young people with disabilities for college and the 
workforce.
                                 ______
                                 
    Mr. Chairman and members of the committee, I am pleased to present 
the following invited testimony regarding the topic of ``Leveraging 
Higher Education to Improve Employment Outcomes for People who are Deaf 
or Hard of Hearing.''

                               BACKGROUND

    In the 1960s, it became apparent that an institution with a 
technical and professional emphasis was needed for people who were deaf 
and hard-of-hearing. In 1965, Representative Hugh Carey and Senator 
Lister Hill introduced the companion bills that would become Public Law 
89-36, signed by President Lyndon B. Johnson, establishing a National 
Technical Institute for the Deaf (NTID). Over 20 postsecondary 
institutions expressed an interest in being the sponsoring institution 
for NTID, with eight submitting formal proposals. In 1966, the 
Rochester Institute of Technology (RIT), founded in 1829, was selected 
for being the only institution meeting all of the mandated 
requirements. RIT had a national reputation for its technical programs, 
a history of incorporating cooperative work experiences with education 
(since 1912), existing partnerships with business and industrial 
leaders, and connections to deafness through its own past admittance of 
deaf students, several of whom had graduated from the nearby Rochester 
School for the Deaf.
    RIT/NTID first admitted students, 70 of them, in 1968 and graduated 
its first class of 54 students in 1971. I began my academic career at 
NTID in 1974 and went on to graduate with a B.S. in Social Work from 
RIT in 1978. I then went on to complete a Master's in Social Work at 
the University of Missouri and a Doctorate in Special Education at the 
University of Kansas. I spent 10 years heading Gallaudet University's 
Regional Center at Johnson County Community College in Kansas before 
returning to my alma mater as a faculty member and administrator. In 
January of this year, it was my honor to become NTID's first alumnus 
president. I have also served in the past as president of the American 
Deafness and Rehabilitation Association and a member of the National 
Advisory Board of NIH's Institute on Deafness.

                              OUR STUDENTS

    Much has changed since that first group of 70 students came to 
NTID. This fall, NTID's enrollment is higher than it has ever been, 
with 1,547 students--1,354 of which are deaf or hard-of-hearing. This 
fall's enrollment includes students from 49 States and 19 foreign 
countries.
    More of our students are coming from mainstream high schools, and 
we have seen a dramatic increase in the number of students enrolling 
with cochlear implants--from 75 students (6 percent) in fiscal year 
2002 to 305 students in fiscal year 2011 (23 percent). Similarly, our 
students are increasingly ethnically diverse, with 29 percent of them 
from minority backgrounds (up from 25 percent in fiscal year 2007). 
Over the last decade, we have also seen an increase in the number of 
students with secondary disabilities. They represented 11 percent of 
the student population in fiscal year 2011 compared to 5 percent in 
fiscal year 2000.
    RIT and its hearing student population have also changed as a 
result of having NTID students on campus for the last 43 years. RIT's 
total enrollment this fall is 17,652 students. Those students are 
represented by RIT Student Government, whose current president is Greg 
Pollock, a former NTID Student Congress President and deaf student 
pursuing his bachelor's degree in professional and technical 
communication. This year and last year, Greg was the only student to 
give a speech at the RIT Convocation for New Students and Families, 
which he did in American Sign Language or ASL (with voicing and 
captioning provided by NTID Access Services staff). Many RIT students 
become interested in ASL as a result of NTID. The number of students 
taking ASL has more than tripled at RIT over the past 4 years--this 
year, 2,193 students enrolled in ASL classes in just the fall, winter 
and spring quarters. RIT students organize the No Voice Zone, where 
they meet regularly (often in late evening) to teach, laugh and learn 
about deaf culture. Another example of the integration of NTID within 
RIT is the opening of the RIT American Sign Language and Deaf Culture 
Community Center last year, right in the center of campus at RIT's 
Student Alumni Union.

                         FULFILLING OUR MISSION

    Flexibility informs every aspect of NTID's preparation of students 
for the workforce--flexibility in terms of academic programs, 
communication preferences, support services, and professional 
experiences. Students who are deaf or hard-of-hearing can be admitted 
directly into baccalaureate degree programs at RIT, while receiving all 
the support and access services NTID offers. They can enter pre-
baccalaureate programs individually tailored to prepare them for entry 
into baccalaureate degree programs or enroll in the associate + 
bachelor's degree program. Students can also pursue associate degrees 
in various technical programs. RIT also offers a variety of Master's 
and Ph.D. programs, should NTID students wish to continue as graduate 
students.
    Regardless of degree program, deaf and hard-of-hearing students 
enrolled at NTID or supported by NTID as they pursue a degree at RIT 
are able to take advantage of myriad access services designed 
specifically for them. There are faculty tutors, advisors, note takers, 
and captionists, as well as the largest staff of full-time interpreters 
of any college in the world. On-site audiologists provide services 
related to hearing and hearing aids, cochlear implants and FM systems. 
Speech-language pathologists offer a broad range of speech and language 
services. NTID also works with each of RIT's colleges to provide the 
support needed to implement strategies for maximizing access to campus 
services for deaf students.
    Cooperative work experiences, or co-ops, are an integral part of 
academic programming at NTID. Employment specialists at the NTID Center 
on Employment assist students in securing 10-week work experiences that 
augment their studies. Employment specialists or faculty members visit 
many students and their supervisors at their co-ops to assess progress 
and resolve any workplace issues. Most academic programs require one to 
three cooperative assignments. For example, RIT's Student Government 
President Greg Pollock worked in the Public Affairs Department of Dow 
Chemical's Business Services Group in Michigan. Finance student Erick 
Hoens worked as a branch intern for J.P. Morgan Securities in New York 
City. Mechanical Engineering student Kelly McNabb worked on polymer 
blends for fuel cell technology at Tufts University in Massachusetts. 
Medical Illustration student Mitsuyoshi Yabe worked as a medical 
illustration intern at the University of California at San Diego. 
Applied Computer Technology student George White worked as an 
engineering aide at the Aviation and Missile Research Development and 
Engineering Center in Alabama. Biomedical Sciences and Diagnostic 
Medical Sonography student Abbi Simons worked as a marine botany 
anatomist at the Smithsonian Institution National Museum of Natural 
History here in D.C. These are just some examples of the hands-on job 
experiences that NTID students have at major companies and institutions 
nationwide. Requiring a co-op experience is a practice that other 
higher education institutions could adopt to better prepare students, 
with or without disabilities, for the workforce.
    Following RIT's leadership in this area, NTID is increasing its 
emphasis on innovation and creativity, both in the curriculum and in 
other activities across campus. We encourage our faculty to actively 
involve students at all levels in scholarship and innovation 
activities. Last year, NTID awarded to faculty and staff innovation 
grants related to student services or scholarship/research projects, 
requiring them to include students as active team members. NTID 
faculty, staff, and students participate annually in Imagine RIT, an 
innovation and creativity festival that is attended by over 30,000 
people. At Imagine RIT, NTID Laboratory Science Technology students 
present their research; the NTID Electric Bike Club shows off their no-
carbon-emission bicycles; and students present applications they have 
developed for deaf and hard-of-hearing users of smartphones and PDAs. 
Also, this Friday, October 14, NTID will celebrate a groundbreaking 
ceremony for Rosica Hall, a first-of-its-kind facility specifically 
designed to foster innovation, research and entrepreneurship among our 
deaf and hard-of-hearing students.
    Changes at RIT also help NTID remain dynamic as the premier 
technical institute for the deaf and hard-of-hearing. RIT is one of the 
largest producers in the country of baccalaureate degrees in the STEM 
(science, technology, engineering, and math) fields. It has recently 
added a College of Health Sciences and Technology as well as the 
Golisano Institute for Sustainability, featuring the world's first 
doctorate in sustainable production. To support technical fields of 
study, RIT's campus offers wireless computer access, smart classrooms 
with state-of-the-art computers and multimedia-based technologies, 
computer graphics and computer-aided drafting labs, microelectronics 
and computer engineering facilities, digital printing presses, laser 
optics labs, a robotics program and fully networked residence halls.
    NTID also aims to provide deaf and hard-of-hearing middle school 
and high school students with educational experiences designed to 
encourage them to seek postsecondary education. NTID conducts a SpiRIT 
Writing Contest; a National Science Fair for deaf and hard-of-hearing 
students in grades 6 through 11; Explore Your Future summer camp for 
upperclass high school students; TechGirlz and TechBoyz summer camps 
for junior high students; Steps to Success weekend camp for African-
American, Latino-American and Native-American students; a math 
competition for middle school students; and a Digital Arts, Film and 
Animation Competition for high school students. NTID also assists 
employers and secondary and postsecondary educational institutions that 
work with students who are deaf or hard-of-hearing through the efforts 
of our Postsecondary Education Programs Network--Northeast Region 
center. NTID's Project Access initiative is designed to help educators 
incorporate basic strategies to foster better learning for mainstreamed 
deaf and hard-of-hearing students. Many other outreach activities are 
aimed at deaf and hard-of-hearing adults who are post-college and now 
employed. These kinds of outreach activities could be used at other 
postsecondary institutions to help prepare and generate interest in 
young people with disabilities for college and the workforce.

                                OUTCOMES

    In the late 1970s, it became increasingly clear to NTID that self-
reported questionnaires completed by graduates were inadequate for 
assessing the impact of an NTID education on employment outcomes. As a 
result, institutional partnerships have been forged over time with the 
Internal Revenue Service, the Social Security Administration, and 
disability employment and public policy experts at the School of 
Ecology at Cornell University. NTID has not only developed memoranda of 
agreement with these Federal agencies, but also data sharing agreements 
that ensure complete confidentiality of exchanged information. The 
resulting program of research generated and supported by these 
partnerships and agreements is described as ``unique throughout higher 
education and rehabilitation services'' by Dr. Richard Burkhauser, who 
is an internationally recognized public policy expert at Cornell 
University.
    By providing the social security numbers (serving as individually 
unique identifiers) of its graduates to appropriate Federal agencies, 
NTID has obtained aggregate statistics on yearly earnings, employment 
participation, and participation in Federal assistance programs such as 
Supplemental Security Income (SSI), and Social Security Disability 
Insurance (SSDI). Analyses of these aggregate data have revealed the 
return on investment for students who attend RIT/NTID. For example, 
deaf and hard-of-hearing bachelor degree graduates return to the 
Federal treasury an average of $6,632 per year in Federal taxes during 
their first 25 years of employment. This figure exceeds, by $2,063, the 
annuitized amount of $4,569 required to pay back the Federal investment 
for their education (Clarcq, J.R. & Walter, G.G., 1998; Schley et al., 
2011). Using longitudinal data collected through this same program of 
research, NTID also has documented the effects of successive degree 
levels from RIT for deaf and hard-of-hearing individuals. For example, 
2006 research showed that each successive degree level translates to an 
average $10,000 increase in taxable yearly earnings.
    Additionally, research conducted in 2006 compared a group of NTID 
deaf and hard-of-hearing graduates with three other groups: those 
students who were denied admission, those who were accepted but chose 
not to attend, and those who enrolled but did not persist to 
graduation. In each of these cases, it was clear that graduating as an 
NTID-supported student at RIT meant on average a significant increase 
in earnings. Further observations include the decreased dependency on 
Federal assistance programs such as SSI and SSDI for those individuals 
who graduate from RIT/NTID, as compared to those who do not (NTID 
Annual Report 2010, http://www.ntid.rit.edu/sites/default/files/
annual_report_2010.pdf). This resulted in a lower expenditure of 
Federal funds on deaf and hard-of-hearing students who attend and 
graduate from RIT/NTID.
    In short, deaf and hard-of-hearing graduates from RIT/NTID have 
higher employment rates and higher earnings than deaf and hard-of-
hearing students not graduating from RIT/NTID. By age 50, deaf and 
hard-of-hearing bachelor degree graduates from RIT/NTID earn on average 
$6,021 more than those with associate degrees; who in turn earn $3,996 
more on average than those who withdraw; who earn $4,329 more than 
those who are not admitted.
    Over the last 5 years, our job placement rate for graduates is 90 
percent. Michael Anthony, a 2010 graduate with a B.S. in Computer 
Science and Game Design and Development, is now working for Microsoft 
as a Software Development Engineer for Xbox. Monica Donovan, a 2006 
graduate with a B.S. in Visual Media, started her own photography 
business. Lawrence Dorsey, a 2008 graduate with an associate degree in 
Computer Integrated Machining Technology, is a machinist for Rock 
Island Arsenal. Alex Johnson, a 2011 graduate with a B.S. in Mechanical 
Engineering, is part of a New Engine Development Team with GE Aviation. 
Melissa Skyer, who went on to get an M.S. in Environmental Science in 
2006, is an environmental specialist with Southern California Gas, 
Natural Resources & Land Planning Group of Environmental Services. 
Right here in DC, we have Christopher Samp, a 2010 graduate with his 
M.S. in Public Policy, who is now working as a congressional staffer 
for Senator Dick Durbin.

         BUILDING AND MAINTAINING RELATIONSHIPS WITH EMPLOYERS

    RIT/NTID's focus on career education and preparation for career 
success through experiential learning and cooperative work experiences 
provides key advantages for deaf and hard-of-hearing students in 
securing employment after graduation. NTID's annual Job Fair is in its 
11th year and has grown from featuring 17 employers to over 40 
employers, specifically recruiting deaf and hard-of-hearing graduates. 
The NTID Center on Employment identifies new employers with which to 
build relationships by networking and exhibiting at human resources 
conferences, using the community and professional contacts of parents 
of new NTID students, helping alumni encourage their employers to 
recruit from NTID, and inviting companies to visit campus, meet our 
students, and learn about the technical programs we offer and skills we 
are developing.
    The NTID Center on Employment also initiates and delivers 
consultation, training, followup and other support services to 
employers. Through these services, employers become aware of the needs 
of deaf and hard-of-hearing people and facilitate graduates entering 
the workforce. For instance, in fiscal year 2010, the NTID Center on 
Employment presented programs to 521 human resources professionals, 
including the workshop ``Working Together: Deaf and Hearing People.'' 
This workshop has been given on-site to companies like Honda, Procter 
and Gamble, the Walt Disney Company, The Dow Chemical Company, and the 
CIA to help employers understand hearing loss, accommodate deaf and 
hard-of-hearing employees, and ease communication. NTID also produces 
several brochures and other materials to educate employers and 
facilitate communication, such as the Let's Communicate brochure with 
basic signs and tips for communicating with ASL users and the DVD I Can 
Work for You!, featuring students and graduates talking about their 
successful co-op and employment experiences. The extensive employer 
outreach and education that the NTID Center on Employment does on 
behalf of students who are deaf or hard-of-hearing could be replicated 
by other institutions on behalf of students with disabilities in 
general.
    NTID's relationship with employers directly affects the educational 
programs we provide. NTID's co-op visitation program enables faculty 
and staff to visit students while on their co-op education assignments. 
During that visit, faculty are able to observe firsthand the job 
environment and the NTID student's responsibilities in that 
environment, which allows them to evaluate what skills that student 
needed to acquire at NTID in order to be successful. Similarly, every 
employer participating in NTID's co-op program has an opportunity to 
provide feedback on what technical or communication skills its co-op 
student needs to improve before graduation. NTID's academic programs 
also have employer advisory groups in which employers in the field can 
review the curriculum for that program and offer suggestions.
    Recently, the National Science Foundation provided funding for RIT/
NTID to establish DeafTEC: Technological Education Center for Deaf and 
Hard-of-Hearing Students, an Advanced Technological Education National 
Center of Excellence. There are approximately 40 advanced technological 
education centers across the country, and DeafTEC will be the first 
ever established to serve individuals who are deaf or hard of hearing. 
In addition to serving as a national resource for high schools and 
community colleges that educate deaf and hard-of-hearing students in 
STEM-related programs, DeafTEC will assist employers hiring deaf and 
hard-of-hearing individuals. Through its comprehensive Web site, 
DeafTEC will serve as a clearinghouse for information related to 
technical education and technician careers for deaf and hard-of-hearing 
students, including career awareness materials, teaching strategies for 
improving student access to learning, developmental math and English 
curricula, and information for employers to help them provide a more 
accessible workplace.

                      COMMUNICATIONS TECHNOLOGIES

    Communication technologies that facilitate communication for and 
with people who are deaf and hard-of-hearing are just as much for the 
general hearing public, or broader society, as they are for deaf 
students and graduates in that they foster communication between both 
groups. Because of the low incidence of deafness, most technologies 
utilized by people who are deaf have come from the adoption or 
adaptation of technologies for people who hear, with the exception of 
various assistive listening devices.
    In the early 1980s, NTID researcher Dr. Ross Stuckless adapted the 
``stenotype system'' utilized by court recorders to provide real-time 
captioning for classroom use. The success of this application in RIT 
classrooms led to the development and deployment of C-Print. C-Print is 
a speech-to-text system developed at NTID, as a communication access 
service option for deaf and hard-of-hearing students in educational 
environments. It was developed by researchers to improve the classroom 
experience for students at both the secondary and college levels. This 
technology has not only provided access to students who are deaf but 
also serves to reinforce materials presented in classrooms for those 
who hear.
    Presently, the NTID Center on Access Technology is working with 
various companies to develop devices that will use off-the-shelf 
technology to create innovative applications for people who are deaf. 
For example, a proprietary smartphone application and micro-circuit is 
being licensed to a corporation for a notification device. 
Additionally, a Bluetooth-based device/micro-circuit application is 
being developed for athletic events where deaf and hearing people 
compete together. Further, a video-based see-through white board system 
is being developed for use by deaf people teaching students who are 
deaf so that the teacher always faces the students. These are three 
applications of off-the-shelf technologies that are being innovatively 
applied for use with people who are deaf.

                       CHALLENGES FOR THE FUTURE

    Despite all the outreach NTID, Gallaudet University, and other 
entities conduct with employers, there continues to be prejudice and 
ignorance about hiring and working with deaf and hard-of-hearing 
individuals. Earlier this year, ABC's television show What Would You 
Do? featured NTID students Hannah Worek and Maya Ariel acting as if 
they are trying to get jobs at a coffee shop. An actor portraying the 
manager of the coffee shop told the young women that they would not be 
hired simply because they are deaf. The show looked at how the general 
hearing public who witnessed the discrimination would react. Sadly, in 
this instance, only a few individuals spoke out against the management. 
What is worse, several customers who identified themselves as HR 
professionals advised the managers on how to discriminate in ways that 
could not be easily detected or proven. Almost 5 million viewers tuned 
in, and NTID is using the show as another launch pad to provide 
outreach and education to human resource professionals and employers.
    Other challenges continue to be ensuring that NTID students, like 
hearing students, keep pace with the changing job market and technical 
skills needed in the workplace. RIT and NTID work to address those 
challenges by creating new academic programs in ``hot job'' categories, 
using employer feedback to tweak existing academic programs, and making 
sure equipment and facilities continue to be state-of-the-art. 
Appropriate academic preparation for college is another challenge for 
some deaf and hard-of-hearing students. NTID tries to improve that 
preparation through its outreach programs that connect with middle and 
high school students and alert them to what they need to do to prepare 
for college and career success.

                             THE ROAD AHEAD

    NTID has a strategic plan for the next 10 years that establishes 
key initiatives responding to existing challenges and shaping future 
opportunities. We want to improve services to underprepared students by 
working with regional partners to create intensive summer academic 
preparation programs in select high-growth, ethnically diverse areas of 
the country. We are pursuing enrollment targets and admissions and 
programming strategies that will result in increasing numbers of our 
graduates achieving baccalaureate degrees and higher, while maintaining 
our focus and commitment to quality associate-level degree programs 
that lead directly to jobs. We will continue our commitment to admit 
and support qualified African-American, Latino-American, and Native-
American students; qualified students who use ASL, spoken English, and 
both ASL and spoken English; and qualified students with secondary 
disabilities and diverse learning characteristics. In response to 
employers' emphasis on ``soft skills'' as being key to workplace 
success, we will create more opportunities for the integration of soft 
skills (such as time management, teamwork, critical thinking, ethical 
and civil behavior, independence, etc.) into course objectives.
    We are also mentoring deaf and hard-of-hearing NTID employees to 
have the honor, as I do, of serving NTID as faculty, administrator and 
now president. I am excited to lead NTID as we build on our rich 
history, navigate new and existing challenges, and continue to prepare 
our students for employment in the workforce and enrichment in their 
communities.

    The Chairman. Thank you, Dr. Buckley. Thank you.
    [Applause.]
    Thank you very, very much.
    So you have 2,200 hearing students studying sign language?
    Mr. Buckley. For credit.
    The Chairman. For credit. See, I learned sign language when 
I was growing up. I forgot many signs. Maybe I should go to 
your school.
    [Laughter.]
    Mr. Buckley. The biggest complaint I receive from hearing 
students on campus is that we don't have enough ASL classes for 
them to sign up for. That is a nice problem.
    The Chairman. Sure. Sure. Maybe I should come back to 
Gallaudet, Dr. Hurwitz.
    [Laughter.]
    Mr. Hurwitz. Absolutely. We have plenty of ASL classes to 
offer, always happy to send along our student interns to your 
office to offer you some ASL classes and training in your 
office. Can make that happen.
    The Chairman. I use the interns.
    Thank you both very much.
    Let me ask a question. What practices at your schools could 
be replicated across higher education, across other higher 
education schools for better inclusion of students with 
disabilities, especially nonhearing students, to better prepare 
them for the workforce? Not every deaf student in America can 
come to Gallaudet. Not every deaf student can come to NTID, 
Rochester Institute of Technology.
    What could we do a better job of, when looking at higher 
education? What could be done out there to better prepare 
nonhearing students like you are doing here? What could be 
replicated?
    Mr. Hurwitz. I can begin. Here at Gallaudet University, we 
have regional centers, actually, a total of six different 
regional centers throughout the United States. And those 
centers are charged with providing services to the local 
communities that surround them. They collaborate with other 
community colleges nearby or other 4-year institutions in those 
particular regions and through that provide various workshops 
that may be related to general awareness of having deaf or 
hard-of-hearing students in classrooms.
    They also provide a lot of information about how to best 
prepare sign language interpreters to provide those kinds of 
services in higher education. They provide workshops that cover 
a variety of different topics, including technological 
solutions, like, for example, the use of real-time captioning.
    I have to say we have an outstanding career center, and I 
am sure that Dr. Buckley can talk about what they do. I know 
tomorrow they are having their 11th career fair at NTID. We, in 
fact, are having our career fair today on campus, just across 
from the building we are in right now.
    We have 40 to 50 different employers represented there, 
providing information to our students. So we do share a lot of 
the information with other institutions, making sure that young 
people are well prepared for future careers.
    Mr. Buckley. The only thing I would add is that the 
academic preparation of young deaf people has to improve. We 
have to make a commitment as a nation to improving the academic 
preparation of young people.
    The Chairman. Early on.
    Mr. Buckley. Ready for school, ready for college. And I am 
proud to share that we were recently awarded a grant from the 
National Science Foundation, where we will be working with 
three States over the next few years--Florida, California, and 
Texas. It is designed to establish relationships between high 
schools, community colleges, 4-year colleges, and vocational 
rehabilitation agencies, really designed to try to make sure 
that that pipeline of preparation is there so that picture is 
brighter in the future.
    Mr. Hurwitz. And if I may add, I agree that it is so very 
critical to have early start programs. I can remember talking 
with the dean of engineering and the dean of engineering 
school, talking about how we could maybe target in specific 
young children and their families, encouraging them to think 
about future job opportunities.
    And you know, maybe those students who have become an 
engineer would begin as early as sixth and seventh grade 
preparing themselves so that they would be encouraged to take 
in high school 4 years of math and 4 years of high school 
science and 4 years of high school English so that that way, 
they are better prepared for that career.
    Currently, we see many students who come to colleges and 
universities throughout the United States completely 
unprepared. Some say they may want to become an engineer, but 
yet they have only had 1 year of math in high school, and they 
are underprepared for that kind of a degree. So we want to make 
sure that young people are well prepared for the future.
    The Chairman. Each of you have doctorate degrees. You have 
excelled in education. But you attended college in an earlier 
time when we did not have access to some of the technologies 
like text messaging, video relay, that have widespread use 
today.
    I just wonder if each of you could reflect on how job 
prospects for college students who are deaf have changed over 
time? And do you have any crystal ball for what that looks like 
in the future? I will elaborate a little.
    I remember when we first got our relay systems that was 
first put in the ADA, but then it came into being I think a 
little bit later, in the mid-1990s--the relay systems. And they 
are very good. And the TDYs that we all use, that we had in our 
offices. But now, all my deaf friends send me messages.
    Mr. Hurwitz. No longer.
    The Chairman. I don't even have to talk to them on the 
phone. They just send me messages now. Just watching the change 
in the technology. Talk a little bit about that and how you see 
this going into the future.
    Mr. Hurwitz. That is an excellent question. I was just 
thinking about during my high school years and college years as 
well, we had nothing in terms of accommodations. We had never 
even heard of the word ``interpreter.'' I mean, they were 
unheard of at that time.
    But we had some volunteer interpreters who worked in church 
settings, but no one in the school systems. So we had to make 
it through just by the skin of our teeth, just do as best as we 
could and relying on friends or classmates to share notes with 
us and meeting with the teacher after class to get what we 
could.
    That was my experience, and I refer to those ages as ``the 
dark ages.'' To be honest, at that time, I didn't even know 
what I was missing. It wasn't until I was in the doctoral 
degree program that I actually had an interpreter for the first 
time, and I thought to myself, ``My God, the information that 
is here.'' It was almost like an information explosion for me.
    I looked back and pondered how on earth did I make it 
through with what I didn't have? Back then, I was maybe a B or 
C average student. But having an interpreter and having 
captioning support, it just allowed me to do so much better 
academically.
    Just recently I was talking with some of our students here 
on campus, and they were talking about social media being what 
it is and how it is the thing of the day, and technology is 
with them all the time. And they take that for granted. 
Probably they are farther ahead of the faculty members here in 
terms of their technological savviness. So faculty are always 
trying to catch up.
    I can envision the future being an amazing opportunity for 
young children where they don't have any fears or anxieties 
when it comes to technologies. They can just jump into the 
social media setting and use video technologies at ease and 
communicate with anyone, anywhere throughout the world.
    I can remember when I was in Russia and one other time when 
I was in China, I was actually able to communicate with my wife 
through email correspondence on my pager, on my iPhone. You 
know, it was very easy for us to communicate with one another.
    Technology is the boon when it comes to people who are deaf 
and hard-of-hearing. I mean, it is very exciting as we look 
into the future.
    In the past, communication was something that really 
separated or technology was something that separated deaf 
people from hearing people and communications. And now, with 
that not being the case any longer, we are fully integrated.
    Mr. Buckley. Senator, when I was a college student, I had 
the benefit of going to NTID. I am a product. So I had the 
benefit of a wonderful education.
    But when I was a college student, I remember there was one 
deaf lawyer. We all knew him. Now there are several hundred 
deaf lawyers throughout the country, many deaf doctors. My own 
daughter, who is deaf, is a veterinarian practicing in New 
York.
    These young people have a different attitude, thanks to you 
for supporting the Americans with Disabilities Act. They have a 
spirit of ``can do.'' And our job is to make sure we provide 
support so they are successful.
    I am very optimistic that technology will be very 
beneficial. I am very optimistic that one of my two students 
will become a Senator from New York some day.
    Mr. Hurwitz. I second that.
    Mr. Buckley. They are marvelous people. And thank you for 
supporting that because ADA has made a significant difference 
in the lives of all disabled people.
    The Chairman. Thank you.
    I just want that future Senator to know, however, that she 
will not be the first person to give a sign language speech on 
the Senate floor.
    [Laughter.]
    I did that in 1990 with the passage of the ADA. But that 
would be wonderful.
    I am sorry.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    I appreciate the testimony of both of you. I have some 
extensive notes on things that we can do, but I want to get 
into a bit more detail.
    I would like to know what kinds of partnerships that your 
institutions have formed with businesses and employers to 
encourage the hiring of your students, and what can be done to 
encourage more partnerships, particularly those that are in 
high demand in the high-skill industries?
    Mr. Buckley. At NTID, we have a center on employment that 
has full-time staff that reach out to 800 employers every year, 
providing training on working together with deaf and hard-of-
hearing citizens. We are always traveling with teams throughout 
the Nation.
    I think it is an ongoing educational effort to make sure 
that employers understand the opportunities that are available 
by hiring qualified deaf and hard-of-hearing people, understand 
what reasonable accommodation is. Aren't frightened by the cost 
associated with that.
    They have many misunderstandings about cost, and we are 
able to show them that often very reasonable, very simple 
accommodations--for example, texting back and forth--works very 
effectively for communication between a supervisor and an 
employee. That ongoing effort, both Gallaudet University and 
NTID, are continuing to work with employers throughout the 
Nation. We will continue to expand that in the future.
    Mr. Hurwitz. I would agree with what has just been stated. 
I also wanted to mention we have three research centers that 
have already been establishing partnerships with other colleges 
and universities.
    Just as an example, we have the Visual Language and Visual 
Learning Center, VL2, that has been funded by the National 
Science Foundation. And they are tasked with exploring ways to 
improve communication through language development, and they 
are partnering with several other universities throughout the 
United States and, actually, internationally.
    Another example is we have the Technology Access Program. 
That is funded by the U.S. Department of Education, and they 
have partnerships established with a variety of different 
universities where they are exploring possibilities of 
technologies and applications that can be used in a variety of 
different scenarios, including those in the workplace.
    Third, I wanted to mention the hearing and speech in 
science research that is happening here on campus. We have a 
center where many universities are working with us to provide 
information and opportunities to conduct further research in 
the area of hearing and speech sciences.
    And this is how we can work to help deaf people in the 
future.
    Senator Enzi. Kind of as a followup on that, what 
industries have been the most open to working with you to place 
students, and what industries have been the most resistant?
    Mr. Buckley. For us, we have 200 different majors at RIT 
that are open to students, and I believe that many of our 
students are the first majors. For example, we have a new 
program in sustainability sciences, and employers have never 
thought of hiring a deaf person because deaf students have 
never majored in that area at RIT in the past. But I believe 
that all fields are open and that if we can prepare students 
with the appropriate skills to compete, then all the fields are 
open to everyone.
    Mr. Hurwitz. We have graduates who have been hired by a 
number of different companies throughout the United States. In 
fact, we have two of our alums who will be speaking about their 
experiences, working for two major companies, one being IBM and 
the other Sprint.
    There will always be challenges that we face in the 
workplace. That is certain. Challenges that exist just in terms 
of the knowledge and understanding that is out there in terms 
of the abilities of deaf and hard-of-hearing people to be 
employed.
    Oftentimes, there is a lot of misunderstandings that exist 
and just assumptions about what people can and cannot do. We do 
have a career center here that provides awareness training to 
future employers in this area. So this will always be an area 
of challenge.
    I can remember at one point in time, it was some time ago, 
there was a mayor of a city in Texas who made a statement. And 
he said that you probably can change behaviors overnight, but 
to change attitudes, that is an entirely different story.
    There is always going to be those two major barriers that 
we face that we need to work to remove. One of them being that 
of the environmental barriers, and that is an easy fix for us. 
But the other barriers are attitudinal barriers, and they 
create quite a bit more of a challenge for us. And that is our 
job now to work together so that we can educate employers about 
what deaf and hard-of-hearing people can do in the workplace 
and how they can be a great asset in the future.
    Gallaudet University is very excited about our professional 
programs and our new pre-professional programs for deaf people 
being able to become doctors and architects and lawyers and 
business people. We do believe it can happen.
    Senator Enzi. I love your enthusiasm and your answers, and 
I know that at some point, someone had high expectations for 
you, which translated into high expectations for yourself. And 
I appreciate that you are passing on those high expectations to 
others now.
    I have a series of questions, but they are a bit more 
technical, and I will provide those in writing and would hope 
that you would respond on them so that I can make that a part 
of the testimony as well.
    Mr. Hurwitz. Absolutely. Happy to do that.
    The Chairman. Before you leave, just two things. One, there 
was a recent story, maybe some of you read, about a young man 
in California who wanted to join the Army. He had all of the 
abilities that was needed, but the Army turned him down.
    I have Andy back here working on that right now, and I hope 
to have--some things take a little time. But I am now working 
with the Secretary of Defense, an old classmate of mine, by the 
way. It always helps to have friends.
    [Laughter.]
    And hopefully, in the next several months, we will have 
some good news that young people who are deaf can find 
occupations in the U.S. military, just like they should be able 
to.
    Mr. Hurwitz. Fantastic.
    [Applause.]
    The Chairman. Andy Imparato said to me that a couple of 
years ago, he was trying to place a deaf intern in a 
congressional office, and the intern coordinator said to him, 
``Excuse my ignorance, but what would a deaf person do in a 
congressional office? ''
    As you said, it is the attitudinal barriers. That is what 
you got to break down.
    Mr. Hurwitz. Exactly.
    The Chairman. And that sometimes takes a lot of time. But I 
think once they find out that a person with deafness can do 
anything that anybody else could do in the office, you would be 
amazed how they get over it.
    Thank you both very much for being here. We will move on to 
the next panel. Thank you.
    Mr. Hurwitz. Thank you. Thank you very much.
    [Applause.]
    The Chairman. On our second panel, we have three witnesses. 
Our first witness is Seth Bravin. Mr. Bravin manages strategy 
and solutions for the IBM Human Ability and Accessibility 
Center in Frederick, MD. In his prior role with IBM, he did 
finance and planning for the Global Public Sector.
    Before joining IBM, he worked for Booz Allen Hamilton, a 
management and technology consulting firm, and also for Dow, 
Lohnes, and Albertson, a corporate law firm. Mr. Bravin 
graduated from Gallaudet in 1996, received his MBA from Cornell 
University in 2003. We welcome you, Mr. Bravin.
    Our second witness is Michael Ellis. Mr. Ellis is the 
national director of Sprint Relay and is based in Denver, CO. 
Mr. Ellis is responsible for nationwide domestic and 
international telecommunications relay services, including the 
traditional 711 services, wireless, conference captioning, 
Internet, and video customer applications. He supervises 30 
employees, many of whom are deaf or hard-of-hearing.
    Mr. Ellis earned his B.A. from Baker University in Kansas, 
an M.A. from Gallaudet, and he currently serves on the 
Foundation Board for NTID and Gallaudet University's Board of 
Associates. We welcome you, Mr. Ellis.
    And of course, we kept our best for last, our final witness 
is Leila Hanaumi, a fifth-year senior here at Gallaudet. She 
was born and raised in the Bay area of California, graduated 
from the California School for the deaf in Fremont. Her parents 
are also Gallaudet alumni.
    She is the editor-in-chief of the Buff and Blue. She is a 
senator for the Gallaudet student congress, an active member of 
her sorority, an actress on Bison TV series, and an intern for 
a company that focuses on bilingual storytelling products. And 
we welcome you, Ms. Hanaumi.
    Thank you all for being here.
    As with the previous two, your testimonies will all be made 
a part of the record in their entirety. And I would just ask if 
you could sum it up in 5 or 7 minutes.
    We will start, as I introduced, with Mr. Bravin.

    STATEMENT OF SETH E. BRAVIN, ACCESSIBILITY STRATEGY AND 
        SOLUTIONS EXPERT, IBM HUMAN ABILITY AND ACCESS-
                 IBILITY CENTER, FREDERICK, MD

    Mr. Bravin. [The following testimony was delivered through 
an interpreter.] Hi. Good afternoon, Chairman Harkin, Senator 
Enzi, members of the committee, and esteemed Gallaudet friends 
and colleagues.
    My name is Seth Bravin. I am a strategic industries program 
manager at IBM and have been for 9 years. I want to thank the 
committee members for an opportunity to speak on a topic that 
is both a personal passion and a partial focus of my job with 
IBM.
    On behalf of the company, I would like to thank you 
personally, Chairman Harkin, for agreeing to visit our office 
in Iowa later this week. Thank you so much.
    With the committee's permission, I would like to share my 
personal story. My parents are both deaf. They are both college 
graduates, and they worked hard to become very successful. I 
benefited from their professionalism and their personal 
experience. I have had a very supportive home environment that 
encouraged my ambition. I want to stress the importance in also 
community service.
    I graduated from Gallaudet 15 years ago. This is an amazing 
institute. There are great role models, technology, and they 
really give the students an opportunity to maximize their 
success in life.
    While at school here, I had an opportunity to interact with 
top-notch faculty members and public sector members. I would 
like to thank the consortium programs as well. I took a few 
financial courses over at Georgetown University. Those 
experiences at Georgetown and here at Gallaudet are amazing, 
and they made me build confidence in how to function 
effectively in a hearing work world.
    After graduating from Gallaudet, I spent 5 years in 
corporate law, in consulting. Then I went to Cornell University 
for my MBA, and as I was going to graduate, IBM recruiters came 
out, and I interviewed and got a full-time position with IBM. 
Clearly, higher education played a very significant and vital 
role in improving employment outcome for people with 
disabilities, including deaf and hard-of-hearing people.
    First, the power of successful deaf and hard-of-hearing 
role models can't be underestimated. It is important for 
students to see firsthand how deaf and hard-of-hearing 
professionals can really thrive in the workplace. And in fact, 
one of my role models, Fred Weiner, is here currently.
    Second, colleges and universities can pursue partnerships 
with companies to provide students an opportunity to innovate 
and get real world experience. Just last year, I visited RIT 
with a few other IBMers and met with the Center on Access and 
Technology to explore opportunities to collaborate, including 
intellectual property development. I am actually flying to 
Rochester tonight for a conference to continue building that 
relationship.
    Another opportunity for deaf and hard-of-hearing students 
to build leadership skills and communication skills--I remember 
as I was a student--I was on student congress. At business 
school, we were often assigned to work with three or four 
others to work throughout the semester on projects.
    Fourth and final, maybe most important, is the internship 
connections and possibilities. I call an internship a long-term 
interview. It is an opportunity for employers to see the 
students that they are hiring and employing a deaf and hard-of-
hearing student is not very difficult to do and will help them 
overcome any type of fear of the unknown. That is probably the 
greatest inhibitor to employment.
    I have fond memories of my two summer internships with 
Verizon in New York and also one internship with a corporate 
law office here in Washington, DC--Dow, Lohnes, and Albertson. 
Gallaudet's career center took the initiative and provided 
awareness training to the law firm that contributed to my 
success and led to a full-time position and 2 great years 
there. And I believe Dr. Hurwitz and Dr. Buckley spoke to the 
importance of and the role of the career center in supporting 
the employers.
    Employers play a critical role. I want to share a few 
examples of how IBM supports individual disabilities. We have 
cost recovery programs in place that eliminate the charges of 
any accommodations for employees with disabilities from 
individual managers' budget, and you move that cost to a 
central fund at the corporate level. I can't say enough about 
that program. It really opened doors for many employees with 
disabilities to have opportunities.
    And a support system that works with HR professionals and 
experienced IBMers to work with a transition of new employees 
with disabilities. I can still remember my lunch with two 
experienced IBMers 9 years ago. They gave me a really warm 
welcome, and that made a huge difference.
    Third is accessibility and technology and ecosystem. 
Personally, without the technology, I would not be as 
productive as I am today or the person I am. When I joined in 
2003, IBM had already established relationships with 
interpreting and CART so I could be productive from day one.
    I have some recommendations to offer. I think educational 
institutes with accessibility in mind from the outside. 
Oftentimes, accessibility for students can benefit other 
students and foreign students, for example, as well.
    Also for employers to make accessibility a core business 
value. Also government can enact and enforce new, modern, 
relevant labor laws. And fourth, which is a shared 
responsibility, is to build candidate pipeline for employers.
    IBM's experience suggests that employment outcomes of deaf 
and hard-of-hearing individuals can't just be achieved by 
public or private entities separate. It requires a lot of 
collaboration among government and private sectors, as well as 
academia and advocacy groups as well, and GMs. And through this 
collaboration and ecosystem, we can impact and effect a very 
long-lasting change.
    Chairman Harkin and Senator Enzi, members of the committee, 
thank you for the opportunity to testify in front of you today. 
I look forward to answering any questions you may have for me 
this afternoon.
    Thank you.
    [Applause.]
    [The prepared statement of Mr. Bravin follows:]

                  Prepared Statement of Seth E. Bravin

    Good morning, Chairman Harkin, Senator Enzi, members of the 
committee and esteemed Gallaudet colleagues and friends. My name is 
Seth Bravin. I am a strategic industries program manager at the IBM 
Corporation. In this role, I am responsible for managing strategy and 
solutions for the IBM Human Ability and Accessibility Center. During my 
9 years at IBM, I have hosted several company-sponsored technology 
camps for high school students who are deaf and hard-of-hearing, and I 
currently serve on the board of directors for the Lexington School for 
the Deaf and the Maryland Association of the Deaf.
    As a deaf professional and committed advocate for the rights and 
inclusion of all people with disabilities, I am honored to appear 
before this committee to discuss leveraging higher education to improve 
employment outcomes for people who are deaf and hard-of-hearing, a 
subject that is both a personal passion and a partial focus of my job 
at IBM.
    I also am here to bring to the committee's attention several public 
policy issues that inhibit our collective ability to fully enable this 
segment of the U.S. population to not only obtain gainful employment, 
but to develop meaningful and economically viable careers. I will 
address difficulties associated with recruiting, hiring and retention 
of people with disabilities and the accessibility of information and 
communications technologies in workplaces and institutions of higher 
learning. I will conclude with recommendations for the committee's 
consideration. It is our hope that the committee will review these 
recommended topics during the current congressional session.
    These ongoing challenges are the consequence of lingering cultural 
discomfort with disabilities and attitudes facing people with 
disabilities, here in the United States and around the world. Put 
another way, it is overcoming the ``fear of the unknown'' regarding the 
people with disabilities that is the greatest inhibitor to employment 
and a fully inclusive workplace. These issues, identified by a 2007 
study \1\  conducted by the National Council on Disability, include 
areas like education, training, and transportation.
---------------------------------------------------------------------------
    \1\ National Council on Disability study. ``Empowerment for 
Americans with Disabilities: Breaking Barriers to Careers and Full 
Employment.'' 2007. (http://www.ncd.gov/newsroom/2007/10012007.
---------------------------------------------------------------------------
                           MY PERSONAL STORY

    I'll begin with a brief overview of my own journey, which I believe 
is relevant to the topic of today's hearing. I was born deaf. My 
parents, who are also deaf, both attended and graduated from college. 
My father was also an IBMer for nearly 25 years. Both worked hard to 
achieve success in work and life, and I benefited significantly not 
only from their personal experiences and professional lessons learned, 
but also from an enormously supportive home environment that encouraged 
my ambition and stressed the importance of giving back to the 
community.
    Growing up, my parents taught me that my deafness was not a 
limiting factor, but an important part of who I was as a person. Early 
on, I learned that my deafness was a trait that helped me facilitate 
the development of an extra set of skills and entirely unique 
perspectives that could add real value in learning and work 
environments. It was my parents' positive attitudes and certainty in my 
ability to succeed that made me determined to pursue a degree in higher 
education at Gallaudet University.
    Gallaudet is an amazing institution that provides students who are 
deaf and hard-of-hearing with the environment, role models, technology 
and tools to really succeed in higher education. For students who are 
willing to challenge themselves, Gallaudet also offers formative 
experiences that directly contribute to easing the transition into the 
workforce for people who are deaf and setting them up for success.
    For example, thanks to Gallaudet's consortium program with more 
than a dozen other universities, I was able to take finance courses at 
Georgetown University. Here, I was not only exposed to a different set 
of top-notch educators and role models, but I was able to build 
confidence in my ability to communicate effectively in a hearing world.
    At Gallaudet, I also learned from and regularly interacted with 
qualified instructors who were also deaf and hard-of-hearing 
professionals actively engaged in both the academic and private-sector 
workforce. These important people played a pivotal part in helping me 
believe not only that I could get a challenging job, but achieve any 
goal I set for myself personally or professionally.
    After graduating with honors in 1996, I spent 5 years working in 
consulting and corporate law. At the same time, I taught for several 
summers at the Gallaudet Leadership Institute, which nurtured a passion 
for giving back to my community and helped me continue to develop 
critical leadership skills. Shortly afterward, I 
attended Cornell University where I obtained my Masters of Business 
Administration. Near the end of my time there, IBM recruiters made a 
trip to campus. I interviewed and shortly afterward accepted a position 
with the company where, as I mentioned earlier, my father worked for 
more than two decades.
    While I have much to say about my 9 years with this exceptional 
company, I want to first stress that my educational and professional 
success would not have been possible without the support of my 
incredible family and the opportunities afforded to me here at 
Gallaudet. The importance of family attitudes and tailored, challenging 
higher education learning experiences, facilitated by deaf and hard-of-
hearing role models for students who are deaf or hard-of-hearing cannot 
be overstressed. In fact, one of my role models, Fred Weiner is here 
today. He had a rewarding career with AT&T and is now the executive 
director of Program Development at Gallaudet.
    Not all young people with disabilities are so lucky. More than 90 
percent of deaf children are born into hearing families.\2\ Some 
hearing parents are able to provide the necessary resources to raise a 
successful deaf or hard-of-hearing child. Other parents, however loving 
and supportive, do not have the same personal tools, resources and life 
lessons to share. Enabling the full societal inclusion of people who 
are deaf and hard-of-hearing as well as the much larger total 
population of people with disabilities simply cannot be accomplished by 
any one entity. Governments, advocacy groups, non-government 
organizations, institutions of higher learning, and employers must, 
where possible, partner to provide what many families cannot, either 
from lack of personal experience, finances, perspective or ability.
---------------------------------------------------------------------------
    \2\ Deaf Understanding. ``Facts about Deafness.'' (http://
www.deafunderstanding.com/modules
.php'name=News&file=article&sid=11).
---------------------------------------------------------------------------
    Together, through visionary policies and programs, I believe we can 
find new ways to support, encourage and enable the equal participation 
and success of people with disabilities throughout primary, secondary 
and post-secondary education systems, in the workforce, and in society 
at large.

               HOW HIGHER EDUCATION INSTITUTIONS CAN HELP

    Clearly, higher education institutions play a vital role in helping 
improve employment outcomes for students who are deaf or have hearing 
loss. Certainly the culture of inclusion that I alluded to earlier 
matters a great deal. Modern and accessible technology is also 
critical, but let me share a few additional thoughts regarding my 
educational experience and how higher education institutions can really 
help as it pertains to employment and employment readiness.

    <bullet> First, at the risk of belaboring the point, the power of 
successful deaf and hard-of-hearing role models simply cannot be 
underestimated. I remember one professor at Gallaudet who worked at 
Merrill Lynch and another from Cornell who worked on Wall Street. While 
my professor at Cornell was not deaf, for me, having exposure to a 
professional who had real working experience on Wall Street made a 
tremendous impression. Through my relationships with these professors, 
I saw firsthand how they thrived in the workplace. This gave me the 
assurance and determination to pursue my goals.
    <bullet> Second, opportunities for deaf students to develop 
communication and leadership skills are absolutely essential to 
preparing them for success in the workplace. I, for example, served on 
the Student Congress representing my class at Gallaudet. Universities 
and colleges can help by providing more of these kinds of opportunities 
and strongly encouraging students with hearing loss to take advantage 
of them.
    <bullet> The third and perhaps most overlooked thing that students, 
colleges and universities can do for the deaf or hard-of-hearing is 
provide ample opportunities for collaborative team-oriented work. When 
I was in business school, professors often assigned three or four 
students to work together for an entire semester on group projects. We 
met during the evenings and on weekends and only sometimes did the 
interpreter join us. Other times we used instant messaging and e-mail 
to communicate. The experience really taught me and my classmates how 
to be creative and flexible in communicating and how to work as a team 
regardless of disability.
    <bullet> Next, I'd like to talk briefly about the importance of 
diversity. At Cornell, we had students from more than 30 countries. 
Each brought with them different perspectives and cultural experiences. 
For me personally, it was interesting to watch how students were able 
to adapt to life at business school. I remember one student from China 
who had never visited the United States before and we were assigned to 
the same group for one semester. That was a successful experiment of 
inclusion and diversity that I will never forget. The opportunity to 
create personal relationships with people who are different is an 
important element in how we improve understanding and flatten unhelpful 
stereotypes.
    <bullet> At the post-secondary level, support from Career Centers 
is also extremely important. Students who are deaf or hard-of-hearing 
need personalized help to understand the best ways to position their 
education, previous experience and unique skill sets to potential 
employers. Resume development, mock interviews and presentations with 
the alumni in the working world are all valuable ingredients for a 
successful launch into the business world. Now that I am with IBM, I am 
occasionally asked to speak about my IBM experiences at Gallaudet 
University. Based on the response from students, I almost always walk 
away feeling as though I've made a real difference for some of them.
    <bullet> The final, but probably most important service colleges 
and universities can offer are internship connections. Internships 
represent the No. 1 critical success factor for obtaining a job in the 
``real world'' of work. I call internships a long-term interview. When 
done correctly, companies and students with disabilities generally have 
surprisingly positive experiences. More often than not, internships 
give employers the opportunity to see first hand that hiring and 
employing a person with a disability isn't as hard as they previously 
believed. Students with disabilities too, are often pleasantly 
surprised to find that they are perfectly capable of functioning in an 
able-bodied workplace when paired with employers who are willing to 
accommodate their needs.

    In today's competitive work world, it is the rare graduate who can 
expect to land a good job without some kind of internship experience. 
For students with disabilities, this previous work experience is even 
more essential.

                    HOW EMPLOYERS LIKE IBM CAN HELP

    Employers, too, play a critical role in improving employment 
outcomes for people with disabilities--including people who are deaf or 
have hearing loss. I'm proud to say that IBM has a long history of 
commitment to hiring people with disabilities and innovating to 
accommodate for their unique technology needs within the workplace and 
marketplace.

Diversity Policies and Programs
    When IBM first began exploring accessible technology innovation, it 
was due in part to an ongoing need to support our own workforce, which 
has always been extraordinarily diverse. In fact, for more than 100 
years, IBM has embraced the concept of equal employment opportunity. We 
have aggressively pursued our own corporate policies and practices due 
to the deep and abiding belief of our founder, Thomas J. Watson, Sr., 
who in 1914 hired the first IBMer with a disability, 59 years before 
the U.S. Rehabilitation Act and 76 years before the Americans with 
Disabilities Act.
    IBM has been embracing diversity and inclusion to drive innovation 
throughout the company since our founding. Our diversity milestones:

    <bullet> 1899: We hired our first black and female employees.
    <bullet> 1914: We hired our first IBMer with a disability.
    <bullet> 1934: We recruited our first professional women, three 
decades before the Equal Pay Act. IBM's founder, T.J. Watson Sr., also 
promised women ``the same kind of work for equal pay.'' We also created 
focused development programs for those women so that they developed 
skills for critical jobs that were previously viewed as ``men's jobs.''
    <bullet> 1941: We hired Michael Supta, a blind psychologist, to 
recruit 181 people with disabilities. Dr. Supta's motto was ``No person 
is handicapped if he or she has the right job.''

    Since 1995, IBM has increased its number of identified executives 
with disabilities 200 percent.
    We also look at the specific jobs people with disabilities perform. 
We found that 58 percent of employees with disabilities are in key 
skill groups.
    People with disabilities hold or have held job titles at IBM that 
include IBM Fellow, our highest technical level, vice president, 
director of benefits, director, IBM Human Ability and Accessibility 
Center, Global Solutions director of Business Development; director of 
Workforce Communications, distinguished engineer; software engineer; 
development engineer; IT architect; sales and marketing specialist.
    These are high-level jobs that directly impact our clients. That 
means IBMers with disabilities contribute to the bottom line of our 
business--by serving clients, advancing technology or earning patents.
    I'd like to take a moment and showcase one of my colleagues who 
embodies IBM's values and possesses the work ethic I just described.

          Dr. Dimitri Kanevsky is an IBM master inventor with more than 
        100 patents to his name. Deaf since the age of 3, Dimitri 
        exhibited an aptitude for math early on, attending a special 
        school for mathematically gifted children in the Soviet Union. 
        In 1969 he entered Moscow State University, where he went on to 
        receive both his Master's and Ph.D. in math.
          Today Dimitri, 24-year IBMer, creates new technologies at the 
        Watson research center in New York. His work includes human 
        language technologies, communications technologies for 
        accessibility, and speech recognition. Notably, his work has 
        directly benefited clients in the auto industry and law 
        enforcement. He is a role model for many.
    IBM has worked diligently to develop an end-to-end approach for 
recruiting, hiring and retaining IBMers with disabilities. We began by 
establishing a Global Accommodations Guideline requiring all new 
buildings to have barrier-free design, upgrades automatically including 
accessibility; and case-by-case reviews when IBMers with disabilities 
join the company or change work locations. We also created corporate IT 
standards to ensure our technology and tools were accessible to all of 
our employees.
    Over time, our holistic approach expanded to include:

    <bullet> Thirteen Diversity Network Groups for IBMers with 
Disabilities. These groups come together to provide support for our 
people with disabilities and to engage the larger IBM community to 
raise awareness and understanding about our people with disabilities.
    <bullet> Diversity Councils within every business unit worldwide.
    <bullet> People with Disabilities Technical Leaders Forum held 
every 2 years.
    <bullet> Online communities and forums on our company intranet.
    <bullet> A Cost Recovery Program that removes the cost of 
accommodations for disabled employees from the individual manager's 
budget to ensure that hiring and promotion decisions are based on skill 
and talent. Since instituting this process, IBM has spent about $2 
million a year accommodating employees worldwide.
    <bullet> Internships and mentoring programs--past and present--
specifically tailored to people with disabilities, such as:

        <bullet>  Entry Point: A program developed between the American 
        Association for the Advancement of Science (AAAS), IBM, and 
        NASA, IBM has placed 191 students with disabilities in summer/
        internships and hired 44 students to regular employment. As an 
        IBMer, I joined Entry Point's booth at Gallaudet's annual 
        career fair to help with recruiting.
        <bullet>  Lift: A nonprofit program that trains computer 
        programmers and analysts with substantial physical disabilities 
        and then contracts for up to a year with companies like IBM.
        <bullet>  Project View: An IBM diversity recruitment program 
        offering Latino, African American, Asian, Women, Persons with 
        Disabilities and Native American, BA, BS, MS, and Ph.D. 
        students the opportunity to explore IBM's national career 
        options. This has been an especially successful path into IBM 
        for many people with disabilities. I personally know a number 
        of deaf colleagues who first identified career opportunities at 
        IBM through the Project View program.

    <bullet> Reverse mentoring sessions in which senior IBM executives 
meet with IBMers with disabilities from around the world to discuss 
personal experiences, viewpoints on our company culture, accessible 
technology solutions for our workplace and career progression.

    At IBM, we believe it's not enough to hire people with 
disabilities--we want them to thrive as well as aspire to, and attain 
leadership roles.
    Finally, with respect to employers and people with disabilities, 
I'd like to mention the importance of creating appropriate and 
responsive support systems, not just for people with disabilities, but 
for key professionals as well. For example, IBM human resources (HR) 
professionals supply the perspective and experience necessary to help 
hiring managers make informed decisions and provide unique approaches 
to problem solving. In addition, hiring managers and H.R. professionals 
sometimes contact me for advice to help with the transition of a new 
employee with a disability. I also reach out to new employees who are 
deaf or hard-of-hearing to give them a warm welcome. Other IBMers with 
disabilities do this as well. It simply is part of our culture and it's 
one of the reasons why IBM is continually recognized as a top employer 
for people with disabilities.

Accessible Information and Communications Technologies: The ``Great 
        Equalizer''
    Accessible information and communications technologies level the 
playing field for people with disabilities, including people who are 
deaf and those with hearing loss. In fact, technology is the ``great 
equalizer'' for people with disabilities.
    I am proud to highlight IBM's contributions to helping transform 
the information and assistive technology landscape to advance digital 
inclusion of all people include:

    <bullet> 1975: First Braille printer.
    <bullet> 1980: Talking typewriter for people who are blind.
    <bullet> 1988: Screen Reader/DOS--One of the first screen reading 
products in the world. The word ``screen reader'' is now used as the 
name of the category of software.
    <bullet> 1990: Voice Type and Via Voice (1998) technologies, which 
have roots in research for helping people who are deaf and hard-of-
hearing.
    <bullet> 1997: IBM Home Page Reader--The first practical screen 
reader and voice browser product in the world.
    <bullet> 2003: Web Accessibility Technology (WAT)--Named ``2003 
Product of the Year'' by the National Disabilities Council.
    <bullet> 2004: IBM CaptionMeNow--Enabled deaf and hard-of-hearing 
users to attain captioning for corporate Web casts and pod casts on 
demand.
    <bullet> 2008: IBM AbilityLab Sametime Language Translator--
Provides multilingual translation of IBM, Lotus, Sametime, chats to 
enhance collaboration between colleagues who speak different languages.
    <bullet> 2008: IBM AbilityLab Sametime Conference Transcriber--
Delivers speech-to-text capability for IBM Lotus Sametime text and 
voice chat to allow people who are deaf and hard of hearing to more 
actively participate in meetings and teleconferences.
    <bullet> 2009: IBM AbilityLab Captioner and Editor--Delivers cost-
effective solution for real-time captioning of rich media content.
    <bullet> 2010: IBM AbilityLab Voice Chat Transcriber--Enables 
automatic, real time transcriptions of conversations conducted through 
Voice over VoIP applications for people who are deaf and hard-of-
hearing.

    For me personally, without technology I would not be as competitive 
or productive in the workplace as I am now--if at all. IBM is, not 
surprisingly, adept at creating and maintaining the right ecosystems to 
support IBMers with disabilities. When I came to work here in 2003, the 
company already had relationships in place with interpreting and 
captioning agencies so that I could be productive from day one. This 
kind of approach by employers is crucial to supporting the success of 
new IBMers with disabilities.
    The reality is that in today's agile office workplace, everything 
is connected, collaborative, and dynamically changing. Workers 
communicate via e-mail, instant messaging, and Web conferencing. 
Documents, reports, and calendars are all electronic. Business 
processes are now managed via online applications. Social media sites 
(Facebook, Twitter), news feeds, and Web applications (Google docs) are 
increasingly being used, and social capabilities are being incorporated 
into enterprise applications to drive new levels of global 
collaboration and innovation.
    In many ways, this technology-based workplace creates an 
environment where workers with disabilities can have the flexibility to 
participate more equally and fully. Often however, these technologies 
were designed and launched without the ability to accommodate the needs 
of all people with disabilities. Audio-visual content creates 
difficulties for those with hearing and vision disabilities. Small 
devices require fine motor skills, which individuals with limited 
mobility or dexterity may not have. And the cognitive load is a 
challenge for those with cognitive disabilities.
    For the potential of an inclusive workplace to be realized, current 
and future workplace technologies should be optimized for accessibility 
and standardized. IBM has made a commitment to advancing global 
standards and legislation in accessibility. We have led and contributed 
to the World Wide Web Consortium (W3C) Web Contents Accessibility 
Guidelines (1999, 2010); U.S. Rehabilitation Act, Section 508 (2001); 
W3C Accessible Rich Internet Applications (2009). We continue to lead 
and contribute to 25 working groups in standards organizations 
worldwide, with the goal of harmonized international accessibility 
standards.
    Fundamentally, accessibility is about democratizing access to 
information and services for everyone--regardless of age or ability--to 
support full and active participation in the workforce and society.
    Finally, in addition to advancing accessibility for our clients and 
the world, IBM has retained a dedication to innovation on behalf of our 
employees. In 2009, IBM developed a first-of-a-kind integrated IT 
solution, Accessible Workplace Connection (AWC), to bring together all 
of the company's processes, accommodations, intelligence and 
accessibility innovation into a single, integrated and globally managed 
solution for IBMers with disabilities, their managers, and the human 
resources staff that support them.
    Designed to deliver a ``one stop'' accommodations resource, the 
first version of AWC was released late last year and has already begun 
streamlining requests for items like screen readers and live captioning 
for teleconferences as well as centralizing the delivery processes. In 
the coming year, enhanced collaboration capabilities within AWC will 
also enable employees and established IBM communities to leverage the 
experiences of coworkers around the globe and ensure consistency in how 
accommodations are made and used throughout different geographies.

           INCREASING THE HIRING OF PEOPLE WITH DISABILITIES

    Having addressed some of IBM's best practices for recruiting, 
hiring and retaining employees with disabilities, I'd like to talk 
about the need for employers to increase the hiring of people with 
disabilities, including those who are deaf and hard-of-hearing.
    First, take a look around the room. Take note of the blackberries, 
cell phones, or even laptops that either you have or the person next to 
you has. If you haven't noticed, the world of work has indeed changed. 
The new normal for work no longer is the traditional 9 to 5 workplace 
or is based upon a continuous Monday-Friday routine. The new normal 
work is characterized by rapid changes in technology and dynamic 
markets where clients want 24/7 availability of our systems and 
services. These new technologies and client expectations create greater 
opportunities for the kind of flexible work options that increase 
employment options for people with disabilities. This is the new world 
of work--a world I believe is extending a hand to people with 
disabilities to not only participate, but to lead. IBM's workforce 
model recognizes this new normal in work.
    At IBM, we seek to create an inclusive culture for our workforce, 
which include many of the concepts I just mentioned. Since 1995, IBM 
has measured our global journey toward inclusion through the 
representation of our people, the transformation of IBM culture, and 
the behavior expected of us as outlined by our company values. For 
those of you not familiar with our values, they are:

    <bullet> Dedication to every client's success;
    <bullet> Innovation that matters--for our company and for the 
world; and
    <bullet> Trust and personal responsibility in all relationships.

    Today, approximately 3,000 IBMers around the world have self-
identified as having a disability, and we estimate that people with 
disabilities represent 1-3 percent of our global population, all the 
while remembering that disclosing one's disability is a very personal 
and private matter which is not mandatory.

    THE ROLE OF GOVERNMENT IN EASING TRANSITIONS FROM EDUCATION TO 
                               EMPLOYMENT

    I include people with all types of sensory and mobility challenges 
because there are certain practical realities that must be addressed 
for each of these groups to enable them to effectively transition from 
post-secondary education to the workforce.
    A major barrier to employment for people with disabilities is 
accessible transportation. According to the latest National 
Organization on Disability/Harris Survey (2010),\3\ people with 
disabilities are twice as likely to have inadequate transportation when 
compared to the mainstream population (34 percent versus 16 percent).
---------------------------------------------------------------------------
    \3\ Kessler Foundation/NOD 2010 Survey of Americans with 
Disabilities (www.2010disability
surveys.org/pdfs/surveyresults.pdf)
---------------------------------------------------------------------------
    Lack of mobility is a major inhibitor not only to obtain a job, but 
also if one aspires to a leadership role. The inability to travel, or 
the perception that one cannot travel easily, may even remove people 
with disabilities from consideration for a variety of jobs, making 
career advancement more difficult. Government and business must 
continue to partner and look at transportation from the perspective of 
people with disabilities.
    Another critical issue facing people with disabilities 
transitioning to work is that of assistive technology. The Harris 
survey I referenced also reported that Americans with disabilities not 
only rely on assistive technology, but a third reported they would lose 
their independence without it. Many assistive technology accommodations 
cost as little as $500.00. At IBM, we've found that investments in 
technology can help enable incredibly capable IBMers to reach their 
highest potential and productivity.

                            Recommendations

                       FOR EDUCATION INSTITUTIONS

    Plan with accessibility in mind. As the planet progresses with 
increasing speed toward a fully knowledge-based economy, driven and 
enabled by advanced technology, one thing is certain: Education will be 
a critical determinant of success in the 21st century.
    Despite sweeping global economic changes since 2008, demand for 
knowledge workers with specialized skills continues to grow by 11 
percent a year. Many of these jobs will require lifelong training and 
continuous updating of skills. Fulfilling global workforce requirements 
while adjusting to new stakeholder expectations for highly personalized 
and individualized learning experiences, is difficult at best, 
especially given dramatic changes in the student landscape.
    Global technology, government policy and demographic trends are 
converging to drive the transformation of 21st century models for 
education. CIOs and administrators of today's higher education 
institutions must manage changing expectations with new economic 
realities to create smarter systems that deliver on diverse stakeholder 
demands.
    Planning with accessibility in mind from the outset can not only 
reduce long-term costs, but lays the foundation for an inclusive 
culture and improves access to education for the entire workforce. At 
IBM, 80 percent of our learning content is online and enables our 
employees to access both knowledge and the expertise of their global 
colleagues. Taking a holistic, enterprise-wide approach to 
accessibility integration from the outset, enables cost-effective 
compliance with current and emerging legislation.
    IBM continues to invest in research innovations and business 
insights essential to address end-to-end accessibility requirements 
facing today's higher education institutions. Accessible technology 
solutions can enable a culture of inclusion, especially in education 
and learning where ability--and the expansion, development and 
improvement of individual abilities--is the key metric.

        FOR EMPLOYERS: MAKE ACCESSIBILITY A CORE BUSINESS VALUE

    IBM defines an inclusive smarter workplace as one that includes 
seamless integration of:

    <bullet> Smarter applications that are designed, implemented and 
deployed to support the requirements of all users.
    <bullet> Consumable information in the form of Web sites, 
documents, presentations and media that is enabled for accessibility.
    <bullet> Tools and applications that support inclusive 
collaboration between all individuals, some of whom may have 
disabilities.

    To realize the goal of a more inclusive smarter workplace, 
employers must elevate accessibility to a core business value, 
comparable to security, with associated processes and risk management. 
It must be:

    <bullet> Included in corporate policy;
    <bullet> Designed into the workplace governance processes and 
infrastructure;
    <bullet> Measured and assigned a risk value; and
    <bullet> Reported.

for government: enact and enforce modern, clear and relevant labor laws
    In the 21st century, the economy is characterized by technological 
innovation, dynamic structural and market shifts, new business models, 
new workforce management models and changing labor pools. Thus, how 
work gets done and where it gets done is vastly different than it was a 
mere decade ago. We have embraced this change at IBM.
    For us, the world of work is characterized by a philosophy that 
work is something one does, not a place one goes. We firmly believe 
that enabling our employees to manage their work and personal lives is 
a business imperative, one where technology enables all employees, 
including those with special needs, to work from anywhere, at any time 
they choose. However, elements of our labor law and associated 
regulations are stuck in the old ways of the early 20th Century, 
limiting our ability to comprehensively offer flexible work options to 
our entire U.S. population. The solution is a modern, clear and 
relevant labor law that reflects today's workforce needs where more 
flexible work options are not only desired and encouraged, but also 
permitted.

    A SHARED RESPONSIBILITY: BUILD THE EMPLOYMENT CANDIDATE PIPELINE

    Perhaps one of IBM's greatest challenges in continuing to increase 
the employment of people with disabilities in our global workforce is 
the lack of qualified candidates. Federal and State Governments can 
help by creating incentive programs that begin with primary and 
secondary education systems and extend through to post-secondary 
institutions for higher learning.
    Educational systems at all levels should be incentivized to:

        <bullet>  Create inclusive environments in which K-12 students 
        with disabilities are fully integrated into mainstream 
        classrooms and given the tools and technology to participate.
        <bullet>  Support deaf schools serving K-12 students and 
        provide innovative tools and technology to allow students to 
        reach their potential.
        <bullet>  Promote a focus on STEM (Science, Technology, 
        Engineering and Math) education for all students, with a 
        special emphasis on identified students with disabilities who 
        have aptitudes in these subject areas.
        <bullet>  Require IT accessibility training as a core component 
        of K-12 Teacher certification within each State.
        <bullet>  Require universities that offer teacher credentialing 
        or continuing education courses to increase annually the 
        percent of their staff and administrators who have successfully 
        completed IT accessibility training until they have reached 85 
        percent (combined).
        <bullet>  Require IT accessibility courses to be mandatory 
        academic coursework for all STEM degree programs as a pre-
        requisite for any university receiving Federal research grant 
        funding--either directly or indirectly.

    Establish a national clearinghouse for vendors and content that can 
be used by States as part of their teacher credentialing/continuing 
education.
    Provide tax incentives to businesses that establish internship and 
co-op programs specifically for students with disabilities.
    Create a private-sector resource similar to the public sector Job 
Accommodations Network to assist small- and medium-size business in 
providing accommodations to support recruiting and hiring of interns, 
co-ops and employees with disabilities.
    Partner with State governments, city transit authorities and 
employers to develop viable, cost-effective solutions that address 
transportation barriers for people with disabilities.

                               CONCLUSION

    As I said at the beginning of my testimony, IBM's research and 
experience suggest that improving employment outcomes for people with 
disabilities--including people who are deaf or have hearing loss--
cannot be achieved by any single public or private entity. This work 
requires collaboration among business, government, advocacy groups, 
academia and non-Government Organizations. Only through a collaborative 
ecosystem can we affect real and lasting change. Furthermore, we can 
all do more when it comes to inclusion and being comfortable with 
people who are different than we are--not just people with 
disabilities.
    For some employers today, the inclination is to think that if a 
person has a disability, the employment issue can be handled by simply 
providing technology that enables an employee to work from home. In 
some cases that may be true or even necessary. But it's critical for 
people with disabilities to be visible and in the workplace. To 
overcome those lingering societal misconceptions I mentioned earlier, a 
professional with a disability must be fully integrated into the 
workplace, not isolated.
    I'm sure there are many organizations that will hire a person with 
a disability with the right skills for a job, but how many have the 
vision to consider that same person to run their company or 
organization?
    Today's institutions of higher learning can help by preparing 
students with disabilities to lead. By giving them the skills, role 
models, experiences and technology tools necessary for success, 
universities and colleges help lay the foundation of confidence 
necessary for students who are deaf, have hearing loss or any other 
physical or sensory disability to pursue and attain not just jobs, but 
careers. They can also help by increasing the visibility and 
integration of people with disabilities in their institutions so that 
our future workers and leaders enter the workplace with a higher level 
of awareness about this community.
    Employers can make a difference by creating cultures that celebrate 
diversity and inclusion and provide the policies, processes and 
technology tools to support it. At my company, when a person is hired 
at IBM, they are immediately labeled an IBMer. There is no avoiding it. 
This label is not about whether you are a person with a disability, 
male or female. Nor is it about what color you are or where you call 
home. It is a label that comes with enormous pride and sense of 
community.
    Mr. Chairman and members of the committee, I hope my personal 
experiences, the IBM history and practices I have discussed, and our 
suggestions for related reforms, are helpful.
    Thank you for the opportunity to testify before you today. I look 
forward to answering any questions you may have.

    The Chairman. Thank you. Very good. Thank you very much.
    And now we will turn to Michael Ellis. Michael, welcome.

STATEMENT OF MICHAEL J. ELLIS, NATIONAL DIRECTOR, SPRINT RELAY, 
                           DENVER, CO

    Mr. Ellis. [The following testimony was delivered through 
an interpreter.] Good afternoon, Chairman Harkin, Ranking 
Chairman Enzi, and committee members.
    Thank you for this opportunity to testify before the 
committee. I am honored to share with you my experiences, both 
as an individual who lives with a hearing loss and as a 
business leader in the relay community.
    But first, some personal history. I was born to a hearing 
family and raised in a hearing world. But then at the ages of 
14 and 20, I experienced a diving accident that resulted in 
hearing loss, and those events changed my life.
    The first person I met from the deaf world was Gerard 
Buckley 28 years ago. He met me at a very critical time in my 
life and was very supportive of me. He was extremely supportive 
and encouraging to me.
    He encouraged me to pursue my education despite my hearing 
loss and to experience as many things as possible. With that 
encouragement, I applied and was accepted to Gallaudet 
University grad school.
    Attending Gallaudet was a very eye-opening and inspiring, 
powerful and life-changing experience. Everyone at Gallaudet 
was supportive and encouraging of me. They taught me how to 
accept and adjust to my hearing loss and how to just move on in 
a very positive way.
    After receiving my master's from Gallaudet, I worked in 
human services for 5 years before I joined Sprint. For almost 
20 years, Sprint has empowered me, developed me, and trained me 
as part of a solution that breaks down barriers for people with 
disabilities. I now work side by side with many other deaf and 
hard-of-hearing and hearing professionals where we provide 
functionally equivalent telecom. That access is provided for 
thousands of consumers every day.
    As national director for Sprint Relay, I currently serve on 
the Foundation Board for NTID and the Board of Associates for 
Gallaudet. For over 20 years, Sprint has been providing 
products and services to deaf and hard-of-hearing community 
members. Sprint is also an equal opportunity employer, and we 
believe that diversity fosters creativity, sensitivity, and 
growth.
    Through diversity, we have been able to expand our products 
and services to be more inclusive. And as a result, Sprint has 
been recognized with numerous awards from different 
organizations. Sprint offers a comprehensive array of 
technology to people with disabilities.
    Many examples can be found at www.sprint.com/accessibility. 
There, you can find information about products and services for 
customers who are deaf and hard-of-hearing, speech disabled, 
blind or visually impaired, or people with mobility and 
cognitive disabilities.
    We provide accessibility for our employees as well. Just as 
an example, we have ASL staff and contract interpreters. We use 
video technology--it is almost like Hollywood Squares--that 
empowers us to simultaneously see one another while using ASL 
interpreters and audio-visual conferencing technology. Pretty 
cool technology.
    To quote one of my employees, ``At Sprint, accessibility is 
a verb.'' Every day, we have access to meetings, social events, 
emails, texting, IM, conference calls, just like our hearing 
coworkers.
    Finally, our training and continuing education classes also 
have captioning. Our goal is to provide a positive, accessible 
work experience for all.
    Now, moving on to the role of higher education. I would 
like to share with you how Sprint works with different 
universities to create internship opportunities. These 
internships provide great experience that can help prepare 
students for work and help employers address possible 
environmental or communicative or even attitudinal barriers 
that may exist today. Some of these student interns may also 
receive support from Vocational Rehabilitation Services 
Administration.
    Another great example of a valuable resource is PEPNet, the 
Postsecondary Education Programs Network. As you may know, 
PEPNet is under contract with the U.S. Department of Education 
Office of Special Education to provide transitional support for 
school to work.
    Specifically, they have a program called ``Getting A Job: 
Tools, Techniques, and Training.'' That is one of the many 
support services that improves the employment outcomes for deaf 
and hard-of-hearing students.
    In sum, universities should continue to work with RSA, U.S. 
Department of Education, and corporate America, all to maximize 
resources, centralize funding, and encourage better preparation 
for students transitioning from school to work.
    In conclusion, based on my experience, it will be required 
that strong partnerships between universities, corporations, 
and Congress be established to achieve more favorable 
employment outcomes for people who are deaf and hard-of-
hearing.
    Thank you again for this opportunity to participate today. 
And I look forward to your questions.
    [Applause.]
    [The prepared statement of Mr. Ellis follows:]

                 Prepared Statement of Michael J. Ellis

    Chairman Harkin, Ranking Member Enzi and committee members, thank 
you for this opportunity to testify before the committee as you examine 
opportunities for positive employee outcomes for individuals who are 
deaf or hard-of-hearing. Through our discussion, I plan to share my 
experience as both an individual who lives with a disability, hearing 
loss, and as an executive of the business community that has helped 
Sprint deliver services to the deaf, hard-of-hearing and speech-
disabled community for the past 20 years.
    My personal journey of living with deafness as a disability began 
at the age of 14 and then again at the age of 20 as a result of diving 
accidents. With the most profound hearing loss occurring 1 week prior 
to my senior year of college, I adjusted my life with little to no 
support or any type of reasonable accommodation. However, I didn't let 
deafness define me. One of the very first professionals in the field of 
deafness that I met was Dr. Gerard Buckley, current president of the 
National Technical Institute for the Deaf (NTID). Gerry encouraged me 
to use my education, recent hearing loss and personal experience to 
further my education as a graduate student. So I applied and was 
accepted to Gallaudet University. Becoming a graduate student at 
Gallaudet was a positive, life changing event. While at Gallaudet, I 
was taught how to embrace my disability and turn my hearing loss into a 
positive. After graduating from Gallaudet with a M.A. degree, I worked 
in the field of human services for 5 years before I joined the ranks at 
Sprint. At the time, Sprint recognized me as someone that understood 
the challenges of living with hearing loss and the related barriers and 
felt that my experience, education and training could help Sprint 
provide better services to people with disabilities. Thus, almost 20 
years ago, Sprint hired and empowered me to be a part of a solution 
that broke down barriers via our relay services. I now work side-by-
side with many other deaf and hard-of-hearing employees at Sprint where 
we provide functionally equivalent telecommunications access for people 
who are deaf, hard-of-hearing or speech disabled in all 50 States, 
Washington, DC and Puerto Rico.
    As the National Director of Sprint Relay, I am responsible for 
nationwide domestic and international telecommunications relay 
services, including traditional 711 services, wireless, CapTel, relay 
conference captioning, Internet and video relay customer applications. 
I currently serve on the Foundation Board for NTID and Gallaudet 
University's Board of Associates.

   OVERVIEW OF SPRINT INVOLVEMENT WITH THE DEAF AND HARD-OF-HEARING 
                               COMMUNITY

    Sprint has a long history of providing products and services to the 
deaf and hard-of-hearing community, as well as being an employer who 
enthusiastically employs a workforce that is diverse from many 
perspectives. Sprint is an Equal Opportunity Employer, which includes 
employing those individuals with disabilities. The company embraces a 
diverse and inclusive workforce. At Sprint, we believe diversity 
fosters creativity, sensitivity and growth. Through diversity we have 
been able to grow our product portfolio to be more inclusive.
    Sprint has developed partnerships and/or fostered mutually 
beneficial relationships with higher education institutions, such as 
Gallaudet, NTID, California State University--Northridge (CSUN), and 
regional, State and local deaf and hard-of-hearing organizations. Many 
of the people behind Sprint products and services for the deaf and 
hard-of-hearing community are also people that live with deafness or 
hearing loss, every day. These employees are actively involved in 
serving on the boards of organizations such as NTID and Gallaudet. We 
also hire deaf and hard-of-hearing summer interns for 10-week 
assignments which provides them with the experience they can apply in 
future studies and employment. Through the personal experiences of our 
employees and knowledge gained from our partnerships, Sprint is able to 
better relate to and support the communities we serve.
    Our efforts to foster inclusion in both the workplace and 
marketplace have resulted in Sprint being recognized by numerous 
external organizations.
    The Sprint Foundation supports the deaf and hard-of-hearing 
community through grant support for K-12 education programs targeted at 
improving middle school student achievement in science, technologies, 
engineering and mathematics (STEM).

             SPRINT TECHNOLOGY FOR EMPLOYEES AND CUSTOMERS

    Sprint supports and promotes accessibility for our employees and 
customers who are deaf or hard-of-hearing. Iconic and award-winning 
devices and relay services provide a great wireless value for people 
who are deaf, hard-of-hearing or have a speech disability. These 
services include:

    <bullet> Data only plans: includes email, Internet access, instant 
messaging, text and picture messaging (SMS).
    <bullet> Hearing aid compatible wireless phones.
    <bullet> TTY compatible phones allow people with hearing and/or 
speech loss to make and receive telephone calls.
    <bullet> 711 dialing to access in-state Telecommunications Relay 
Service (TRS).
    <bullet> Relay services include traditional TRS, Sprint IP Relay, 
Sprint Video Relay, CapTel, Relay conferencing captioning, Sprint Relay 
with AIM and Web CapTel.
    <bullet> Sprint Relay Video Customer Service (VCS) enables deaf or 
hard-of-hearing customers to contact a Sprint representative who uses 
American Sign Language.

    Sprint also offers a comprehensive array of technology to our deaf 
and hard-of-hearing employees. Many of these go beyond the definition 
of ``reasonable accommodation'' that was crafted as part of the 
Americans with Disabilities Act. Described below are just a few 
examples of how we provide accessibility from the application process 
to performing essential functions of the job that allow our employees 
to enjoy equal benefits and privileges of a social, economic and 
employment environment.

    <bullet> Phone amplifiers.
    <bullet> American Sign Language staff and contract interpreters are 
available in a variety of settings and locations.
    <bullet> A multi-point video software tool much like ``Hollywood 
Squares'' is used to allow up to 40 deaf and hearing employees, 
contractors and consultants to simultaneously see each other while 
using an ASL interpreter and/or audio conference technology. The 
technology is made available via a licensing agreement with Nefsis.
    <bullet> Sprint offers the same accessible technology to our 
employees that we offer our customers (see above).

    On any given day, an employee at Sprint that happens to be deaf or 
hard-of-hearing has the same access to meetings, conference calls, 
email, texting and socializing as their hearing counterparts. He/she 
may use a wireless device with a forward-
facing camera to connect with a video interpreter that will call a 
hearing co-worker to arrange for a meeting later in the day. He/she 
will then use Nefsis, a multi-point video tool from their computer with 
built-in web cam to see conference call participants as well as an ASL 
interpreter. In the afternoon he/she may take a training course through 
Sprint's i-learn curriculum and the content will be captioned. Total 
inclusion and accessibility is available, breaking down barriers to 
create a very productive work experience at Sprint.
    The Americans with Disabilities Act provides equal employment 
opportunities for those individuals with a disability who can, either 
with or without a reasonable accommodation, perform the essential 
functions of a position they have or are seeking. The law provides for 
an interactive process between the employer and the employee or 
applicant to determine what an effective and reasonable accommodation 
might be. Many individuals with disabilities require no accommodation 
to perform the positions they hold, but they may need an accommodation 
for a different position.
    In addition to a flexible work environment that includes a number 
of technology and mobility tools, Sprint provides employees with access 
to a robust process to address their needs for an accommodation to 
ensure their productivity. This not only ensures that we are fully 
compliant with regulations but can positively impact a temporary 
disability, ongoing need or an employee's return to work after a health 
event. The company grants over 1,000 formal accommodations every year.
    The confidential accommodation process is an interactive one 
between an employee and his/her manager. The process provides resources 
to employees and their managers regarding their role in the process. 
Additionally, Employee Experience Managers are available to consult 
with both employees and management as necessary.
    Finally, Sprint acknowledges that providing our employees with 
disabilities' reasonable accommodations is an integral part of who we 
are as a company. The general predisposition under our reasonable 
accommodation process is to provide an appropriate and effective 
accommodation if at all possible when an employee presents their 
request. Our main goal is for Sprint employees to be productive and 
high-
performing thus enabling them to provide the best possible service to 
our customers.

                        HIGHER EDUCATION'S ROLE

    Higher education institutions can help educate corporations, both 
big and small, by reaching out and inviting corporations to participate 
in paid internship placements, job mentoring programs and transitional 
support programs. As part of these career placement programs, higher 
education institutions could offer the corporations consultative and 
training programs on how to provide reasonable accommodation to current 
and prospective employees who are deaf or hard-of-hearing. This 
consultation and training support should help employers address the 
types of environmental, communicative and attitudinal barriers that can 
be common in the workplace. Helping companies overcome and address 
these attitudinal barriers about deafness and disabilities in general 
is a critical step towards inclusion. In the deaf community, leaders 
such as I. King Jordan, have long emphasized that ``deaf people can do 
anything but hear.'' This is so true and can only be fully understood 
if deaf and hard-of-hearing prospective employees are given a chance to 
prove it. Higher education institutions can work with corporations to 
address attitudes that people with disabilities ``can't'' just because 
they are different from the non-disabled.
    Additionally, higher education programs can help further prepare 
deaf or hard-of-hearing students by enabling them to become self-
advocates. This can be done by providing students with information 
regarding reasonable accommodations available to them under Title I of 
The Americans with Disabilities Act. Based on my experience, graduates 
would benefit from more training and experience to effectively and 
continuously advocate for themselves. They need more training and 
support on this critical success factor if they are to achieve 
sustainability in an increasingly competitive world of work. Students 
should engage the employer prior to entering the interview process, 
discuss any accommodations that have proven successful in the past and 
utilize the accommodation process the employer has provided 
understanding that each employer is unique and must evaluate the 
situation on a case-by-case basis. This facilitates the employer being 
prepared for the needs of the applicant and will improve the student's 
chances of successfully finding not just a job but a career.
    An expansion of the current Postsecondary Education Programs 
Network (PEPNet) to focus on transition from higher education to the 
world of employment would also be beneficial. The PEPnet Regional 
Centers are currently supported by contracts with the U.S. Department 
of Education, Office of Special Education and Rehabilitative Services, 
and Office of Special Education Programs. PEPNet's ``Getting a Job! 
Tools, Techniques, and Trainings'' Web site was developed and designed 
for students who are deaf or hard-of-hearing and transitioning to work 
as well as for the professionals who work with them. The Web site 
offers a series of topical videos accompanied by supporting documents 
and related materials, educator's guides and role model videos. For 
more information, go to: http://www.pepnet.org/getajob/.
    In sum, higher education should work in cooperation with the 
Rehabilitation Services Administration and the U.S. Department of 
Education, Office of Special Education, to maximize resources, 
centralize funding and stimulate better preparation programs for 
prospective employees who are deaf or hard-of-hearing.

                               CONCLUSION

    My personal experience as someone who lives with a disability and 
overcomes the challenges of hearing loss along with my involvement in 
the deaf and hard-of-hearing community and my corporate experience 
developing services for this community has led me to believe it will 
take a strong partnership between higher education institutions, 
corporations and Congress to achieve more favorable employment outcomes 
for people who are deaf or hard-of-hearing.

    The Chairman. Thank you.
    Next, Leila Hanaumi, please.

  STATEMENT OF LEILA HANAUMI, STUDENT, GALLAUDET UNIVERSITY, 
                         WASHINGTON, DC

    Ms. Hanaumi. [The following testimony was delivered through 
an interpreter.] Good afternoon and welcome, Chairman Harkin, 
Senator Enzi, and members of the committee.
    Thank you very much for the opportunity to be here with 
you. Your investment of time and resources to this university 
means so much to us.
    I am honored to be here representing the student body to 
testify before this committee, to share our experiences here at 
Gallaudet University as students.
    I have to say I don't know where I would be today if it 
weren't for Gallaudet University. Gallaudet provides me a 
unique experience for just myself and other students out there, 
students who are both deaf and hard-of-hearing.
    Gallaudet establishes high expectations for its students, 
and there are so many opportunities that we experience right 
and left. Students have these opportunities that they can jump 
into and really grasp. There are resources available for us, 
and one of those resources I wanted to mention is the career 
center. I know it has been talked about today.
    Thanks to the career center, I have actually had the 
opportunity to get my first internship working with Deaf 
Olympics. I was a reporter. I worked in Taipei, in Taiwan at 
the 2009 Summer Olympics as a reporter.
    I was there for 3 weeks. Actually, it was a 10-week 
internship, but 3 weeks was onsite. And I have to say that was 
one of the best experiences of my life. I grew so much through 
my work. Every day I had to go to a couple of different 
sporting events and then write a complete article just a few 
hours afterwards.
    And it wasn't just that, but with interactions with people 
all around the world allowed me to learn how to communicate 
through gestures, through interpreters, through everyday 
opportunities. And let me tell you, the stress of the day was 
nonstop. But from that experience, I have learned how better to 
interact with people and gained lots more skills.
    If it weren't for that internship, I don't know what I 
would have done. It was through Gallaudet that I got that 
internship. Nowhere else would I have heard about that until I 
was able to learn from one of my professors here that it was 
available. And this is just one example of the many 
opportunities that Gallaudet affords its students.
    I am now in my second internship, and this is working with 
people who are bilingual, working with producing bilingual, 
multicultural products that would best help deaf people learn 
in the bilingual environment. It has been a wonderful 
experience for me. I have really gained a lot from it.
    Also a couple of times a year, we have job and career fairs 
on campus. Today is a good example of that. We have a job fair 
happening right now on campus. And through those career fairs, 
lots of students are able to get internships. You get job 
opportunities.
    In fact, two of my friends both graduated from Gallaudet 
last year, and one 2 years ago was actually able to get an 
internship with Volkswagen just as a result of going to the 
career fair, job fair, talking with people, getting an 
internship, and then actually was hired, and today is working 
full time at Volkswagen.
    I mean, she just graduated this last May and has an amazing 
job so soon after graduation. Once again, just another example 
of what Gallaudet provides for this career fair.
    Another one of my friends was working through the 
recruitment program--the Workforce Recruitment Program, that 
is--and they were able to get a job. He graduated and 
immediately was employed through the Workforce Recruitment 
Program and has been there a couple of years now. And again, 
both of these examples show how successful students can be in 
getting jobs right after graduation.
    I also want to recognize the support I have been given by 
Vocational Rehabilitation. Often, schools for the deaf have VR 
services available to students who graduate to help them decide 
where they want to go to college and provide some financial 
support. I attended the California School for the deaf in 
Fremont, and I was fortunate enough to have a VR office right 
there on our campus.
    As I was nearing graduation, just a short walk to the 
building nearby, I was able to get some assistance from the VR 
counselor to learn about Gallaudet. And there is no way I could 
afford to come here if it weren't for the support of Vocational 
Rehabilitation.
    Gallaudet is often considered a Mecca for deaf and hard-of-
hearing people. And not just students here in America, but 
students throughout the world. Everyone dreams of coming to 
Gallaudet because we all know that coming here means we have 
complete access, as deaf persons, to everything that happens 
around us.
    One wonderful thing about that access is it is direct 
communication that we can have with our teachers, with our 
colleagues, with faculty members, with our peers, everywhere we 
go. I mean, even the cafeteria workers can communicate with us 
in sign language, our own indigenous language. So it has really 
afforded me a lot of personal growth here.
    Of course, we face the changing demographics of our student 
body. New signers are coming to campus more and more these 
days, and we do offer accommodating services for them, and 
technology is available today for them. So many things are now 
more available and accessible that allows us more 
opportunities.
    We provide real-time captioning and interpreting services, 
as well as note-taking services in classes. There are ASL 
classes and tutoring afforded to students, many opportunities 
ensuring that all students who are deaf and hard-of-hearing can 
be successful. Regardless of their communication background, 
regardless of whether they can sign or not, they will find this 
campus fully accessible to them.
    This is a place where we are really encouraged to grow as 
much as we can, and I can personally vouch for that. My dream, 
when I was growing up, was always to be an editor of a 
magazine. But honestly, I never thought I would be able to do 
it.
    And the biggest reason for that was because of the issues 
with communication. I mean, I always wanted to dream big, but 
in my heart, I always wondered how will I be able to 
communicate with my colleagues and my coworkers? I never 
thought it was honestly possible until I came to Gallaudet and 
I saw all that I could do.
    I became the fundraiser for my class, kind of starting 
small. And then from there, I moved up the ranks and became a 
writer for the Buff and Blue, and then a copy editor. And there 
I became manager and assistant editor, and before I knew it, I 
was editor of the Buff and Blue last year.
    I didn't come to Gallaudet expecting that I would be able 
to do all these things. I never imagined it. But in fact, here 
I was in this position now to encourage others to grow and to 
dream big because that is how I experienced it.
    There are so many little things and job experiences that 
have helped me along the way. I was a peer leader for the 
freshman class, for freshman seminar classes. When I was 
offered the position, I went for it, as I have for many other 
experiences, and I have grown personally so much. I have 
learned about myself and learned to believe in myself.
    I will be graduating soon, this December. And it is 
probably even one of my busiest semesters because I have been 
so involved in so many organizations. I am senator for the 
student body government. I am on student congress.
    I am on Bison TV. I am on the Bison TV show. These are fun 
projects, but I have to say they are great growth experiences 
for me. Through them, I have learned how to sign on television 
programs, to communicate better, and these are skills that I 
will be applying to my future employment opportunities.
    I am the Homecoming Bash co-chairperson. Homecoming is next 
Saturday. Students, this is a plug for you. You better be 
there.
    [Laughter.]
    But also I am involved in many, many areas of life on 
campus. All of these experiences have made me realize that I am 
an intelligent, hard-working woman, and I am capable of 
achieving anything that I dream. Any company would be lucky to 
hire me.
    And if it weren't for this experience at Gallaudet 
University, if it weren't for this institution, I wouldn't have 
that dream. This is the ultimate place for deaf and hard-of-
hearing students to come.
    With that, I thank you very much and ask you to believe in 
us.
    [Applause.]
    [The prepared statement of Ms. Hanaumi follows:]

                  Prepared Statement of Leila Hanaumi

    Welcome, Chairman Harkin, Ranking Member Enzi, and distinguished 
members of the committee! I am honored to be able to testify today on 
how Gallaudet University provides the resources and opportunities for 
deaf and hard-of-hearing students' future employment. Without this 
university, I don't know where I'd be today, and I know many of my 
colleagues could say the same. Thank you for being here and continuing 
the fight to promote the rights of people with disabilities. Your 
investment and support mean a tremendous amount to the deaf community.
    Gallaudet University provides a unique experience for deaf people 
like me. This university has high expectations for its students and 
opportunities are always appearing for us. We have a wonderful resource 
available right here on campus: Career Center. The advisors there are 
always notifying us of internship and work opportunities in DC and 
internationally. They are available to meet with us anytime we need 
guidance, and I have worked with Career Center in the past myself. It 
was here at Gallaudet that I first heard of the position of reporter 
for the Deaflympics, hosted at Taipei, Taiwan in 2009. I would likely 
not have heard or applied for the position had I been anywhere else 
other than at Gallaudet, and because one of my professors strongly 
encouraged me to apply, I got the job.
    It turned out to be one of the best experiences of my life. For 3 
weeks, I had to work under pressure every single day at Taipei, going 
to two sporting events a day and then typing a complete report within a 
few hours after the games. The job required me to interview various 
people everyday, including coaches, players, and fans from other 
countries. I learned to communicate with all kinds of people, using 
whatever means necessary. On the flight back to America, I felt like I 
had grown to be a much more independent, interactive, and capable 
person in such a short time.
    It was through Career Center that I was able to afford and complete 
my first internship. Career Center will help pay for one international 
and one domestic internship per student. I am currently on my second 
internship with a former professor of mine. This school is a great 
networking base, and I have often received opportunities in many 
different areas through the people that I have worked with. She is 
starting a new company that develops multimedia products that promotes 
bi- and even multilingualism within literacy. I am the Project Manager 
and I take care of various tasks, such as creating a Press Kit and 
organizing a retreat. It has been a wonderful experience to be able to 
witness and be a part of building a company from scratch.
    Also, there are Career Fairs on campus several times a year. 
Employers from different companies come with their booths to meet 
students and potential employees. This has proven to be successful, as 
one of my friends got an internship with Volkswagen by talking to a 
representative at the Fair. Volkswagen and Gallaudet had an agreement 
to have two students work at Volkswagen as a part of ``giving back to 
the local community'' plan. My friend was one of the students that got 
the internship, and Gallaudet ensured that he would have a positive 
work experience by providing interpreters when needed.
    I have another friend who is also a Gallaudet alumni success story. 
He landed an internship with Central Information of Technology under 
National Institute of Technology through the Work Recruitment Program 
that Gallaudet provides. That internship turned into a full-time job, 
and he has been working there for nearly a year and half now.
    I also need to recognize the support I receive from Vocal 
Rehabilitation. I was fortunate to go to California School for the 
Deaf, Fremont, where there was a VR office on campus. High school 
students could simply walk to the next building to meet with their VR 
counselor, and that's what I did my senior year. VR is paying for my 
undergraduate tuition, which also includes books and supplies. I don't 
know how else I would have been able to afford coming here.
    Gallaudet is considered a Mecca for deaf people all over the world. 
Here, we receive equal communication access, which allows us to enhance 
our university experience by being able to have direct communication 
anywhere on campus with anyone. However, we do have many new signers, 
and for those students, Gallaudet provides interpreters, Real Time 
Captioning in classrooms, and the option to have a note taker. This 
greatly helps new signer students to transit to an all-signing 
community.
    The technology that we have nowadays truly does contribute to equal 
access for deaf and hard-of-hearing people. Not only does it help new 
signers adapt into a signing environment, it does the opposite as well. 
I am able to make calls from everyday purposes to professional ones 
through Video Relay Services. That technology has advanced to the point 
I can be doing my homework on my laptop with the Internet on one side 
of the screen while on hold with a video call on another side of the 
screen. This kind of access helps me be a more independent individual, 
capable of multitasking and depending on myself to do all kinds of 
business.
    As the ultimate center for deaf people, students often blossom 
throughout their years at Gallaudet. I can vouch for that. I have been 
given so many opportunities to experience various activities that I 
have become such an all-around, multitasking, and capable person. My 
experiences here have included: being Fundraising Chairperson for two 
different organizations; writing and editing for the school newspaper, 
the Buff and Blue, and then getting promoted to Managing Editor and 
eventually, Editor-in-Chief; working as Peer Leader for a Freshman Year 
Seminar course; acting in the student television production, Bison TV; 
becoming Senator for Student Body Government's Student Congress; 
becoming a member of my sorority; being the co-chair of this year's 
Homecoming Bash; and many more. It has always been a dream of mine to 
be an editor of a magazine company, but I honestly never quite believed 
that I could do it until now. Witnessing my growth and ability to pull 
off difficult responsibilities and tasks has helped me realize that I 
am capable of so much more than I thought. Gallaudet has given me the 
confidence to pursue my passion in media, which includes the areas of 
advertising, journalism, and literature. Because of my experiences 
here, I now know what I want to do. I plan on applying to San Diego 
State University for graduate school in Mass Communication and Media 
Studies. I know that I am an intelligent and hard worker that any 
employer would be lucky to have, and I plan on carrying that confidence 
with me for the rest of my life.

    The Chairman. Wow. Told you we saved the best for last.
    That was quite remarkable. Thank you very, very much.
    I have some questions, just a couple, three things here. 
Members who are here are on the NTID National Advisory Group 
and the Gallaudet Board of Trustees, I would like to recognize 
them, ask them to stand. And if you will give them your thanks 
for their work?
    James Macfadden is here. James Macfadden. Claudia Gordon? 
Claudia Gordon. And also Andrew Brenneman. Andrew Brenne-
man right here.
    Thank you very much for your service. Thank you.
    And also, we have Alexa Posny, who is President Obama's 
Assistant Secretary for the Office of Special Education and 
Rehabilitative Services, is also, I am told, in the audience. 
Alexa Posny here.
    Thank you for being here.
    Well, it is hard to start right here, but I guess the two 
of you who are involved in the private sector in business--
every once in a while we run across companies, I have just 
heard of two here now, that have really taken the extra steps 
necessary to hire people with disabilities.
    How can we encourage more companies to hire individuals, 
especially as we are here now talking about individuals who are 
deaf or hard-of-hearing? Is it internships? Is that the key to 
it? Having them come to the college fairs? Just give me an 
idea. How do we get more companies to really take that extra 
step?
    Mr. Ellis.
    Mr. Ellis. I think you have to begin with the concept of 
evaluating that company's supervisory services to see whether 
or not that company is what we might say is ``deaf friendly'' 
in terms of how they provide service. And if we should bring in 
deaf employees, do they have necessary means to make their 
workplace accessible?
    For example, if you just look at car insurance. It is 
changing rapidly, and Sprint is working with a variety of 
different industries here to see if they are making cars more 
deaf friendly. You know, if you are driving with one of those 
GPS screens or some kind of a navigator, it would be great to 
have the captioning provided there so that deaf drivers are 
able to access that auditory information, and we can then use 
cars just like anyone else would.
    Should that be available, people would be in line to buy 
those cars. Making those products accessible and making sure 
that their workplaces are deaf friendly and accessible. That 
would be the first step.
    Mr. Bravin. I agree with you, Mike. I think it is important 
for us to show the company that hiring people with 
disabilities, including hard-of-hearing or deaf, that it is a 
competitive edge. It is not only doing the right thing or the 
right thing to do, employees should compare the marketplace and 
consumers.
    A good quote from John Kemp, who is now the CEO of 
Abilities, a former executive director of USDBLN, said that our 
employees should look like our consumers and look like our 
suppliers and look like our shareholders. And he said that, and 
I think that is very, very true.
    Mr. Ellis. I wanted to add as well, just to followup, one 
of the challenges is always this issue of cost and the cost of 
providing accommodations to businesses so that you can support 
accessibility needs for people with disabilities. Encouraging 
companies to realize that that cost, let us say, of providing 
interpreters or captions is really a great return on investment 
when you see the end product.
    I mean, you see the wonderful services and work ethic of 
deaf and hard-of-hearing people, really you are buying power. 
And once people realize that, they are much more willing to 
open up their minds and change their attitudes in terms of how 
they can provide services and bring in more people who are able 
to help them be more productive. Really, it adds buying power 
to the company.
    The Chairman. I might just add, that one of the things we 
see so often is that a company that provides support services 
for a person with a disability finds they have a more loyal 
worker, more productive worker, people who show up on time, do 
their jobs. I just see this and hear this time and time and 
time again.
    So you are right, Mr. Ellis. The small amount of investment 
in making an accommodation gives them a great payback in their 
employees. I just see that a lot.
    The problem is always then, getting them to take the first 
step.
    And what I think I am seeing happen out there, where now 
some companies are mentoring other companies, smaller companies 
that may be their suppliers--they may not own that company, but 
that company does some business with them, and they are now 
kind of acting as a mentor to them to show them what they can 
do. And I hope to see that done more often around the country.
    By the way, Ms. Hanaumi, I think there is going to be a 
competition here on who becomes the first Senator.
    [Laughter.]
    But obviously, you are exceptionally bright, very eloquent, 
have a lot of poise, and you have a great future. You said that 
VR helped you.
    Ms. Hanaumi. Thank you.
    The Chairman. VR, voc rehab. Voc rehab was helpful here 
with tuition and everything here. But now you are going to go 
to graduate school. Will they continue to help? Will they 
support graduate school or transition to the workforce? Do you 
have any idea of this? Because I don't know.
    Ms. Hanaumi. Actually, I don't know about other States 
because it does vary according to the State. But I can speak at 
least for California, and I do know that my VR counselor--and 
again, California is a big State. I have friends from 
California who may have different experiences and they received 
different information from their VR counselors.
    But my counselor was very clear with me that if I was 
interested in pursuing graduate education that I would be able 
to do so, and they said even if I took a year off they would 
pay for my graduate education. Now I am not sure about 
transitioning after graduate school to work, I am not sure what 
kind of support they provide.
    But I know that VR does continue to provide support for my 
studies. And I think it depends upon your major, and some 
majors are not so much supported by VR. So there is variance.
    The Chairman. It varies by State, the VR support?
    Ms. Hanaumi. That is right. That is correct.
    The Chairman. Find out the answer to my question, would 
you? What States do that? My question is what States do provide 
that ongoing help for graduate education, professional 
education beyond a bachelor's degree? I would like to know the 
answer to that question.
    You mentioned something else about--I just want to focus 
just slightly on this--internships. You had an internship. The 
two of you talked about internships. For all three of you, are 
there any changes--if you could snap your fingers and just make 
whatever changes so you could get more young people who are 
deaf into internships, what would you do?
    From your own experiences, what would make it better, 
easier for these young people to get these internships?
    Mr. Bravin. If I may look back to my first internship with 
Verizon in New York, this was after my first year at Gallaudet. 
I was still a kid, so to speak. I was so excited, my new suit 
on and everything, the first day of work, and I met with my 
boss. I had a hard time communicating with my boss.
    Verizon is a wonderful company. There is no question. I 
want everyone to understand that. But for that specific office, 
it was a new experience for them. They had good intentions, but 
no support services in place for people with disabilities.
    I think from that experience, what can change--the second 
summer actually was a wonderful experience with Verizon. NTID 
and Gallaudet had already done this and been proactive in 
educating other companies. But prepare students to allow--
especially an internship opportunity, where you only have a 
couple of months to just jump right in and I think that would 
make a big difference so that the students are prepared when 
they get there to face that.
    Mr. Ellis. Through many years I have had a variety of 
different interns. Some of them actually became full-time 
employees at Sprint. That was a great experience.
    As I reflect, I think what might I do differently? Perhaps 
having more time. I mean, usually we only have 10 weeks as part 
of the university's agreement. Ten weeks is simply not 
sufficient. It is barely enough time for them to get their feet 
wet. You know, they really don't get that full-fledged 
experience of what it is like to be in a corporate world.
    Maybe an internship that lasted 2 or 3 months? Those sorts 
of placements might be better, and maybe work closely with the 
university to make that happen.
    The Chairman. Longer time.
    Mr. Bravin. Yes, just a bit more time.
    The Chairman. You had a long-time internship?
    Ms. Hanaumi. Right. Exactly. Both of my internships were 
with deaf employers. I didn't have a lot that I would want to 
change about it, but I do agree with what has been said. Ten 
weeks is simply not enough. It is a minimum requirement here.
    In my current internship, I have been with the same 
employer since May. So that is an option.
    Yes, I guess I don't have anything else to say about that 
question.
    The Chairman. Longer-term internships. OK. Thank you.
    I will turn to Senator Enzi.
    Senator Enzi. I will start with Ms. Hanaumi. What kind of 
challenges do you anticipate that you will have as you begin 
classes at San Diego State? What types of accommodations has 
San Diego State discussed with you or not discussed with you?
    Ms. Hanaumi. Well, I will apply. I have yet to be accepted. 
So I can't say that I will start classes there this fall, but 
that is my intention. But, yes, I am a bit nervous about this, 
I have to say.
    Gallaudet is my second institution. My first was a school 
for the deaf in the Fremont, and here is my second educational 
setting. Accessible communication has just always been 
something I have done with my faculty and classmates. Wherever 
I end up in graduate school, San Diego or wherever it might be, 
being in a hearing classroom with an interpreter will be a new 
experience, and I am a bit anxious about that.
    Yet at the same time, I know that I have mentally prepared 
myself. I have talked to many of my friends who have gone 
through that same kind of experience in grad school, and I have 
talked with my friends who are at San Diego State University 
themselves currently.
    They are willing to make accommodations, and they do that 
even before you begin classes there, making sure that 
interpreters are available. I am very fortunate that San Diego 
State has one of the best interpreter referral agencies in the 
country. I am very hopeful that I will have a positive 
experience.
    But at the same time, I am preparing myself for the 
challenges that I will face of not being able to participate 
fully in the classroom discussions, as I have been able to do 
thus far, and maybe get a bit of extra time added to when I get 
information. There will be a bit of a delay and maybe not 
having that ease of communications with my peers and my 
professors as I do now.
    But I will deal with it as I go.
    Senator Enzi. I bet you will deal with it well. I am very 
impressed.
    Mr. Ellis and Mr. Bravin, what is the typical career track 
for an employee at each of your companies who is deaf or hard-
of-hearing?
    Mr. Bravin. The nice thing about IBM, it is a global 
company, and we have a long history of hiring individuals with 
disability, deaf or hard-of-hearing. My father used to work 
with IBM for about 25 years, and he was in software 
development, marketing, and engineering. And I am more on the 
strategic side.
    We have a lot of IT, software development areas, and the 
amazing thing is I think we already talked about the innovative 
design for deaf and hard-of-hearing individuals. However, they 
have been integrated. A couple of deaf and hard-of-hearing 
employees have worked in our HR portal to allow for individuals 
to ask for captioning and accommodations and interpreting 
requests through that portal.
    Other situational disabilities who are not disabled, but 
perhaps have a broken arm, also use that tool. In fact, we are 
working with one company in the healthcare industry to sell 
that solution. We are presenting that to the marketplace, and 
it all started from an internal arena with our own employees 
that have disabilities.
    Senator Enzi. Mr. Ellis.
    Mr. Ellis. From a career track perspective, really the sky 
is the limit. We have deaf and hard-of-hearing people who are 
working with marketing, sales, product development, legislative 
affairs, Government affairs, technologies. I mean, it just runs 
the gamut. You name it. There are no barriers in terms of what 
employees can do based on their areas of interest and their 
background. Support services are available to them.
    It is designed as really empowering the individuals who are 
employed to design their own career path. It is a very open, 
accessible attitude and environment.
    Senator Enzi. What types of professional development and 
on-the-job training do each of the companies offer to the 
employees who are deaf and hard-of-hearing?
    Mr. Ellis. Exactly the same kinds of opportunities that a 
person who is able to hear would be able to access in terms of 
professional development, opportunities to get involved with 
management and leadership training. Every employee has what is 
called an individualized development plan, and that IDP is 
something that gives them the opportunity to sit down with 
their supervisors and just talk through what it is that they 
want to do, what they want to become, you might say, when they 
grow up in the next 5 or 10 years, and work toward a plan to 
achieve that goal.
    We are very active in terms of the management getting 
involved and employees taking responsibilities to enroll in 
classes and pursue learning and growth on their own.
    Senator Enzi. Ms. Hanaumi, can you tell me a little bit 
about--I assume that you have gone to some of these on-campus 
career fairs. And so what kind of challenges do you find with 
those and what kind of opportunities? How do they work?
    Ms. Hanaumi. Well, typically, they have a variety of booths 
set up, and it is maybe at the conference center or someplace 
like that. And there are booths that provide information, and 
employers are stationing these booths, and we always have 
someone there providing interpreting services.
    Or students are able just to read the material and request 
an interpreter to come with them if they have any questions of 
the employers. Or they can just take business cards and get in 
touch with folks later through email or followup with other 
questions they might have.
    I mean, of course, the only challenge is going to be being 
able to use my own communication directly to the employer and 
not have to go through a third party, through an interpreter. 
Sometimes that adds a little bit of a delay. Employers may not 
have experience working with an interpreter before, and so they 
may do things like looking at the interpreter instead of 
looking at the student who is asking the question.
    It gets a little confusing about who is talking and who is 
actually the one generating the conversation. But once we work 
that out and interpreters here at Gallaudet are probably some 
of the best I have ever seen, and with that, interpreters 
really help to make the situation a lot more accessible and 
accommodating for us.
    It is not too much of a challenge. It is just a little bit 
of a different experience.
    Senator Enzi. I have got to say all of this has been very 
eye-opening. Sometimes we live in a little bit different world. 
We don't think about these things. So it is very helpful. And 
again, I have some more of a technical nature questions that I 
will provide in writing.
    You have been tremendously helpful.
    The Chairman. Thank you very much.
    Is there a question we didn't ask that you said, ``Boy, I 
sure hope they ask me this question.'' Anything else that you 
would like to have us know before we dismiss you?
    Mr. Ellis. I just want to recognize and thank you both for 
realizing how important this is and what a wonderful 
opportunity it is to see how talented deaf and hard-of-hearing 
people in America can be afforded opportunities to be 
successful. I hope you can help us open doors.
    Mr. Bravin. And working for IBM within the global company, 
there are a lot of issues here. And we take for granted--a lot 
of countries, India and China, have very little exposure with 
deaf and hard-of-hearing employees or are not as fortunate as 
we are. We should be a model for other countries as well.
    The Chairman. That is very true.
    Ms. Hanaumi.
    Ms. Hanaumi. I don't want to be repetitive, but I guess for 
me the bottom line is, is what is so special about Gallaudet to 
me is that our students here have the opportunity to be on 
equal playing ground. I mean, we are equal humans. It is not 
like we are deaf or disabled people here. We are just humans 
here, and that is a great starting point for us.
    That helps us really build the foundation we need to go 
into the workforce, and I think really that is a great 
mentality to take with us.
    The Chairman. Thank you all very much again for this very 
historic hearing.
    This will go down as the first-ever hearing in which every 
witness was deaf. Never happened before. And so, I am very 
proud of both Senator Enzi and I, both of whom have had 
deafness in our family, and this is very important to us.
    And I just say for the record, why shouldn't more people 
with deafness testify, as well as people with other kinds of 
disabilities that we have all over our society, you know? I 
hope this sort of sets a kind of a standard for the future in 
our hearings.
    Not that we always want to come back to Gallaudet. We may 
not be able to do that, but you can come down to the Hill and 
testify.
    I noticed, Dr. Hurwitz, in your written testimony you 
mentioned some successful people who have gone on. You 
mentioned Greg Hlibok, who graduated in 1989, as the chief of 
the Disability Rights Office for the Federal Communications 
Commission. That was the young man that led the Deaf President 
Now movement.
    Mr. Hurwitz. Yes, that is correct.
    The Chairman. Oh, he is here? Oh, Greg is here.
    Mr. Hlibok. [through interpreter] Hi, Senator Harkin. 
Hello.
    The Chairman. I knew him when he was a kid.
    [Laughter.]
    Mr. Hlibok. I am still a kid. I am still young.
    The Chairman. I was so proud of him when he led that 
movement in 1988?
    Mr. Hlibok. That is correct. Yes, 1988.
    The Chairman. Wow. It was wonderful. They came down to the 
Capitol. They plugged up the traffic.
    [Laughter.]
    It was just wonderful to see students demanding their 
rights. It was an exhilarating moment I know for Gallaudet and 
for the young people. But for those of us who had worked a lot 
in disability rights and things, it was--and that was before 
the ADA. That was before ADA passed.
    And quite frankly, I said a lot of times, that kind of gave 
us the impetus, a lot of impetus because a lot of the Nation 
saw this and began to ask, you are right. Why shouldn't 
Gallaudet, the premier school for educating students with 
deafness, why shouldn't they have a deaf president?
    And it just changed. Everything changed. It was a wonderful 
moment in history, and I am delighted to see Greg. I didn't 
know he was here. I just read that here. But congratulations on 
your new position, too.
    Mr. Hlibok. Thank you.
    The Chairman. That is quite an accomplishment and did a lot 
to change the school here.
    I am going to use my final comment as Dr. Hurwitz's. He 
didn't give it all. So I am going to give it all.
    You said,

          ``In many ways, today's Gallaudet students possess 
        greater awareness and confidence in succeeding in the 
        world of work, as compared to past generations of 
        students.''

    That is true.

          ``When I stand on the stage in May 2012 performing 
        what is, indeed, the greatest joy of any university 
        president, the conferring of degrees, I will be handing 
        degrees to many undergraduate students who were born 
        after the passage of the greatest civil rights 
        legislation for people with disabilities in the history 
        of our Nation.
          ``These students have grown up in a world where the 
        paradigm of having a disability is not an abnormality 
        to be ashamed of, but a difference to be embraced and 
        valued. They are what I call `the ADA generation.' This 
        ADA generation is not reserved exclusively to those who 
        are considered disabled by others. It is a 
        generation''--and this is important. ``It is a 
        generation of all young Americans who share the same 
        hopes and desires to achieve the American dream.''

    I don't think it could ever be said better than that. The 
record will stay open for 10 days for any other submissions or 
questions.
    Before we close, I want to introduce two people. A lot of 
times we Senators, we get plaudits and applause for doing 
things. But we know that it is the staff who does the work. I 
am blessed with two great staff people who do all of my 
disability work, Lee Perselay, who is here. Please stand up.
    [Applause.]
    And Andy Imparato.
    [Applause.]
    Thank you all very, very much. Thank you again, Gallaudet, 
for hosting us here. To all the students, study hard, do well. 
We are going to be proud of you.
    Thank you. The hearing will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                    Prepared Statement of Maya Ariel

    Mr. Chairman and members of the committee, thank you for taking the 
time to talk about how important education is to employment 
opportunities for people who are deaf or hard of hearing. It is my 
honor to provide written testimony.
    I am the only deaf person in my family. I was born hearing but was 
deafened by spinal meningitis at 7 months old. I am a student at the 
Rochester Institute of Technology (RIT) College of Business and was 
admitted through the National Technical Institute for the Deaf (NTID). 
My major is Business Administration-Management. I strongly believe that 
Gallaudet University and RIT/NTID offer a tremendous amount of 
resources and support to deaf and hard-of-hearing students that would 
not otherwise be available. Both institutions help prepare deaf and 
hard-of-hearing students to enter the workplace and pursue their 
dreams.
    RIT/NTID offers an equal-opportunity learning environment to its 
deaf and hard-of-hearing students, providing diverse communication and 
study aid so that the deaf and hard-of-hearing population can best take 
advantage of the education and college life. The institute offers a lot 
of options and resources to prepare you to be a productive member of 
society. It's so important to be in an educational environment that 
recognizes and addresses our needs so that we can develop our skills 
and our goals, and look forward to being productive members of the 
workforce and of our society.
    I have had so many productive experiences at NTID that I feel will 
help me be successful after I graduate. I became extremely involved in 
the theatre community at NTID, acting in many plays and working as a 
stage crew member and a scene shop employee. I have been involved in 
sorority life and also participated in a Habitat for Humanity trip to 
South Carolina. I am a resident advisor and work in the NTID admissions 
office. I also had the wonderful opportunity of participating in a full 
immersion program in Italy for 6 weeks one summer. All these 
opportunities and experiences have been made possible because RIT/NTID 
offers a supportive, equal-opportunity environment where we, who are 
deaf and hard of hearing, can participate in the academic environment 
and campus social and work opportunities just as our hearing peers do. 
There are no boundaries.

(Link: http://www.youtube.com/watch?v=gJcAymTu-CE)

    Along with fellow student, Hannah Worek, last spring, I was 
involved in the show ``What Would You Do?'' on ABC. The show was set in 
a coffee shop, and simulated a situation where a manager denied Hannah 
and I the ability to apply for an available job in the shop because we 
were deaf. The point of the show was to highlight how members of the 
public responded to this discrimination. To my surprise, even though we 
were in that shop 6 hours straight, only a few people stood up for us 
and told the employer that he was discriminating. The impact that made 
on all of us involved in the show was how much people need to be 
educated about diversity and discrimination. RIT/NTID teaches us that 
it is about our abilities in the workplace, not our disabilities, and 
provides us those skills that enable us to enter the workplace as 
equals.
    Although I was surprised at the lack of support from the public at 
the coffee shop, I am not surprised that there is a barrier that stands 
between deaf and hard-of-hearing people and gainful employment. It is 
really important to the deaf and hard-of-hearing population that there 
are schools such as RIT/NTID to attend.
    One of the benefits of attending NTID is the NTID Center on 
Employment (NCE) that helps with resumes, cover letters, job interviews 
and job searches. The two main goals of NCE are to help deaf and hard-
of-hearing RIT/NTID students and graduates with the job search and to 
provide employers with well-trained, highly qualified deaf and hard-of-
hearing employees as well as to provide guidance integrating employees 
with hearing loss into the workforce. We also have a Workplace 
Recruitment Program just like Gallaudet that invites employers to come 
to our school to help students obtain either co-ops or full-time jobs.
    One of the things I really love about RIT/NTID is that before we 
graduate with a bachelor's degree, we are required to have co-ops. This 
summer, I was placed in a co-op through the American Association for 
People with Disabilities (AAPD) at the U.S. Department of Agriculture 
(USDA) in its Agriculture Marketing Services department in Washington, 
DC. The USDA wanted to integrate workers who have special needs into 
its workforce, but had little experience with co-ops. The first thing 
that my boss at USDA asked me was how the Department could accommodate 
me so that I might be on equal footing with the other employees and be 
successful on the job. What we decided was that, when I had one-on-one 
meetings, I did not need an interpreter as long as my boss and my co-
workers have the patience to repeat, or to speak slowly, if I initially 
had trouble understanding what was being said. With a group of people, 
I definitely needed an interpreter to understand each speaker and to be 
as involved as the other people. We also agreed that an interpreter 
would be available to me the first few days on the job until I was 
introduced to my co-workers and we established comfortable ways to 
communicate. This anticipation of, and preparation for, my needs made 
my transition into the job smooth. It was good for me and for my co-
workers as well.
    As the weeks went by, my co-workers realized that I was just like 
them with the exception of my hearing loss. I worked just as 
diligently; was interested in the day-to-day workings of the office; 
and in them as colleagues. I feel that, by the end of my co-op 
experience, my colleagues judged me based on my abilities and not my 
disability. We also grew to appreciate one another's differences. 
Several of my co-workers became quite interested in sign language, and 
I was able to teach an introductory sign language class to interested 
colleagues during work one day. I'm sure I could have taught a series 
of such classes had time permitted.
    The work environment at USDA was also important. There was a 
feeling of camaraderie and inclusiveness. We had jobs to do, but it was 
important that everyone felt that their contribution was important, and 
that their voice could be heard, in whatever form that takes. The 
attitude displayed by the USDA as an employer is really necessary for 
deaf and hard-of-hearing workers to be successful in the workplace.
    I will be experiencing my second co-op this upcoming spring quarter 
when I will be working for the Dow Chemical Company in Indiana. I am 
currently looking for a full-time job upon graduation. I do not give up 
even though we face frustrations, barriers, and communication 
challenges.
    Regarding Vocational Rehabilitation (VR), the support provided by 
States varies. My home State is New Jersey, and due to economic issues, 
the support that I receive from the VR is declining. Not all deaf and 
hard-of-hearing people receive VR support. Some people receive nothing. 
From what I understand, this is because of State budget cuts. Of 
course, this affects the ability of some deaf and hard-of-hearing 
individuals to go to college.
    Unfortunately, even though I am having a successful experience at 
RIT/NTID, I will always face challenges outside of college with the 
communication issues and the way our society reacts to people who are 
different in some way from the mainstream. I believe that as long as 
the Federal Government supports institutions like RIT/NTID and supports 
equal opportunity at the workplace, we will have a chance to make an 
impact in the workplace and in society. Progress has been made. But we 
need the government's continued support to continue to make progress.
    If there is one thing I could change in American society, it would 
be for people to not look at us differently and greet us the same way 
they would any other person. In my opinion, I think it would be a great 
opportunity to require all industries and agencies to support a 
diversity workshop and to be open to the potential of accommodating 
people who have special needs.
    The value of education at RIT/NTID, especially with the support of 
the Federal Government, is a big plus for deaf and hard-of-hearing 
individuals. If that is taken away from us, so many able students will 
suffer, and so much richness will be lost. There are many talented deaf 
and hard-of-hearing people who deserve the opportunity to get involved 
in the workforce.
    Thank you.

                   Prepared Statement of Hannah Worek

    Mr. Chairman and members of the committee, thank you for the 
opportunity to submit this written testimony regarding the topic of 
``Leveraging Higher Education to Improve Employment Outcomes for People 
who are Deaf or Hard of Hearing.''

                                HISTORY

    I am hard of hearing. I grew up mainstreamed and attended school in 
the Brighton school district in upstate New York. I was quite fortunate 
to have had such a wonderful mother who always fought for my rights, 
made possible by the ADA. It was because of her that I was given the 
chance to excel in school.
    Education is so important, and it is equally important that people 
receive equal access to that education as early as possible.
    My older deaf sister, Abigail, was mainstreamed on and off 
throughout her life. At one point in her mainstreamed education, the 
interpreter she started the school year with was not able to finish the 
year. The Board of Cooperative Educational Services (BOCES) placed a 
substitute interpreter with Abigail.
    She continuously complained about the quality of the interpreter 
and how she felt uncomfortable with the interpreter. The response from 
BOCES was to ``stick it out.''
    After a while, Abigail had had enough of ``sticking it out'' and 
decided she did not want to attend school if the same interpreter was 
assigned to her. As much as my mother tried to get her to go to school, 
Abigail refused. My mother also tried to reach out to BOCES to get them 
to change the interpreter assignment, but they both came to a 
standstill.
    This lasted for almost a month, and the authorities had to get 
involved. Finally, Abigail ended up attending Rochester School for the 
Deaf. The interpreter situation was never addressed or resolved.
    Though this may have been an extreme case, it is not uncommon for 
parents to have to continuously fight for their deaf/hard-of-hearing 
children's rights. I recently babysat a deaf girl who was mainstreamed, 
but expressed interest in attending Rochester School for the Deaf. Her 
parents had to go through an arduous petitioning process during the 
spring and summer just so she could switch schools for the next school 
year.

                               BACKGROUND

    Growing up mainstreamed, I never quite felt like I fit in 
completely with my peers. I cannot really complain though; I received 
one of the best educations possible. I received equal access to this 
education because I had qualified interpreters and note takers present 
in all of my classes.
    Another huge factor was that I wore hearing aids to school. 
Fortunately, I had one of the best hearing aids available at the time. 
I needed two, and the hearing aids were between $1,000 and $2,000 each. 
My parents had to pay this expense out of their own pockets; their 
insurance would not cover the hearing aids. Ironically, the same 
insurance plan would have covered the $30,000-$40,000 expense of 
getting a cochlear implant.
    I did not and still do not feel comfortable with the idea of 
getting a cochlear implant. In terms of cost, it should not cost me 
less to get surgery than to get two external devices. My mother wrote a 
letter to the insurance company objecting to this, and they agreed to 
cover only half the cost of the hearing aids. Any help was better than 
no help.

        BEING A STUDENT AT THE ROCHESTER INSTITUTE OF TECHNOLOGY

    I am currently a third-year Criminal Justice student. I have not 
regretted a single moment that I have spent here at RIT. It is so nice 
to be surrounded by both deaf and hearing people every day. I have the 
liberty of making the choice of who I want to surround myself with.
    My friends are mostly deaf, but I decided to join a hearing 
sorority on campus. The majority of my hearing Sisters either have 
taken or will take ASL as a class on campus. RIT makes it so easy for 
this collaboration to happen. The impact of NTID at RIT is far-
reaching. Some of my Sisters who graduated have texted me, telling me 
about how they have used ASL to communicate with deaf customers in 
their new jobs.
    Though I am only a third year, I already feel prepared for the 
workforce. I did an internship at a real estate company over the past 
summer, and I could not think of any way I could have been better 
prepared to work there. RIT taught me how to effectively work with 
other people on projects, about the importance of deadlines, and so 
much more.
    I will not dedicate much time to talking about RIT because I think 
it is a great investment of the government's money. There is nothing 
that I think needs to be changed here at RIT, so I will dedicate my 
energy to more pressing issues.

         MY EXPERIENCE ON ABC'S TV SHOW ``WHAT WOULD YOU DO?''

    Maya Ariel and I appeared on an episode of ABC's ``What Would You 
Do?'' as a job applicant in a coffee shop. The manager, who was an 
actor, openly discriminated against Maya and me, in the hopes that it 
would evoke reactions among customers. We filmed from 7 a.m. to 4 p.m. 
as customers were constantly streaming in and out. By my count, only 
three people said something to help us.
    The episode has also been posted on YouTube. Though the episode has 
educated millions, many still remain ignorant. A comment on the YouTube 
video said, ``Can we please stop pretending that being deaf isn't a 
potential detriment to job performance? Is anyone pretending they'd 
hire a deaf person over someone who can hear?'' This is precisely the 
attitude that needs to be changed.
    A glass ceiling definitely exists for deaf people. According to 
Forbes, in 2010, women accounted for only 3 percent of CEOs of the 500 
biggest U.S. companies. Though 3 percent is small, 0 percent is even 
smaller. None of the 500 CEOs identify themselves as deaf.
    It is not that there are no deaf people qualified to be CEOs; it is 
the general attitude of the hearing public that deaf people cannot hold 
executive positions.

                         POSTGRADUATE EDUCATION

    I am aspiring to go to law school. From what I know, most people in 
New York who want to go to graduate school are often not financially 
supported by their Vocational Rehabilitation (VR) counselors.
    Cost is a huge limitation for me when I decide to apply to law 
schools, as it is for most people in general. Unfortunately, this is 
not my only limitation. I have talked to numerous deaf people about 
attending law school and they have recommended certain schools merely 
because those schools will provide adequate support services. This is 
not guaranteed at most schools.
    It is incredibly frustrating that accessibility may become an issue 
in my postgraduate education. I now am limited to schools that will 
provide interpreters and note takers without much trouble. It is my 
hope that with future policy, there will be no more limitations.
    Prepared Statement of the National Association of the Deaf (NAD)
    Dear Chairman Harkin, Ranking Member Enzi, and distinguished 
members of the committee, The National Association of the Deaf (NAD) 
applauds the committee for hosting the historic hearing on Leveraging 
Higher Education to Improve Employment Outcomes for People who are Deaf 
or Hard of Hearing where all the panelists were deaf or hard of 
hearing. We are very much looking forward to continuing these important 
discussions and submit the following comments on this issue.
    The NAD wishes to encourage the committee to look at some options 
to improve employment opportunities for people who are deaf or hard of 
hearing. These suggested options go beyond the realm of higher 
education, and focus on overcoming barriers that complicate hiring 
chances for this population.
    During the hearing, one of the stated statistics was that only 48 
percent of people who are deaf and hard of hearing and aged between 18-
64 years have jobs.\1\ It is our belief that the main obstacle 
contributing to this terrible statistic is the way employers perceive 
and handle the cost of ongoing accommodations. Sign language 
interpreters are one form of an ongoing accommodation necessary in some 
circumstances for many individuals who are deaf or hard of hearing. 
Employers too often worry more about the cost of such ongoing 
accommodations than the abilities or skills of deaf and hard-of-hearing 
job applicants and employees.
---------------------------------------------------------------------------
    \1\ Census Bureau's 2010 American Community Survey.
---------------------------------------------------------------------------
    To move past this misperception among hiring entities, we recommend 
new approaches to how such ongoing accommodations are handled, in both 
the public and private sectors. A few such approaches are listed here:

    1. Encourage more businesses to adopt a Cost Recovery program 
similar to IBM's. This program removes the accommodations for employees 
with disabilities from the individual manager's budget to ensure that 
hiring and promotion decisions are based on skill and talent. In short, 
it removes the cost calculation from decisions about hiring people with 
disabilities.
    2. To lower or remove the cost barrier of providing accommodations, 
we encourage Congress to greatly increase the Disabled Access Tax 
Credit. Currently, the tax credit is only available for small 
businesses with previous tax year revenue of $1,000,000 or less (or 30 
or fewer full-time workers.) A small business may only take a tax 
credit for 50 percent of their costs beyond the first $250 of expenses, 
up to a maximum expenditure of $10,250 (the first $250 does not count.) 
We believe that to truly lower or remove the barrier, the tax credit 
should be 100 percent and should be greatly expanded to cover much 
larger employers. Further, this tax credit will be offset by taxes paid 
by an increase in working deaf and hard-of-hearing people and less 
reliance on Social Security payments.
    3. Government could promote a policy that encourages all employers 
to participate in a large centralized fund to provide for all 
accommodations. In short, this would allow for costs to be evenly 
spread out among all employers. Such a centralized fund could be funded 
through some sort of tax on employers, or possibly use money from 
Social Security in cases where a beneficiary transfers from disability 
benefits to employment.
    4. Encourage the Department of Labor's one-stop centers to focus on 
helping people with disabilities find employment. Many people with 
disabilities do not need rehabilitation but simply need job placement 
assistance. The DOL should require these centers to become accessible 
and require them to hire Business Service Representatives who are 
focused on the hiring of people with disabilities.
    5. Amend the Rehabilitation Act to ensure that Vocational 
Rehabilitation programs throughout the country not only provide 
employment placement services but also are mandated and credited for 
employment retention services.
    6. The Rehabilitation Act should also be amended to support the 
National Employment Team (NET) concept promoted by the Council of State 
Administrators of Vocational Rehabilitation (CSAVR).
    7. Create or fund a center (including but not limited to the NET 
proposed in paragraph 6) that is prepared to support employers with new 
or developing communication technologies that can support employment 
opportunities of individuals who are deaf and hard of hearing.

    These preliminary ideas are meant to start the dialogue on ensuring 
that people who are deaf and hard of hearing are given a chance to 
secure jobs as well as move upwards within their workplace. This 
population needs the opportunity to work and not be seen as a burden by 
prospective employers, and the current economic model under the 
Americans with Disabilities Act does the opposite by making reasonable 
accommodations an economic disincentive.
    This economic disincentive can be reversed by removing the cost of 
ongoing accommodations from the hiring equation and placing it 
elsewhere.
    Changing the way hiring decisions are made is just as important as 
making sure that individuals who are deaf or hard of hearing receive 
adequate training from their colleges and universities. It is also 
important to note the importance of elementary and secondary education 
for students who are deaf and hard of hearing. There are many States 
that are currently looking at ways to cut costs in such elementary and 
secondary education, particularly with State schools that are often the 
only means of direct education available to young deaf and hard-of-
hearing children. Such schools are a critical means of preparing such 
young students for a lifetime of quality employment, and these schools 
must be preserved.
            Sincerely,
                                       Howard A. Rosenblum,
                                           Chief Executive Officer,
                                  National Association of the Deaf.
                                 ______
                                 
        Response to Questions of Senator Enzi by T. Alan Hurwitz

    Question 1. I want to ask about low expectations that are too often 
established for students with disabilities. They become self-fulfilling 
prophecies. What can be done to change this situation and what is 
Gallaudet doing to change this situation?
    Answer 1. Low expectations are indeed a destructive force in the 
education and employment of deaf people. When people are not expected 
to succeed, they often do not believe in themselves, and then they do 
not achieve all that they could if the best had been required and 
expected of them.
    One of the ways Gallaudet is addressing this problem of low 
expectations is by creating four new pre-programs that will prepare 
students to enter demanding professional careers: Pre-law, pre-
medicine, pre-architecture and pre-MBA. These four programs will train 
deaf students in these fields, preparing them to go on to higher 
education and thrive in those four professions. Lawyers, doctors, 
architects and business people are some of the highest achieving and 
most demanding professions in the United States. Offering these 
programs shows that we believe in students and they can dream and 
achieve whatever career they desire. The deaf youth of America will 
know that Gallaudet expects them to be highly successful, and that 
includes becoming doctors, lawyers, architects and business people. We 
will provide them the support, tools, and confidence to achieve.
    Furthermore, Gallaudet admission standards have increased. For 
example in 2006, 31 percent of students had English levels that 
required them to be placed in ``conditional'' status. In 2011, that 
number was only 16 percent. Also, in 2006, the average ACT English, 
math and reading scores were 14.0, 16.9 and 16.8 respectively. In 2011, 
those scores were 17.6, 17.9 and 19.7. Additionally, as Gallaudet has 
seen increased standards among those students admitted to the 
University, graduation rates have improved, as has persistence. 
Increasing our standards has not led to decreasing enrollment. We 
believe that if we have high expectations for prospective students, 
deaf and hard-of-hearing youth and the schools that serve them will 
meet those expectations.

    Question 2. Can you please talk about technology and other change 
moving from the deaf community into the mainstream?
    Answer 2. Many technologies primarily used by the deaf community 
have moved into the mainstream and gained larger use and acceptance. 
Captioning for television and movies was originally done to grant 
access to deaf and hard-of-hearing people, but now can be found in 
noisy environments, such as bars and airports, disseminating 
information to all watching. Videophone technology used by deaf people 
is more reliable than the video technology available to the general 
public today, such as internet-based systems like Skype. The 
interoperability also allows different types of videophones to call 
each other, and they may serve as the example for mainstream video 
technology.
    Furthermore, real-time text technology, originally used by deaf 
people who used TTY's (Teletypewriters) in the latter half of the 20th 
century to communicate, while fairly obsolete technology now, could 
come back in popularity. This technology allows words to be seen in 
real time, as they are written, and the Real-Time Text task force 
believes mainstream users will utilize it as well.\1\ Also, volume 
control on telephones that was beneficial for hard-of-hearing users is 
now available on general phones and visual alert systems, like flashers 
for phones, can be purchased in mainstream electronic stores. All of 
these are examples where technology that was originally intended for 
the deaf community has reached and benefitted a larger audience.
---------------------------------------------------------------------------
    \1\ From http://www.realtimetext.org/index.php?pagina=27.

    Question 3. Everyone needs preparation to take his/her place in the 
workforce. Perhaps those who are deaf or hard of hearing need 
additional preparation because they have not had the opportunity to 
learn about the workplace while growing up. What can be done about this 
and what is Gallaudet doing to overcome these problems?
    Answer 3. One way that Gallaudet fulfills the need to train our 
students about the workforce is through internships. Gallaudet has a 
high rate of internship placement--80 percent of graduating seniors 
complete at least one internship prior to graduation, a percentage much 
higher than the national average of 52 percent. Internships give 
students practical, hands on experience in the workforce, allowing them 
to acquire the requisite skills for future employment. This also 
exposes deaf and hard-of-hearing interns to employers who get to see 
firsthand the benefits of hiring individuals who are deaf or hard of 
hearing.
    Furthermore, students also have the opportunity to work on campus. 
Multiple venues, such as the library, archives, on-campus restaurant, 
and various academic and administrative departments hire students. This 
gives our students the opportunity to work, earn money, and participate 
in employment, providing them knowledge and skills about working. Also, 
multiple services are offered by the Gallaudet Career Center that 
prepares students for their careers. These are discussed in question 
#4.

    Question 4. What types of on-campus career services does Gallaudet 
provide for students?
    Answer 4. Gallaudet University has a Career Center that provides a 
variety of resources for students to aid them in finding employment. 
Some of these are:

    <bullet> Career Consultation: Students can make appointments and 
receive assistance with resumes and cover letters, preparation for 
internships and jobs, as well as assessments of their interests.
    <bullet> Internship program: Internships provide students with 
valuable experience in entering the workforce and preparing them for 
employment. Students are allowed the option of receiving academic 
credit for these internships.
    <bullet> Career Development Course: This seminar, which is required 
for graduation, teaches students how to write resumes, network, and 
prepare for interviews.
    <bullet> Internship and Job Fairs: Twice a year, in the fall and 
the spring, the Career Center hosts Internship and Job fairs, attended 
by approximately 40-50 employers. Students are able to meet and 
interact with potential employers, and network at these events.
    <bullet> Career Library: The career library has in its collection 
graduate school information, as well as materials for students to use 
that will assist them in their job search.
    <bullet> Bison Career Link: This Web site is an online recruitment 
and internship/job search site that links to hundreds of employers. It 
also provides people looking for jobs access to daily updated listings 
of on-campus jobs, internship opportunities, as well as part-time and 
full-time employment openings.
    <bullet> On-Campus Recruitment Program: Employers come to Gallaudet 
to recruit students for internships, summer jobs, and permanent 
employment. They host information sessions, on-campus interviews and 
mock interviews.
    <bullet> Workforce Recruitment Program: The Gallaudet Career Center 
is involved with the Workforce Recruitment Program. This program is run 
by the Office of Disability Employment Policy and the Department of 
Defense. It connects Federal and private sector employers with students 
who are searching for summer and permanent employment and also keeps a 
database that details the qualifications of each student.

    Question 5. Has Gallaudet formed partnerships with other 
institutions of higher education to assist non-Gallaudet deaf and hard-
of-hearing students with their job searches? Please describe these 
arrangements?
    Answer 5. Gallaudet has a system of regional centers throughout the 
United States, called Gallaudet University Regional Centers. These 
centers are provided in partnership with local colleges to assist deaf 
people throughout the country. The six regional centers are:

    1. Northeast: Northern Essex Community College, Haverhill, MA
    2. Southeast: Gallaudet University, Washington, DC
    3. Midwest: John A. Logan College, Carterville, IL
    4. Southwest: Austin Community College, Austin, TX
    5. West: Ohlone College, Fremont, CA
    6. Pacific: Kapi'olani Community College, Honolulu, HI

    The Gallaudet University Regional Centers provide a variety of 
resources to deaf people throughout the United States. They have 
extension courses, for deaf and hard-of-hearing people and their 
families, as well as professionals who work with deaf people. They also 
offer training workshops, which discuss literacy, family involvement 
and the transition from school to postsecondary education and 
employment, as well as other topics. These centers, where Gallaudet 
partners with other institutions of higher education, assist deaf 
people in a myriad of ways, including with the transition to 
employment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Also, Gallaudet is engaged in the ``Task Force on Health Care 
Careers for the Deaf and Hard-of-Hearing Community'' in partnership 
with the National Technical Institute for the Deaf, the Rochester 
General Health System, and the University of Rochester Medical System. 
This group, established in June 2010, is described as follows in their 
June 2011 interim report.

          ``The Task Force mission is to provide recommendations that 
        will increase career opportunities for Deaf and Hard-of-Hearing 
        individuals in health care professions. Such professions 
        include those positions typically requiring associate degree 
        level training through those requiring graduate and 
        professional education in a variety of health care fields 
        (including medical and pharmacological technologies, clinical 
        care, research, administrative and IT support). The Task Force 
        was created in response to a national demand for more skilled 
        health care professionals, a need to improve the quality of 
        health care services for underserved citizens who are D/HH, and 
        an acknowledgment of the significant employment barriers that 
        exist for qualified D/HH individuals in the health care 
        industry. The Task Force also supports and furthers current 
        Department of Labor goals that focus on increasing employment 
        and career advancement opportunities for all workers and 
        professionals with disabilities.'' \2\
---------------------------------------------------------------------------
    \2\ ``Building Pathways to Health Care Careers for the Deaf and 
Hard of Hearing Community,'' unpublished Interim Report, Short-Term 
Recommendations, Task Force on Health Care Careers for the Deaf and 
Hard-of-Hearing Community, June 2011.

    This task force is an additional way Gallaudet is teaming up with 
other institutions in order to improve employment outcomes for those 
---------------------------------------------------------------------------
who are deaf or hard of hearing.

    Question 6. What challenges do you still encounter in your efforts 
to place Gallaudet students in the workforce?
    Answer 6. One of the primary challenges faced as Gallaudet strives 
to place students in the workforce is a lack of understanding of the 
abilities of deaf people by employers. Negative stereotypes are held 
about the capabilities of our students, and this hinders our ability to 
place them in positions. Better education of employers is needed to 
show that our students are capable, competent workers. This is one of 
the added benefits of our high placement of students in internships. In 
addition to teaching students the necessary skills to thrive in their 
careers, it also shows employers what deaf people can achieve.
    Furthermore, another barrier to placement of our students is the 
cost and/or perceived cost of interpreting services and other 
accommodations. Employers may be wary of the added costs, and thus 
hesitate to hire a deaf person. They may also have erroneous ideas 
about interpreters and what that entails, and that hinders their 
willingness to try hiring a deaf person.

   Responses to Questions of Senator Enzi by Gerard J. Buckley, Ph.D.

    Question 1. It is my understanding that NTID has conducted research 
to measure your graduates' participation in programs such as 
Supplemental Security Income (SSI) and Social Security Disability 
Insurance (SSDI). Would you please discuss the findings of these 
studies?
    Answer 1. In the late 1970s, it became increasingly clear to NTID 
that self-
reported questionnaires completed by graduates were inadequate for 
assessing the impact of an NTID education on employment outcomes. As a 
result, we forged institutional partnerships over time with the 
Internal Revenue Service, the Social Security Administration, and 
disability employment and public policy experts at the School of 
Ecology at Cornell University. NTID has developed not only memoranda of 
agreement with these Federal agencies, but also data-sharing agreements 
that ensure complete confidentiality of exchanged information. The 
resulting program of research generated and supported by these 
partnerships and agreements is described as ``unique throughout higher 
education and rehabilitation services'' by Dr. Richard Burkhauser, who 
is an internationally recognized public policy expert at Cornell 
University.
    By providing the social security numbers (serving as individually 
unique identifiers) of its graduates to appropriate Federal agencies, 
NTID has obtained aggregate statistics on yearly earnings, employment 
participation, and participation in Federal assistance programs such as 
Supplemental Security Income (SSI), and Social Security Disability 
Insurance (SSDI). Analyses of these aggregate data have demonstrated 
the return on Federal investment in students who attend RIT/NTID. For 
example, deaf and hard-of-hearing bachelor degree graduates return to 
the Federal treasury an average of $6,632 per year in Federal taxes 
during their first 25 years of employment. This annual figure exceeds, 
by $2,063, the annuitized amount of $4,569 required to pay back the 
Federal investment for their education (Clarcq, J.R. & Walter, G.G., 
1998; Schley et al, 2011).
    Additionally, research conducted in 2006 compared a group of NTID 
deaf and hard-of-hearing graduates with three other groups: those 
students who were denied admission, those who were accepted but chose 
not to attend, and those who enrolled but did not persist to 
graduation. In each of these cases, it was clear that graduating as an 
NTID-supported student at RIT meant, on average, a significant increase 
in earnings. Further observations include the decreased dependency on 
Federal assistance programs such as SSI and SSDI for those individuals 
who graduate from RIT/NTID, as compared to those who do not. By age 50, 
1 percent of graduates collected SSI, while, on average, 19 percent of 
individuals who withdrew or have been rejected for admission continue 
to participate in the program. This reduction is especially noteworthy 
when one considers that 77.6 percent of students were receiving SSI 
benefits at age 19. While virtually no one participated in the SSDI 
program when they were students, by age 50 about 22 percent of 
graduates with a bachelor's and 26.8 percent of grads with an 
associate's degree were receiving SSDI benefits. These rates compare 
favorably to 34 percent for non-graduates.
    In short, deaf and hard-of-hearing graduates from RIT/NTID have 
higher employment rates, higher earnings, and a lower draw of Federal 
funds than deaf and hard-of-hearing students not graduating from RIT/
NTID. By age 50, deaf and hard-of-hearing bachelor degree graduates 
from RIT/NTID earn on average $6,021 more than those with associate 
degrees; who in turn earn $3,996 more on average than those who 
withdraw; who themselves earn $4,329 more than those who are not 
admitted.

    Question 2. Given that NTID operates within the Rochester Institute 
of Technology, would you discuss how much integration there is between 
NTID and the rest of RIT? What types of interactions and commonalities 
are there between NTID students and the larger RIT student body?
    Answer 2. RIT's total enrollment this fall is 17,652 students, 
including NTID's contribution of 1,547 students. All RIT students are 
represented by RIT Student Government, whose president for the last 2 
years has been Greg Pollock, a former NTID Student Congress President 
and deaf student pursuing his bachelor's degree in Professional and 
Technical Communication. This year and last year, Greg was the only 
student to give a speech at the RIT Convocation for New Students and 
Families, which he did in American Sign Language or ASL (with voicing 
and captioning provided by NTID Access Services staff). Greg's vice 
president for 2 years, Phil Amsler, is a hearing student who signs 
fluently, though he learned ASL only after arriving at RIT.
    Like Phil, many RIT students become interested in ASL as a result 
of NTID. The number of students taking ASL has more than tripled at RIT 
over the past 4 years--this year, 2,193 students enrolled in ASL 
classes in just the fall, winter and spring quarters. RIT students 
organize the No Voice Zone, where they meet regularly (often in late 
evening) to teach, laugh and learn about deaf culture. Another example 
of the integration of NTID within RIT is the opening of the RIT 
American Sign Language and Deaf Culture Community Center last year, 
right in the center of campus at RIT's Student Alumni Union.
    NTID-supported students can take full advantage of all RIT 
resources and programs. For example, one of the students chosen to 
participate in RIT's Global Leadership Certificate Program from the 75 
who applied is deaf. At the first meeting of that program, a hearing 
RIT student from Brazil shared how he joined a primarily deaf and hard-
of-hearing fraternity on campus since ``most of my friends are deaf.'' 
In addition to diversity programs such as this, NTID students can also 
participate in study abroad programs. Maya Ariel, who attended the 
Senate HELP hearing on October 11, was able to spend 10 weeks in Italy 
on one of RIT's study abroad programs.
    NTID provides services that maximize access and success of deaf and 
hard-of-hearing students engaged in wellness courses, intercollegiate 
athletics, and intramural and recreation programs. In fiscal year 2010, 
NTID had 15 student athletes competing in basketball, lacrosse, soccer, 
cross-country, track and wrestling. A new feature-length film, The 
Hammer, dramatizes the true story of one of RIT/NTID's student 
athletes, Matt Hamill. After transferring to RIT/NTID from Purdue 
University, Matt went on to graduate from NTID and become a three-time 
NCAA Wrestling Division III National Champion, the first deaf wrestler 
to win a national collegiate championship.
    NTID's Performing Arts department brings together deaf, hard-of-
hearing and hearing students, faculty/staff and members of the 
Rochester community as actors, dancers, theater technicians and front-
of-house staff (box office and ushers). Actors who are deaf or hard-of-
hearing perform their lines using ASL, while hearing actors on stage 
simultaneously speak the lines. In fiscal year 2010, more than 490 
individuals participated in six performances.
    Regardless of degree program, deaf and hard-of-hearing students are 
able to take advantage of myriad access services designed specifically 
for them. In fiscal year 2010, 42 percent of NTID's 1,332 deaf and 
hard-of-hearing students were pursuing baccalaureate or graduate 
degrees alongside hearing students at RIT. There are faculty tutors, 
advisors, notetakers, and captionists, as well as the largest staff of 
full-time interpreters of any college in the world. On-site 
audiologists provide services related to hearing and hearing aids, 
cochlear implants and FM systems. Speech-language pathologists offer a 
broad range of speech and language services. NTID also works with each 
of RIT's colleges to provide the support needed to implement strategies 
for maximizing access to campus services for deaf students.

    Question 3. What types of on-campus career services does NTID 
provide for students?
    Answer 3. Prior to students' cooperative work experiences (usually 
off-campus), NTID's Center on Employment (NCE) offers a Job Search 
Process course to support student learning about how to organize and 
conduct job search activities. In fiscal year 2010, 141 NTID students 
enrolled in this course. NCE staff also offer specific sessions on 
resumes and career development workshops, with 82 NTID students 
participating in such workshops in fiscal year 2010.
    Students utilize the extensive NCE Web site and print resources to 
research prospective employers, identify appropriate employment 
opportunities and obtain information about applying for a job and 
working. During the academic year, employment advisors meet with 
students at different locations on campus and reach out to students at 
different NTID events. NCE advisors also provide job-seeking advice to 
students and graduates through e-mail, instant messaging and 
videophone. In fiscal year 2010, NCE staff provided more than 3,000 
hours of student and graduate employment advising.
    Every fall quarter, NCE also hosts its annual job fair. In October 
2011, the NTID Job Fair hosted over 40 employers with almost 400 
students and alumni participating. During this fair, six employers 
participated in a panel discussion, explaining the job search process 
from their company's perspective and answering questions from student 
attendees.
    Also, NTID's counseling services department manages a full-service 
Career Resource and Testing Center that provides a number of career 
assessment tools and resources, including an interactive, computer-
based career information system that helps students assess their 
interests, learning styles and values, and explore a wide range of 
career and educational options. Last year, this department provided 
more than 11,500 hours of career and personal counseling as well as 
academic advising for students.

    Question 4. Has NTID formed partnerships with other institutions of 
higher education to assist non-NTID deaf and hard-of-hearing students 
with their job searches? Please describe these arrangements?
    Answer 4. As Gallaudet University President Alan Hurwitz mentioned, 
NTID has joined with Gallaudet, the National Center on Deaf Health 
Research at the University of Rochester Medical Center, and the 
Rochester General Health System to form a Task Force on Health Care 
Careers for the Deaf and Hard-of-Hearing Community. This task force 
will address the limited opportunities for qualified deaf and hard-of-
hearing individuals in this country to pursue careers in health care. 
Through the unique partnership of these institutions and organizations, 
the task force aims to expand opportunities for deaf and hard-of-
hearing individuals within health care professions through increased 
accessibility strategies and options, the coordination and development 
of educational programs and enabling policy. The task force will issue 
its recommendations in March 2012.
    Another recent partnership between NTID and other institutions of 
higher education to assist non-NTID deaf and hard-of-hearing students 
with employment is DeafTEC. The National Science Foundation has awarded 
more than $4.45 million over 4 years to RIT/NTID to establish DeafTEC: 
Technological Education Center for Deaf and Hard-of-Hearing Students, 
an Advanced Technological Education (ATE) National Center of 
Excellence. There are approximately 40 ATE centers across the country, 
and DeafTEC will be the first ever established to serve individuals who 
are deaf or hard of hearing.
    DeafTEC will establish a model within targeted regions of the 
country--California, Texas and Florida--that will create partnerships 
among high schools, community colleges, and industry to improve access 
to technological education and employment for deaf and hard-of-hearing 
students. The initial regional DeafTEC partners are:

California

    California School for the Deaf, Riverside
    Pierce College, Woodland Hills
    Cisco Systems Inc., San Jose
    Solar Turbines Incorporated, San Diego
    The Dow Chemical Company, Hayward and La Mirada

Florida

    Florida School for the Deaf & the Blind, St. Augustine
    St. Petersburg College, St. Petersburg
    ConMed Linvatec Corporation, Largo
    BioDerm, Inc., North Largo
    Bovie Medical Corporation, Clearwater

Texas

    Texas School for the Deaf, Austin
    Austin Community College, Austin
    The Dow Chemical Company, Houston, Bay Port, Texas City, Deer Park/
LaPorte, Freeport and Seadrift

    DeafTEC will serve as a resource for high schools and community 
colleges across the country that educate deaf and hard-of-hearing 
students in science, technology, engineering, and mathematics (STEM) 
related programs and for employers hiring deaf and hard-of-hearing 
individuals. Through its comprehensive Web site, DeafTEC will serve as 
a clearinghouse for information related to technical education and 
technician careers for deaf and hard-of-hearing students, including 
career awareness materials, teaching strategies for improving student 
access to learning, developmental math and English curricula, and 
information for employers to help them provide a more accessible 
workplace.
    The goal of this national center is to successfully integrate more 
deaf and hard-of-hearing individuals into the workplace, especially in 
highly skilled technician jobs where deaf and hard-of-hearing workers 
are currently underrepresented and underutilized. DeafTEC will provide 
them, as well as their teachers, counselors, employers and co-workers 
with the resources that will help them succeed, both in the classroom 
and on the job.
    NTID has also been awarded a $1.6 million 5-year grant from the 
National Science Foundation's Research in Disability Education program 
to establish a virtual academic community for non-NTID college students 
who are deaf or hard of hearing and majoring in the STEM fields. 
Cornell University and Camden County (NJ) College will be NTID's 
initial partners on the project.
    The program is designed to increase graduation rates of deaf and 
hard-of-hearing STEM majors in postsecondary education in the long 
term. The grant team members will create a model that will provide 
remote tutoring and mentoring support and captioning and interpreting 
access services, via the cyber infrastructure, for the more than 30,000 
deaf and hard-of-hearing students studying in mainstream colleges 
across the country. Although being piloted in the Northeast, the 
project seeks to implement a model that will be shared throughout the 
country.

    Question 5. What challenges do you still encounter in your efforts 
to place NTID students in the workforce?
    Answer 5. NTID has been fortunate to build outstanding and 
productive relationships with employers across the country that 
understand and value the talents that our graduates bring to the table. 
These employers also understand that, just as these students repay the 
Federal investment in their education at RIT/NTID, their productivity 
also repays employer investment in their accommodations many times 
over.
    But these are the lucky employers, the ones who are already taking 
advantage of a deep talent base of educated deaf and hard-of-hearing 
professionals. Despite all the outreach that we and other entities 
conduct with employers, and despite the many laws and regulations 
mandating equal opportunity in hiring and accessibility in employment, 
there continues to be prejudice and ignorance about hiring and working 
with deaf and hard-of-hearing individuals.
    As an example, earlier this year, ABC's television show What Would 
You Do? featured NTID students Hannah Worek and Maya Ariel, who both 
attended the Senate hearing, acting as job applicants at a coffee shop. 
An actor portraying the shop's manager told the young women that they 
would not be hired simply because they are deaf. Sadly, in this 
instance, only a few individuals spoke out against this discrimination. 
What is worse, several customers who identified themselves as HR 
professionals advised the manager on how to ``legally'' discriminate in 
ways that could not be easily detected or proven. NTID is using the 
show as another positive launching pad for providing outreach and 
education to human resource professionals and employers.
    Another challenge continues to be ensuring that NTID students, like 
their hearing counterparts, keep pace with the changing job market and 
technical skills needed in the workplace. RIT and NTID work to address 
those challenges by creating new academic programs in ``hot job'' 
categories, using employer feedback to tweak existing academic 
programs, and making sure equipment and facilities continue to be 
state-of-the-art.
    Appropriate academic preparation for college is another challenge 
for some deaf and hard-of-hearing students. NTID tries to improve that 
preparation through its outreach programs that connect with middle and 
high school students and alert them to what they need to do to prepare 
for college and career success.

             Responses to Questions of Senator Enzi by IBM

    Question 1. Besides working with Gallaudet and NTID, what other 
work is IBM doing to employ people who are deaf or hard-of-hearing?
    Answer 1. IBM has several ways of recruiting deaf or hard-of 
hearing candidates.

    <bullet> IBM maintains relationships with many recruiting agencies/
vendors which specialize in diverse candidates, among them the National 
Disability Business Council and Getting Hired.
    <bullet> Working with programs like Entry Point, a program 
developed between the American Association for the Advancement of 
Science (AAAS), IBM and NASA, and IBM's Project View, a diversity 
recruitment program offering students the opportunity to explore IBM's 
national career options. Project View has been an especially successful 
path into IBM for many people with disabilities.
    <bullet> IBM hosts an annual technology camp for deaf and hard-of-
hearing high school students to help build a pipeline of future 
scientists and engineers and encourage them to pursue careers in math, 
science and engineering.
    <bullet> IBM enlists employees, like Seth Bravin, to help recruit 
potential candidates by participating in conferences, forums and 
seminars that showcase their careers and work. By making the case for 
an inclusive workplace and modeling best practices, other companies are 
also encouraged to employ people with disabilities. IBM is proud of its 
diverse employment history and our employees take every opportunity to 
share our story. For example, Seth has recently presented at the 
National Association of the Deaf conference, Hearing Loss Association 
of America conference, Deaf & Hard of Hearing in Government conference, 
and the Work RERC (Rehabilitation Engineering Research Center on 
Workplace Accommodations) Conference.

    Question 2. What can be done to encourage more partnerships between 
industry and higher education that will promote employment 
opportunities for people who are deaf and hard-of-hearing?
    Answer 2. We have found the best way for IBM to encourage more 
industry partnerships is to share our best practices and our success 
stories as well as be a recruitment and hiring model for our suppliers 
and partners. In Seth's testimony he discussed this in the section 
entitled, A Shared Responsibility: Build the employment candidate 
pipeline.
    Other ideas for promoting partnerships:

    <bullet> Government using recognition and awards to highlight 
companies, practices, or people that are leading the way in hiring.
    <bullet> Promoting the return on investment and making a business 
case for hiring people with disabilities. Askearn.org is an excellent 
resource for this information, a collaborative project between USBLN 
and DOL/ODEP.
    <bullet> College and school boards or advisory committees including 
business executives as an important part of their mission.
    <bullet> Emphasizing in government education and research grants 
corporate collaboration with higher education on projects--e.g. 
intellectual property development.

    For example, IBM collaborated with leaders from higher education to 
develop the IBM Education Cloud. This cloud computing initiative 
provides computing platforms as a service (PaaS), software as a service 
(SaaS), advanced analytics, and virtualized desktops featuring open 
source technologies. A companion Cloud Academy initiative composed of 
partners from education institutions helped shape IBM's Education Cloud 
into a robust and productive educational environment. The Education 
Cloud is both a platform for daily classroom services and for future 
innovations; as such, the services and functions it provides were 
developed to be accessible to users of various ages and capabilities.

    Question 3. What challenges have you encountered in your efforts to 
hire individuals who are deaf or hard-of-hearing?
    Answer 3. We continue to seek qualified candidates ready to step 
into the complexities of a global environment, and are eager to hire as 
needed and as appropriate. The challenge remains, to work for IBM a 
candidate must be strong in a STEM field, with an excellent scholastic 
record and skill development. This is true for all our employees. 
Candidates with the correct skill set are at times difficult to find. 
In Seth's testimony he also highlighted the transportation and 
available assistive technology as barriers.

    Question 4. Both you and Mr. Ellis have spoken very highly of the 
other's efforts to hire individuals who are deaf and hard-of-hearing. 
With this in mind, what types of things are you doing to encourage 
other companies to also develop relationships with Gallaudet and NTID, 
and to hire individuals who are deaf and hard-of-hearing?
    Answer 4. Again, IBM feels that the best way to encourage companies 
to hire people with disabilities or to work with academic institutions 
is to model our best practices and put IBM professionals in visible 
roles. By having deaf and hard-of hearing employees in our key 
functions such as research, software development, and technology 
services, we are able to leverage their talent and insight to develop 
innovative solutions that are unique and differentiated.
    In addition, we work with IBM business partners and advocacy 
organizations including USBLN, the American Association of People with 
Disabilities, and the Hearing Loss Association of America to actively 
market and sell accessible workplace solutions. We model a diverse 
workforce and provide a roadmap for the successful hiring and 
accommodation of individuals with disabilities, including those who are 
deaf and hard-of-hearing.

       Responses to Questions of Senator Enzi by Michael J. Ellis

    Question 1. Besides working with Gallaudet and NTID, what other 
work is Sprint doing to employ people who are Deaf or hard of hearing?
    Answer 1. Sprint is an Equal Opportunity Employer, which includes 
employing individuals with disabilities. We enthusiastically embrace a 
diverse and inclusive workforce. We provide a variety of accommodations 
throughout the job application process as needed, and prospective 
employees may utilize the very same process available to employees 
regarding appropriate accommodations.
    Sprint is committed to offering products and services that are 
accessible for the Deaf and hard-of-hearing. Through this commitment, 
we have learned that if these communities know that the people behind 
our products and services are also Deaf or hard of hearing, our 
offerings are better received. When we're representative of the 53 
million customers we serve, we're better at meeting their expectations. 
We understand them and know their needs. Common sense and commitment to 
quality have become the driving force behind our success. When a 
corporation's programs, products and services are conceptualized, 
designed, and provided by people with similar disabilities, the 
consumer community knows and trusts the output to be exactly what they 
need and want.
    Sprint Relay employees are actively involved in various national 
and State associations for the Deaf and hard of hearing, including the 
National Association of the Deaf (NAD), Hearing Loss Association of 
America (HLAA), Association of Late Deafened Adults (ALDA) and many 
State associations of the Deaf. We also market our accessible products 
and services at national conventions, such as the American Association 
of Retired People (AARP), Abilities Expo and Deaf Nation regional 
conferences. It is through these associations and events that we are 
able to show the community and other businesses our commitment to 
hiring people with disabilities. We also share job openings with these 
associations and other Deaf and hard-of-hearing news Web sites such as 
www.deafdigest.net.

    Question 2. What can be done to encourage more partnerships between 
industry and higher education that will promote employment 
opportunities for people who are Deaf and hard of hearing?
    Answer 2. Higher education institutions can educate the corporate 
community by inviting companies to participate in paid internship 
placements, job mentoring and transitional support programs. As part of 
these career placement programs, higher education institutions should 
also offer consultative and training programs to businesses on how to 
provide reasonable accommodation to prospective employees who are Deaf 
or hard of hearing. This consultation and training support should help 
employers address the types of environmental (visual), communicative 
(American Sign Language) and attitudinal barriers (``Deaf people can't 
. . . '') that may be present in the workplace.
    Higher education programs can also prepare students to become self-
advocates by providing them with knowledge regarding reasonable 
accommodations available to them under Title 1 of The Americans with 
Disabilities Act.
    One of the biggest challenges many businesses have in hiring the 
Deaf and hard of hearing is understanding and budgeting for 
compensation pertaining to costs related to communication access, i.e., 
American Sign Language interpreters. Without this type of 
accommodation, a Deaf applicant may never be considered for a job 
opening or, once hired, not be able to participate in certain work-
related activities and programs. While the advent of text- and video-
based technology has certainly made this communication barrier less of 
an obstacle, it does not replace the need for translation between 
American Sign Language and English.

    Question 3. What challenges have you encountered in your efforts to 
hire individuals who are Deaf or hard of hearing?
    Answer 3. Because Sprint sets such a high value on inclusion and 
diversity and the value it brings to making our products and services 
best in class, we don't really have any challenges in hiring the Deaf 
and hard of hearing at Sprint. Active memberships and leadership roles 
in the community help Sprint remain involved and connected with the 
very best pool of potential applicants for job openings as they become 
available.
    However, based on my experience, some recent graduates could 
benefit from additional training on how to effectively and continuously 
advocate for themselves. Such training and support may determine 
whether they succeed in an increasingly competitive workforce. 
Specifically, Sprint and most employers are very supportive of 
providing applicants with the necessary accommodations to level the 
playing field with other applicants; however, students should engage 
the employer prior to entering the process, discuss any accommodations 
that have proven successful for them in the past and utilize the 
accommodation process provided, understanding that each employer is 
unique and must evaluate the situation on a case-by-case basis. This 
facilitates the employer being prepared for the needs of the applicant 
and will improve the student's chances of successfully finding a 
position.

    Question 4. Both you and Mr. Bravin have spoken very highly of the 
other's efforts to hire individuals who are Deaf and hard of hearing. 
With this in mind, what types of things are you doing to encourage 
other companies to also develop relationships with Gallaudet and NTID, 
and to hire individuals who are Deaf and hard of hearing?
    Answer 4. Sprint leads by example. Our goal for more than 20 years 
has been to offer the latest technology and service to the Deaf and 
hard-of-hearing communities. We do business and buy services from 
companies that specifically employ the Deaf and hard of hearing, are 
owned by the Deaf or hard of hearing, or provide services to those 
communities. This investment serves as a catalyst for those businesses 
to continue to hire employees who are also Deaf and hard of hearing.
    Sprint works with more than 100 businesses and agencies that focus 
solely on the Deaf and hard-of-hearing communities. From Deafnation, 
Inc. to National Black Deaf Advocates to Deaf Tech News, Sprint has 
made a significant investment in the Deaf and hard-of-hearing community 
in business spend alone. This support at both the local and national 
level underscores our commitment to the Deaf community and inclusion.
    Sprint products and services that are available to our customers 
include relay services, hearing aid-compatible wireless phones, TTY-
compatible phones, Sprint Video Relay Services, Sprint IP Relay, Sprint 
Relay with AIM, CapTel and Web CapTel along with the ability to use 
Video Customer Service. Sprint Mobile IP Relay is a free application 
that can be downloaded from the Android market onto select Android 
devices, and empowers thousands of users in the Deaf and hard-of-
hearing communities and people with speech disabilities to communicate 
by phone virtually anywhere and anytime.
    Since the Americans with Disabilities Act, many Deaf and hard-of-
hearing citizens have benefitted from Sprint Relay's products and 
services to the extent that it helps them apply for jobs and remain 
employed. They may use one of our many different telephone relay 
service applications to make phone calls, set up interviews, conduct 
interviews, and to communicate with others once they are hired. With 
these tools and accessible resources, employers really have no excuse 
not to hire more Deaf and hard-of-hearing employees. Relay services 
removed communication barriers and leveled the playing field in today's 
competitive work environment.
    Working for Sprint has been a very empowering experience for me. 
Through the years I've seen many of my Deaf and hard-of-hearing co-
workers receive promotions, take on additional responsibilities or move 
on to other companies also known for providing accessibility and 
promoting the employment opportunities for Deaf and hard-of-hearing 
citizens. Sprint has a great reputation as a training ground and place 
to establish a career because of its commitment to accessibility and 
inclusion. I'm proud to say that I'm a Sprint employee.
                                 ______
                                 
   Consortium for Citizens With Disabilities (CCD),
                                                  October 21, 2011.
Hon. Tom Harkin, Chairman,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC 20510.

Hon. Mike Enzi, Ranking Member,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC 20510.

    Dear Senators Harkin and Enzi: On behalf of the Consortium of 
Citizens with Disabilities Employment and Training Task Force, we 
appreciate your commitment in addressing employment outcomes for people 
who are Deaf and Hard of Hearing at the field hearing on October 11, 
2011, ``Leveraging Higher Education to Improve the Employment Outcomes 
for People Who Are Deaf and Hard of Hearing.'' The Consortium of 
Citizens with Disabilities is a coalition of more than 130 national 
disability-related organizations working together to advocate for 
national public policy that ensures full equality, self-determination, 
independence, empowerment, integration and inclusion of children and 
adults with disabilities in all aspects of society.
    The CCD Employment and Training Task Force believes that meaningful 
employment represents one of the best opportunities for people with 
disabilities as they work toward becoming productive and independent 
members of their community. To that end, we applaud your continued 
efforts to address the deplorable state of labor force participation 
rate among Americans with disabilities including people who are deaf 
and hard of hearing. While the task force strongly supports giving 
people with disabilities the widest opportunities to achieve their 
highest levels of educational attainment which was the primary focus of 
the hearing, we want to remind the committee that many people with 
disabilities may instead pursue vocational endeavors in post-secondary 
life. Barriers to their success must also be removed.
    Our task force believes that employment of individuals with 
disabilities requires a comprehensive approach that addresses all 
aspects of their lives in order to ensure that every individual 
receives appropriate education, training, and transition services in 
order to prepare them for the workforce. Such an approach also requires 
addressing a wide range of other issues: outreach to and engagement 
with employers, service monitoring and quality assurance, engagement of 
individuals and families, the availability of benefits counseling that 
supports community employment, transportation, and inter-agency 
collaboration with public vocational rehabilitation, to name just a 
few. Strong transition services from school-to-work, with a clear focus 
on community employment are also critical.
    All of these things can be achieved through the reauthorization of 
the Workforce Investment Act and our task force hopes that the 
committee will continue moving forward with legislation this session. 
We recently submitted to the House Committee on Education and the 
Workforce, the following set of principles for reauthorization which 
may also be helpful in your deliberations:

          WORKFORCE INVESTMENT ACT REAUTHORIZATION PRINCIPLES

    <bullet> People with disabilities including people who are deaf and 
hard of hearing using the workforce investment system must be thought 
of as job seekers first. The workforce investment system should then 
respond to their needs from this assumption as it would any job seeker 
utilizing the system.
    <bullet> The workforce investment system should be reconstructed 
using the principles of universal design to ensure that any job seeker 
can access the full array of services available.

        <bullet>  Training should be enhanced for workforce investment 
        system staff to respond to differing levels of customer need.
        <bullet>  The workforce investment system should be structured 
        to access and utilize a variety of approaches and strategies to 
        infuse disability awareness throughout local service delivery 
        systems.
        <bullet>  This reauthorization should strengthen the workforce 
        investment systems commitment to physical, technological and 
        programmatic accessibility.

    <bullet> People with disabilities must be included in any 
categories of priority of service and funds should be dedicated to 
meeting those needs. Workforce investment funds should prioritize 
targeted at-risk groups.
    <bullet> The workforce investment system should approach each job 
seeker as an individual and respond to his or her needs accordingly.

        <bullet>  It should provide each job seeker with access to 
        training needed to meet local labor market needs.
        <bullet>  It should utilize strategies such as assistive 
        technology, supported or customized employment, job 
        restructuring, and flex arrangements that allow job seekers to 
        maximize opportunities in the local labor market.
        <bullet>  It should provide reasonable accommodations when 
        appropriate.

    <bullet> A dedicated Federal funding stream should be established 
to adequately fund all of the infrastructure costs of our Nation's job 
training system.
    <bullet> The role of the workforce investment system in youth with 
disabilities transitioning from school to work and community life 
should be strengthened.
    <bullet> The workforce investment system should strengthen its 
coordination with vocational and educational programs for veterans with 
disabilities to ensure that wounded warriors access all services and 
benefits to which they are entitled.
    <bullet> The workforce investment system must be held accountable 
for its services to people with disabilities. This means that:

        <bullet>  The performance measurement system should be 
        redesigned so as to not create disincentives to serving people 
        with disabilities.
        <bullet>  Reporting requirements must be changed to include 
        data on services to people with disabilities.
        <bullet>  State and local system governance plans should 
        explicitly outline strategies for serving individuals with 
        disabilities.
        <bullet>  Local systems should engage employment service 
        providers with expertise in serving people with disabilities.
        <bullet>  Governance bodies should assure that staff is 
        appropriately trained to respond to the needs of job seekers 
        with disabilities.

    <bullet> The employment interests of people with disabilities must 
be represented in the workforce investment system's governance 
structure.
    <bullet> The Secretary of Labor should ensure that personnel with 
expertise in disability policy and programs are embedded in the local 
and State system to promote linkages between public and private 
agencies and expand employment opportunities for people with 
disabilities.
    <bullet> Authorizing and strengthening the Office of Disability 
Employment Policy's role in shaping and advancing policy on employment 
of people with disabilities.
    We hope this document will be useful as you move through the 
legislative process and look forward to working with you and the 
committee over the coming months to renew and improve the Workforce 
Investment Act.
            Sincerely,
                                                    ACCSES,
                  Association of Assistive Technology Act Programs.

                                              Easter Seals,
                                                      NISH,
         National Association of Councils on Developmental 
                                              Disabilities,
                National Council on Independent Living, and
                             Paralyzed Veterans of America.

    [Whereupon, at 2:56 p.m., the hearing was adjourned.]

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
